<html>
<title> - H.R. 86, H.R. 118, H.R. 1925, H.R. 2689, H.R. 2781 & H.R. 2888</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
    H.R. 86, H.R. 118, H.R. 1925, H.R. 2689, H.R. 2781 & H.R. 2888

=======================================================================

                           LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                       Thursday, October 1, 2009

                               __________

                           Serial No. 111-37

                               __________

       Printed for the use of the Committee on Natural Resources


[TIFF NOT AVAIALBLE IN GRAPHICS FORMAT]


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov
      

                           -------------------

                        U.S. GOVERNMENT PRINTING OFFICE
52-627 PDF                    WASHINGTON: 2009
______________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001






                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            Don Young, Alaska
Neil Abercrombie, Hawaii             Elton Gallegly, California
Grace F. Napolitano, California      John J. Duncan, Jr., Tennessee
Rush D. Holt, New Jersey             Jeff Flake, Arizona
Madeleine Z. Bordallo, Guam          Henry E. Brown, Jr., South 
Dan Boren, Oklahoma                      Carolina
Martin T. Heinrich, New Mexico       Louie Gohmert, Texas
Peter A. DeFazio, Oregon             Bill Shuster, Pennsylvania
Maurice D. Hinchey, New York         Robert J. Wittman, Virginia
Donna M. Christensen, Virgin         Paul C. Broun, Georgia
    Islands                          Mike Coffman, Colorado
Diana DeGette, Colorado              Cynthia M. Lummis, Wyoming
Ron Kind, Wisconsin                  Tom McClintock, California
Lois Capps, California               Doc Hastings, Washington, ex 
Jay Inslee, Washington                   officio
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia, 
    ex officio

      

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, October 1, 2009........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     3
    Chaffetz, Hon. Jason, a Representative in Congress from the 
      State of Utah..............................................    28
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     2
        Prepared statement of....................................     2
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     7
    Hinchey, Hon. Maurice D., a Representative in Congress from 
      the State of New York......................................     9
    Holt, Hon. Rush D., a Representative in Congress from the 
      State of New Jersey........................................    31
    Lummis, Hon. Cynthia M., a Representative in Congress from 
      the State of Wyoming.......................................    29

Statement of Witnesses:
    Abbey, Robert V., Director, Bureau of Land Management, U.S. 
      Department of the Interior.................................    32
        Prepared statement on H.R. 86............................    33
        Prepared statement on H.R. 118...........................    34
        Prepared statement on H.R. 1925..........................    35
        Prepared statement on H.R. 2689..........................    38
        Prepared statement on H.R. 2781 and H.R. 2888............    39
    Anderson, Ross C. ``Rocky,'' Former Mayor, Salt Lake City, 
      Utah.......................................................    78
        Prepared statement on H.R. 1925..........................    79
    Bell, Hon. Gregory S., Lieutenant Governor, State of Utah, 
      Salt Lake City, Utah, on behalf of Governor Gary R. Herbert    63
    Bennett, Hon. Robert F., a U.S. Senator from the State of 
      Utah.......................................................    15
    Campbell, Hon. John, a Representative in Congress from the 
      State of California........................................    27
    Garbett, Bryson, Former Utah State Legislator, Salt Lake 
      City, Utah.................................................    73
        Prepared statement on H.R. 1925..........................    74
    Hatch, Hon. Orrin, a U.S. Senator from the State of Utah.....    12
        Prepared statement on H.R. 1925..........................    14
    Holtrop, Joel, Deputy Chief, National Forest System, Forest 
      Service, U.S. Department of Agriculture....................    40
        Prepared statement on H.R. 2888..........................    41
    Jones, John, Carbon County Commissioner, Price, Utah.........    65
        Prepared statement on H.R. 1925..........................    67
    Matheson, Hon. Jim, a Representative in Congress from the 
      State of Utah..............................................    19
        Prepared statement on H.R. 1925..........................    21
    McIntosh, William A., President and CEO, National D-Day 
      Memorial Foundation, Bedford, Virginia.....................    50
        Prepared statement on H.R. 2689..........................    52
    Metcalf, Peter, CEO/President & Co-Founder, Black Diamond 
      Equipment Ltd., Utah.......................................    68
        Prepared statement on H.R. 1925..........................    70
    Moody, Michael, President, Molalla River Alliance, Molalla, 
      Oregon.....................................................    53
        Prepared statement on H.R. 2781..........................    55
    Perriello, Hon. Thomas, a Representative in Congress from the 
      State of Virginia..........................................    22
        Prepared statement on H.R. 2689..........................    24
    Schrader, Hon. Kurt, a Representative in Congress from the 
      State of Oregon............................................    25
        Prepared statement on H.R. 2781..........................    26
    Stahl, Andy, Executive Director, Forest Service Employees for 
      Environmental Ethics, Eugene, Oregon.......................    58
        Prepared statement on H.R. 2888..........................    60

Additional materials supplied:
    Herbert, Hon. Gary R., Governor, State of Utah, Letter 
      submitted for the record on H.R. 1925......................    64
                                     


   LEGISLATIVE HEARING ON H.R. 86, TO ELIMINATE AN UNUSED LIGHTHOUSE 
 RESERVATION, PROVIDE MANAGEMENT CONSISTENCY BY BRINGING THE ROCKS AND 
 SMALL ISLANDS ALONG THE COAST OF ORANGE COUNTY, CALIFORNIA, AND MEET 
 THE ORIGINAL CONGRESSIONAL INTENT OF PRESERVING ORANGE COUNTY'S ROCKS 
AND SMALL ISLANDS; H.R. 118, TO AUTHORIZE THE ADDITION OF 100 ACRES TO 
    MORRISTOWN NATIONAL HISTORICAL PARK; H.R. 1925, TO DESIGNATE AS 
  WILDERNESS CERTAIN FEDERAL PORTIONS OF THE RED ROCK CANYONS OF THE 
COLORADO PLATEAU AND THE GREAT BASIN DESERTS IN UTAH FOR THE BENEFIT OF 
    PRESENT AND FUTURE GENERATIONS OF AMERICANS (AMERICA'S RED ROCK 
 WILDERNESS ACT OF 2009); H.R. 2689, TO AUTHORIZE THE SECRETARY OF THE 
 INTERIOR TO STUDY THE SUITABILITY AND FEASIBILITY OF DESIGNATING THE 
NATIONAL D-DAY MEMORIAL IN BEDFORD, VIRGINIA, AS A UNIT OF THE NATIONAL 
  PARK SYSTEM; H.R. 2781, TO AMEND THE WILD AND SCENIC RIVERS ACT TO 
DESIGNATE SEGMENTS OF THE MOLALLA RIVER IN OREGON, AS COMPONENTS OF THE 
 NATIONAL WILD AND SCENIC RIVERS SYSTEM; AND H.R. 2888, TO PROVIDE FOR 
 THE DESIGNATION OF THE DEVIL'S STAIRCASE WILDERNESS AREA IN THE STATE 
 OF OREGON, TO DESIGNATE SEGMENTS OF WASSON AND FRANKLIN CREEKS IN THE 
    STATE OF OREGON AS WILD OR RECREATION RIVERS (DEVIL'S STAIRCASE 
                        WILDERNESS ACT OF 2009).

                              ----------                              


                       Thursday, October 1, 2009

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:07 a.m. in 
Room 1324, Longworth House Office Building, Honorable Raul M. 
Grijalva [Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Bishop, Hastings, 
DeFazio, Heinrich, Hinchey, Chaffetz, and Lummis.

 STATEMENT OF THE HONORABLE RAUL M. GRIJALVA, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you very much. Let me call the 
Subcommittee on National Parks, Forests and Public Lands to 
order.
    Today's agenda is H.R. 86, H.R. 118, H.R. 1925, H.R. 2689, 
H.R. 2781 and H.R. 2888. I first of all would like to ask for 
unanimous consent that Congressman Chaffetz and Congressman 
Frelinghuysen be allowed to join us at the dais. If there is no 
objection, so ordered.
    I also need to announce that we will probably be called to 
vote shortly, and those votes will be soon.
    Let me take the time to welcome some people: the newly 
confirmed BLM Director, Mr. Abbey, welcome. We look forward to 
working with you in the coming months on some very pressing 
issues that confront BLM, and look forward to your leadership 
and your vision for that agency. I also want to thank Senator 
Hatch from Utah for taking the time to come over here and 
discuss H.R. 1925. I also want to thank Senator Bennett for 
being here to discuss H.R. 1925, as well as the Lieutenant 
Governor of Utah.
    I know that the Red Rocks Wilderness bill has garnered just 
a bit of attention today, and I know that the debate will be a 
constructive one, so I am looking forward to that. I also hope 
that as we go through it, we are able to discuss some of the 
needs in the legislation and that some of the changes, if any, 
are talked about.
    We have other good pieces of legislation before us, 
including the Devil's Staircase Wilderness in Oregon and 
additional pieces of legislation that my colleagues from the 
House are going to speak to during the first panel and the 
second panel.
    So, with that, let me turn for any opening comments to the 
Ranking Member of the Subcommittee, Mr. Bishop, and then if the 
Ranking Member of the full Committee also would like to make 
some comments, they are welcome, sir.
    [The prepared statement of Mr. Grijalva follows:]

        Statement of The Honorable Raul M. Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    The Subcommittee will now come to order. Thank you. Today we will 
receive testimony on six bills.
    I would like to note that today marks the first congressional 
appearance of newly confirmed BLM Director Bob Abbey. I was delighted 
to spend some time with Director Abbey earlier this week, and I welcome 
him here today. I look forward to working with you on the many pressing 
issues facing the BLM.
    I would also like to thank the Senators from Utah for taking time 
today to come over and discuss H.R. 1925--as well as the Lt. Governor 
of Utah. I know this Red Rocks wilderness bill has garnered just a bit 
of attention today! And I know the debate on Red Rocks wilderness might 
be a contentious one. But, I hope that we can still strive to be 
constructive despite differences.
    We are actually hearing testimony on two wilderness bills today. 
Besides America's Red Rock Wilderness in Utah, we will also hear about 
Devil's Staircase Wilderness in Oregon. I am proud of what we have 
accomplished this Congress, so far, on wilderness designation in the 
passage of Public Land 111-11. And I have made clear that I intend to 
continue to support efforts to protect wilderness quality lands and to 
enhance the responsible stewardship of our public lands in general.
    H.R. 1925, America's Red Rock Wilderness Act, introduced by our 
good friend on the Subcommittee, Congressman Hinchey, would designate 
as wilderness 9 million acres of land managed by the BLM in the state 
of Utah. Many of these lands are world-renowned for their narrow, 
sandstone slot-canyons, slick-rock cliffs and stone walls covered with 
petroglyphs. The rugged mesas and buttes provide outstanding 
recreational opportunities, critical habitat for a variety of 
endangered species and contain important remnants of ancient cultures.
    I think we can all agree that dramatic landscapes like these are 
worth protecting. The canyon country of Utah is certainly unique, and 
definitely irreplaceable. It's an important place to all Americans.
    But I am also aware that a proposal of this size and complexity, 
presents some unique challenges, and has invoked strong emotions--on 
both sides of the issue.
    In today's hearing, I look forward to hearing about both the 
benefits of this legislation, as well as the concerns. And again, I 
look forward to an honest and rigorous discussion about the merits of 
this bill.
    H.R. 2888, Devil's Staircase would protect 29,600 acres of National 
Forest and Bureau of Land Management lands. The area is considered one 
of Oregon's most remote locations. As our colleague Congressman DeFazio 
found out first hand, the hike to the Devil's Staircase waterfall 
within the proposed wilderness area is not for the faint of heart. I am 
interested in learning more about this unique location.
    H.R. 118 would authorize the National Park Service to acquire up to 
100 additional acres for Morristown National Historical Park.
    H.R. 2689, would authorize a study of the National D-day Memorial 
in Bedford, Virginia for possible inclusion in the National Park 
System.
    H.R. 2781 would add 21.3 miles of the Molalla River in Oregon to 
our national wild and scenic rivers system.
    We appreciate all of our witnesses and sponsors for joining us 
today.
    With that said, I'd now like to turn to Ranking Member Bishop for 
any opening statement he may have.
                                 ______
                                 

  STATEMENT OF THE HONORABLE ROB BISHOP, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Bishop. Thank you, Mr. Chairman. I appreciate that 
opportunity and, in honor of our Senators being here, this is 
the beginning of a filibuster, so thanks for everything here.
    I would also be remiss if I did not thank some of the 
people who are here as well. I am very happy to have Senator 
Hatch, Senator Bennett and Congressman Matheson from our 
delegation as well as Congressman Chaffetz--this is one of the 
few times all five of us will ever be together, and, as 
Congressman Matheson says, ``We will all be speaking on the 
same page''--especially Lieutenant Governor Bell coming in here 
from the State of Utah. I appreciate that as well as the county 
commissioner from Carbon County. I appreciate him coming this 
way. I think there are a couple of county commissioners out 
there, but he will be speaking on their behalf.
    I would also like to thank Bryson Garbett for coming in 
here. I just have to tell you that we go back a long way. When 
I was first elected to the State Legislature, I was the 
youngest member there, and, as such, I was given this ugly baby 
doll that I had to keep. For the first three terms in the State 
Legislature, I had to keep that stupid baby doll until my 
fourth term when finally Bryson Garbett was elected from the 
West Side of Salt Lake, and I was able to pass that doll on to 
somebody else who was finally younger than I in the Utah State 
Legislature. So I appreciate him being here, and I apologize 
for losing your cell number. Sometime I will have to tell you 
what happened to the racket, the squash racket that I had to 
buy because of you. But I appreciate having them all here.
    For all of you here, for all the bills, I appreciate the 
chance of being here and our fellow Members here, but let me 
talk specifically about the one bill that is of unique impact 
to those of us here in the State of Utah.
    One of the things that will be presented in here is the 
concept of land and land use. This is not an either/or 
supposition. It is not that we will either have wilderness or 
we have degradation of this particular land. All of the land 
here is already public land. It has a form of protection 
associated with it that is currently being done by 
professionals in the field.
    If we could start with the first slide up here, just to 
give you an idea of why this bill becomes of significant 
interest to the State of Utah, the bill that you can actually 
see that just covered my congressional district and is now 
going back to the others is the State of Utah. Everything that 
is colored in there is owned by the Federal government, which 
means 67 percent of my state is owned by the Federal 
government. That produces certain concepts and certain issues 
with which we will always be dealing. Go to the next one if you 
would.
    The reason why I am Chairman of the Western Caucus, if for 
no other reason, is because all the colored land in there is 
land that is owned by the Federal government, and if you even 
go to the larger one, which is the third one, which is looking 
at the entire nation, you will see that once again the land 
that is in red and the land that is colored is land that is 
owned by the Federal government. It seems to be 
disproportionate if you look at the map in where it has to be 
generated.
    There are 653 million acres of land owned by the Federal 
government. One in every three acres is owned by the Federal 
government, and 90 percent of that land is congregated in the 
West where one out of every two acres is owned by the Federal 
government except in states like Utah where that percentage is 
even higher.
    Utah is larger than all of the New England states put 
together, and in the State of Utah, we have 8 million acres of 
Forest Service land, 3 million acres of Park Service land, 24 
million acres of BLM land, 9 million acres of state land, and 
10 million acres owned by the private sector. There are 10 
million acres of private land.
    We now want to create nine million acres of wilderness. 
That means 18 percent of Utah has to support the rest of the 
state. That is almost analogous to if New York City was 
supposed to provide all the services to those cities only by 
generating money that can come from taxes from Staten Island, 
and it is one of the reasons why Utah has a significant 
interest in this bill and why you will find that the Utah 
delegation is united in this opposition to this particular form 
and parse and process in the bill.
    I want you to hold up a couple of maps that I have over 
here too. The first one is the infamous blue map I hope, the 
infamous blue map. The blue map has blocked with the amount of 
Federal acreage in every state in the nation, and you see once 
again there is a unique phenomenon to that.
    Now hold up the one that deals with education funding. The 
states in red in this one are the states that have the most 
difficult time in funding their public education, the states 
where the growth of public education is slowest, and you will 
notice there is almost a one-to-one correlation between public 
land states and the inability of funding education. Thanks.
    One of the problems I have with this particular bill is 
that every state in the West with all of those public lands was 
promised elements that would help their public education 
funding when they were made states with the enabling act. None 
of those promises have ever been delivered.
    So it is one of those simple situations that whenever you 
do changes to public lands in Utah there will be collateral 
damage, and there will be collateral damage that hits kids. My 
kids' education is put in danger. When 77 leases were pulled 
unilaterally in the State of Utah, not only did it make base 
unemployment go from one and a half percent to eight percent 
almost overnight, but it sterilized other lands not part of 
those leases, and it also inhibited the ability of funding 
education in the State of Utah.
    If my kids are going to have a decent education in Utah, my 
state has to have a balanced economy, which includes 
development of manufacturing and a mining base to go along with 
tourism because tourism by itself is not enough.
    Utah State University did a study on the impact of 
wilderness. It is the only real conclusive study that has been, 
and as they found, while there are numerous impacts that are 
not quantifiable, the economic gains from wilderness recreation 
appear to be inconsequential and may likely be more than offset 
by losses associated with the decline in activities 
incompatible with wilderness. They went on further to say that 
the research concluded that some user communities will be 
severely impacted by wilderness designation and that wilderness 
designation could seriously impede economic development in some 
areas of the state.
    The economy of states is not uniformly impacted, but it has 
impacts, and this is why I would like now to make a motion of 
unanimous consent that a letter from the Utah State Board of 
Education be inserted into the record, who is opposed to this 
proposal; that the School Institutional Trust Land Association 
testimony be inserted into the record, which is opposed to this 
legislation; that the National Education Association letter, 
which is opposed to this legislation, be put in the record as 
well as a letter from the Governor of the State of Utah opposed 
to it, a resolution from the State Legislature opposed to it, a 
letter from the state legislative leaders opposed to it, a 
letter from the 15 counties impacted by this unanimously 
opposed to it, a resolution from the National Association of 
Counties that is opposed to this particular legislation. I 
would like to make that as a motion, Mr. Chairman.
    Mr. Grijalva. With no objection, so ordered.
    [NOTE: The information submitted for the record has been 
retained in the Committee's official files.]
    Mr. Bishop. Thank you. Let me go into a couple of other 
pictures if we could for a minute because there are four 
concerns that I have with this piece of legislation. One is the 
impact it has on the State of Utah; the second, the impact it 
has on public education; the third is simply the process of 
this particular bill.
    This bill, produced without a map so we know exactly where 
they want to do, has had some research done, and it is now 
called the Red Rocks bill with the association that there is 
beautiful scenery out there to be protected. There is, but that 
is not what these nine million acres will be, and remember that 
``wilderness'' by Federal definition has to be land that is 
untrammeled by human nature. This would be part of the Red Rock 
Wilderness bill. These, as you notice, are some of those areas 
that would be included in the inventory. Even though the bill 
is not specific to get to nine million acres, you have to have 
this. That of course on the bottom right is not a man-made 
institution. That came there by nature.
    If you flip back up there again, the road that goes through 
this area obviously was made by some glacier during the 
Jurassic Period because man did not do that at all. This is 
part of the beautiful red rock scenery which probably will not 
make it on one of the calendars that you want to sell from this 
area but I am sure would have somebody from back East wanting 
to backpack through those particular areas. There are 
beautiful, pristine areas of Utah that need to be protected, 
but this bill goes far, far beyond that.
    Go to the next one too.
    This is another one of those that would be included. That 
of course is not a man-made structure for oil and gas 
development. Those are molecules of nature that are showing 
their sense of humor by developing in that particular way, 
obviously something you would want to protect.
    Go to the next one if you would as well because embedded in 
this acreage are acres of stories that are natural gas, oil 
areas, mining areas, all of which have an impact on the economy 
of those particular areas. But the problem with this bill is 
the map is not there, the homework has not been done.
    The second problem with this bill is it undoes the 
Washington County bill, it undoes the Cedar Mountain bill, and 
everything we have done to move forward in the State of Utah to 
make progress will be undone by the sloppy craftsmanship of 
this particular bill, and the process is appalling.
    I am happy that our good friend from New Jersey is with us. 
He will be proposing one of the other bills--we have a hearing 
in here--which expands the area, and I do not know whether it 
is right to do it or not, but the difference is his entire 
delegation from the State of New Jersey is in favor of it. This 
bill has the entire delegation from the State of Utah opposed 
to it.
    When we did the Cedar Mountain Wilderness bill, we did an 
inventory of every private property and holding that is there. 
That has not been done on this particular bill. We moved the 
lines to meet the needs of private property holders. We had one 
private property holder that was running pipes along his land 
which could have been included in the wilderness to water wild 
horses. We moved that because we had the professionals on the 
ground working with us to come to the order where we needed to 
be. That is what happens.
    There have been over 100 bills in the last few years that 
have been passed that deal with the wilderness designation. All 
of them have the same pattern: small bills in which you get 
local consensus, local people coming together, in which you 
actually have local government in consensus. None of that 
happens for this particular bill.
    What we need to do is go forward with the process that 
almost every editorial in the State of Utah says: Try to come 
to local consensus with people coming together where the 
government agrees with individuals, not having something coming 
from Washington crammed down the throat of the people in Utah.
    Our goal should be to empower people, not make mandatory 
solutions. Our goal should be to try and look to the future, 
which small bills like the Washington County bill and the Cedar 
Mountain bill to move us forward is the raise of the future. 
This particular bill is a relic from the past. It has not been 
successful since the Age of Disco and will not be successful 
now or in the future, and we should not be spending our time on 
this. We should be spending our time trying to find proper 
solutions that will pass.
    That is only the first half. Are you ready for the second 
part, Mr. Chairman?
    Mr. Grijalva. I would prefer Mr. Hastings for a while if 
you do not mind.
    Mr. Bishop. If I have to do that, let me just ask one last 
statement. This is the last thing, the last unanimous consent 
request to having statements from the following groups in Utah: 
The Americans for Responsible Recreation Access, the American 
Motorcycle Association, the Blue Ribbon Coalition, the 
Motorcycle Industry Council, the Offroad Business Association, 
the Recreational Off-Highway Vehicles Association, the 
Specialty Vehicle Institute, the Independent Petroleum 
Association of the Mountain States, and the Utah Farm Bureau 
Association, all of which have written letters in opposition to 
this bill. I ask those be placed in the record as well.
    Mr. Grijalva. Without objection, so ordered.
    [NOTE: The information submitted for the record has been 
retained in the Committee's official files.]
    Mr. Bishop. And with that, I will yield to whomever you 
would like to hear now.
    Mr. Grijalva. Thank you very much.
    Let me turn to the Ranking Member of the full Committee, 
Mr. Hastings, for any comments.

 STATEMENT OF THE HONORABLE DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you, Mr. Chairman, and I assume your 
previous comment alluding to whether Mr. Bishop was done was a 
compliment. I hope it is a compliment after I finish my 
remarks.
    Mr. Chairman, there are six bills on the Subcommittee's 
agenda today. Five of the bills affect public land issues 
relating to the congressional district represented by the bill 
sponsors. These are representatives looking after matters in 
their areas of the country in which they were directly elected 
by their neighbors to serve in Congress. These bills stand in 
stark contrast with the sixth, H.R. 1925 that Mr. Bishop was 
alluding to, which would designate one-fifth of the entire 
State of Utah as a Red Rock Wilderness Area.
    As of yesterday, this bill has 146 co-sponsors, and yet not 
a single one is from the State of Utah. The Subcommittee is 
going to hear statements from all of the Utah delegation, and 
it is going to be all in opposition to this bill.
    This situation, Mr. Chairman, is very similar to that of 
H.R. 980, the Northern Rockies Ecosystem Protection Act. A 
hearing was held on that bill in May. The primary sponsor of 
that bill, like the Red Rock designation, is a Member from the 
State of New York, yet he was proposing in that legislation to 
lock up millions of acres of land in the western states. Like 
the Red Rocks bill, not a single co-sponsor of the Northern 
Rockies bill represented a district affected by that 
legislation.
    As the Ranking Republican on this Committee and as a 
Congressman representing a rural western district, I am deeply 
troubled by legislation whose sponsors live far from the 
communities and districts whose legislation they are targeting. 
Clearly, such legislation is being pushed by interests that are 
out of touch and do not represent the views of those American 
citizens that would be directly affected by this legislation.
    The communities and districts that will be affected by such 
legislation would suffer real economic harm and lost jobs if 
these bills were ever to become law. We have nearly 10 percent 
unemployment in this country. Constituents face very tough 
economic times in every single congressional district in this 
country, and yet some Members of Congress apparently have the 
luxury of time to divert from helping their hurting 
constituents to press for extreme policies that would devastate 
the livelihoods and jobs of thousands of Americans living in 
small towns and communities far away from that Member's 
district.
    When it comes to some legislation, I would suggest that 
this Committee and Members of the House certainly have far 
better time and energies than to pursue these bills. We can and 
should protect America's great natural spaces, yet it should 
not be done in a dictatorial manner that freezes out and 
refuses to even consider the views of local citizens and local 
leaders that would be directly affected.
    Successful and responsible conservation should and will be 
achieved when Americans who have the most at stake are listened 
to and respected and not treated as a nuisance and deemed 
irrelevant. So, Mr. Chairman, thank you again for the courtesy 
of allowing me to sit on this Subcommittee, and, with that, I 
yield back my time.
    Mr. Grijalva. Thank you very much. One of the Members asked 
to make an opening statement. Let me clarify we are going to go 
to the panel. We have busy people that need to get to theirs, 
and I will certainly turn to that Member as soon as the first 
panel is done for any opening statements that you might have.
    Let me now begin with the Member of the full Committee, Mr. 
Hinchey, who is one of the sponsors of the legislation that is 
being discussed at this point, and ask him for any opening 
comments he may have, and five minutes are yours, sir.

STATEMENT OF THE HONORABLE MAURICE D. HINCHEY, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF NEW YORK

    Mr. Hinchey. Mr. Chairman, thank you very much. I 
appreciate your scheduling this hearing and giving us all the 
opportunity to be here to talk about this as some of us already 
have, and I thank them very much for their comments. I also 
want to express my deep appreciation and what a pleasure it is 
to see our two United States Senators from Utah here today and 
our Member of the House of Representatives. Thank you very 
much, and it is a great pleasure to work with you. Even though 
we are not entirely agreed on everything here, nevertheless, it 
is a great pleasure to be here with you.
    It is also a great pleasure to be here with other witnesses 
who will be speaking later who have traveled here today from 
Utah to speak about the Red Rock bill, and we greatly 
appreciate all of them taking the time from their busy lives to 
come to Washington to discuss this issue.
    The first version of the Red Rock bill was introduced in 
1989 by the late Wayne Owens, who was a distinguished Member of 
the House of Representatives from Utah and who I am very proud 
to say was a very good friend of mine. When Wayne Owens left 
Congress in 1993, he asked me to continue introducing his bill, 
which I considered a deep honor to do so and I have. A lot has 
changed since, but we are still working to protect wild public 
lands in Utah, and this year's bill reflects updated inventory 
information.
    The Red Rock bill is one of the great examples of a 
citizen-led initiative. The bill was developed in response to 
the Bureau of Land Management's initial wilderness inventory in 
the 1980s that significantly undervalued the public wilderness 
resources in the state. In response to that, countless 
volunteers put in thousands of hours documenting the millions 
of acres and drawing boundaries around these areas that 
qualified as wilderness. This still stands as one of the 
largest nongovernmental inventories of land ever.
    We are now in the twentieth year of this effort, but it is 
just the latest chapter in nearly 140 years' effort to protect 
and preserve our nation's most pristine natural resources for 
generations to come.
    The first success in this effort was achieved in 1872 with 
the establishment of Yellowstone National Park, and yet, 
despite the vast amount of time that has elapsed since that 
great event, many of the arguments against this bill are the 
same ones that were made over a century ago when the first 
parcels of wilderness were designated for protection.
    There has also been a desire to push short-term private 
interests over long-term public interests. A century ago it was 
loggers trying to chop down the giant redwoods. Today it is 
others trying to dig up the red rocks. Those of us who believe 
we should preserve our natural treasures for future generations 
have an obligation to do all that we can to continue the 
efforts of those individuals like Teddy Roosevelt who fought so 
hard to protect our wildlands.
    The Red Rock bill would designate as wilderness over nine 
million acres of public lands owned by the American people and 
managed by the Bureau of Land Management. Just as the Grand 
Canyon, situated in the State of Arizona, belongs to all of us 
and the Arctic National Wildlife Refuge situated in Alaska 
belongs to all of us, so too do the splendid public lands in 
Utah that are subject to this wilderness bill.
    The areas protected in this legislation are some of the 
great landscapes the world has ever seen. They include the vast 
areas of roadless desert in Tule Valley, red rock formation in 
Fishers Tower and awe-inspiring Desolation Canyon, which is the 
single largest area in this bill. These lands are rich with 
archeological remnants of prehistoric cultures, and they are a 
haven for outdoor recreation enthusiasts, scientists, hikers, 
educators, wildlife enthusiasts and many, many more.
    While photos do not do these great vistas justice, I have 
brought some along so that those present can see what we are 
trying to protect. They include the Tule Valley at Cricket 
Mountains in Millard County. It is a little small to see it 
from back there, but believe me it is impressive. The second is 
the Fishers Tower in Grand County and the third Desolation 
Canyon in Uintah County.
    The Bureau of Land Management has already verified that 
over 75 percent of the public lands protected by this 
legislation have wilderness characteristics through its past 
inventories of the land, the Bureau of Land Management's 
inventories. This is a remarkable fact given the lack of 
progress on wilderness protection that we saw over the past 
eight years under the previous administration. The majority of 
the remaining lands have not yet received an updated inventory 
analysis, but we are confident that that 25 percent will also 
qualify if and when the new analysis ever takes place.
    To further put this legislation into perspective, we have 
to note that the lands that would be designated for wilderness 
by this bill encompass just 40 percent of the 23 million acres 
of public land inside Utah's border. The remainder of the 
public lands in Utah will still be open for any kind of 
activities that others think are appropriate there.
    Given the beauty and the awe these great landscapes 
inspire, support for protecting these public lands is 
widespread. The legislation before us has 146 bipartisan 
cosponsors in the House of Representatives. It has also been 
endorsed by over 200 national, regional and local 
organizations. These are not just environmental organizations. 
They include recreation organizations, business groups and 
religious communities.
    Support for this legislation is not limited to us so-called 
``outsiders.'' There is also clear and growing support within 
Utah to protect these public lands. The bill itself was 
developed by citizens of Utah. Multiple Utah newspapers, 
including the Salt Lake Tribune, have editorialized in support 
of more BLM wilderness in Utah, and a statewide poll of Utah 
residents conducted in the first week of September by Dan Jones 
and Associates, a respected research company based in Salt Lake 
City, found that over 60 percent of those surveyed supported 
designating as wilderness between nine million and 23 million 
acres of the public lands in Utah.
    Members of 10 different religious communities in Utah 
worked together to create an interfaith statement about the 
spiritual importance of Utah's wildlands and the need for 
actions to protect these special places.
    Finally, protecting these public lands is not limited to a 
political party or any ideology. The witnesses who are 
testifying in support of the Red Rock bill are evidence of 
that, very clearly so. Their views span the spectrum from the 
left, center and right. They are all respected statesmen from 
Utah, and we should strongly consider their views on the 
underlying legislation and the importance of designating these 
public lands as wilderness.
    Opponents of this bill will talk about how this is a 
proposal pushed by outsiders, but as I have already indicated, 
that is hardly the case. They will claim it blocks access to 
critical oil and gas resources, as they already have, yet the 
red rock lands hold less than a few days' worth of oil and a 
few weeks' worth of gas according to the Energy Information 
Agency. This is less than one percent of the nation's oil 
reserves and less than two percent of the nation's gas 
reserves. Additionally, the industry already has more than five 
million acres of oil and gas leases in Utah, yet of those five 
million acres, only 1.5 million or 30 percent, less than a 
third of those leased lands, are actually in production.
    Some may even try to argue that there are no maps to 
identify which lands this bill affects. In case there is any 
confusion, here is a map of the lands that we are discussing, 
and you can come and take a much closer look at it.
    Fortunately, we have seen a lot of progress on wilderness 
designation in Utah over the last 20 years. Some of the people 
who are opposed to this bill support alternative methods to 
protect wilderness like the Washington County bill that passed 
in the Omnibus Public Lands Act earlier this year.
    I and others that I work with am absolutely open to 
alternative methods for protecting our wild public lands in 
Utah. However, I am concerned that if we choose a small, 
piecemeal strategy for protecting the lands in the Red Rock 
bill by designating a few hundred thousand acres each Congress, 
it could take at least another 20 years before we designate as 
wilderness just 50 percent of the precious resources that we 
seek to protect in this bill.
    Many people are asking, why are we even having this hearing 
today? My response to that is that it could not come at a more 
important time, and thank you, Mr. Chairman.
    The great wildlands of Utah that are owned by the American 
people are under threat. At the tail end of the previous 
administration, BLM released six resource management plans that 
would decimate the lands we seek to protect in this bill by 
opening two and a half million acres of the lands to oil and 
gas development and designating over 3,500 miles of new offroad 
vehicle routes. While these management plans are legally 
deficient and will likely be overturned, they exemplify the 
need for Congress to permanently, legally, lawfully, correctly 
protect these wild public lands.
    It is fitting that we are having this hearing while PBS is 
airing Ken Burns' new documentary, ``The National Parks: 
America's Best Idea.'' While we are not seeking to establish 
new parks, the sentiment is the same, that the most special 
places in the Nation should be preserved not for royalty, not 
for the rich but for every single American citizen across this 
country.
    Finally, Mr. Chairman, if I may, I have some unanimous 
consent requests that I would like to mention if I may.
    Mr. Grijalva. Please.
    Mr. Hinchey. I ask unanimous consent to insert into the 
record an op-ed written by Robert Redford in support of 
America's Red Rock Wilderness Act that appeared in yesterday's 
Huffington Post; to insert into the record an interfaith letter 
on behalf of America's Red Rock Wilderness Act signed by 61 
individuals representing a range of religions in Utah. I ask 
unanimous consent to insert into the record a letter signed by 
six different religious communities in support of America's Red 
Rock Wilderness Act.
    I ask unanimous consent to insert into the record a letter 
from the Salt Lake City mayor, Ralph Becker, to the Committee 
on Natural Resources in support of today's hearing. I ask 
unanimous consent to insert into the record a letter from 21 
families from Vernal, Utah, to the Committee on Natural 
Resources in support of America's Red Rock Wilderness Act, and 
I ask unanimous consent to insert into the record a resolution 
from the Unitarian Universalist Association in support of 
America's Red Rock Wilderness Act.
    I ask unanimous consent to insert into the record a 
statement in support of America's Red Rock Wilderness Act and 
accompanying testimonials from Women Protecting Wilderness, a 
Utah-based advocacy group. I ask unanimous consent to insert 
into the record a statement in support of America's Red Rock 
Wilderness Act from the Utah Wilderness Coalition, a network of 
over 200 local regional organizations organized in 1985.
    Mr. Chairman, I thank you very much for the opportunity to 
make this statement, and I thank you deeply for holding this 
very important hearing.
    Mr. Grijalva. Thank you, and without objection, so ordered 
entered into the record.
    [NOTE: The information submitted for the record has been 
retained in the Committee's official files.]
    Mr. Grijalva. Let me now begin with our distinguished panel 
today and thank you for being here and for taking time, 
beginning with Senator Hatch. Thank you very much, sir, for 
your time, and I look forward to your comments.

STATEMENT OF THE HONORABLE ORRIN HATCH, A UNITED STATES SENATOR 
                     FROM THE STATE OF UTAH

    Mr. Hatch. Well, thank you, Mr. Chairman Grijalva. We 
appreciate this and also our Ranking Member from our own state 
and Ranking Member Hastings. We appreciate your comments.
    I want to be identified with the comments of our 
distinguished Ranking Member on the Subcommittee. I think he 
expressed it pretty effectively, and I am very grateful that we 
have two excellent Members of our House on this Committee in 
Congressman Bishop and Congressman Chaffetz, people who 
understand our state very well.
    Now, Mr. Chairman, I am grateful for the opportunity to 
address this Committee with regard to H.R. 1925, America's Red 
Rock Wilderness Act of 2009. I also want to thank the witnesses 
from Utah who have come to provide testimony today on both 
sides of this legislation. In particular, I want to thank 
Lieutenant Governor Greg Bell of Utah. His views were of 
significant value to us during the consideration of this 
proposal. We will also hear from Carbon County Commissioner 
John Jones; Peter Metcalf, the president of Black Diamond 
Equipment; Bryson Garbett, a former Utah state legislator; and 
Rocky Anderson, the former mayor of Salt Lake City.
    First off, I note the title of the bill under 
consideration. The authors of the legislation were careful to 
name it America's Red Rock Wilderness Act, not Utah's Red Rock 
Wilderness Act, even though the bill's only purpose is to 
designate more than one-sixth of my state, of our state, as 
former wilderness. According to the authors of this 
legislation, Utahans have no special claim to those nine 
million acres within our state's boundaries. After all, Mr. 
Chairman, these are Federal lands, and they belong to all 
Americans they argue.
    Well, there may be some truth to that point of view, but it 
is an intentionally simplistic view, and any Member of Congress 
with Federal lands within his or her district will quickly 
recognize that. I would be surprised if there were many Members 
of Congress who would not take at least some offense at a 
proposal to set aside a sixth of their state or district 
without their consultation or input.
    It is true that all Americans are stakeholders in the 
management of our Federal lands, but in law and in 
policymaking, stakeholders are not always equal. It is a basic 
principle of policymaking that stakeholders should be involved 
in the formulation of policies that would affect them, and it 
follows, Mr. Chairman, that the voices of those stakeholders 
most impacted by legislation should be given the greatest 
weight.
    This proposal turns that principle on its head. Certainly 
those Americans who live on and around public lands and 
sometimes make their living on them have the greatest stake in 
the management decisions affecting those lands. It is wrong 
that this legislation turns a completely deaf ear to these most 
significant stakeholders.
    Year after year, we have seen this legislation introduced 
in Congress. The bill is monumental in its scope: nine million 
acres of land within only one state. It would cover an area 
that is actually larger than a number of states put together, 
but it is also a monument to an old way of approaching 
wilderness designation. To be more precise, it is a monument to 
a failed approach to wilderness designation.
    The special interest groups who are behind this bill have 
raised tens of millions of dollars over the years with the 
promise to their donors that the money would be spent to 
protect important tracts of beautiful red rock in Utah. I have 
seen some of their past brochures, and to be honest, a lot of 
the pictures they show are of areas already protected from any 
development. Their strategy has been to play to America's 
emotions rather than to constructively work to win actual 
wilderness protection.
    In fact, all of that money and all of that effort has 
produced exactly zero acres of new wilderness in Utah. 
Meanwhile, members of the Utah congressional delegation have 
done the hard work of doing wilderness the right way. We have 
listened to all interested parties and especially to those 
stakeholders with the most at stake, as we should, and by 
collaboration and inclusion, we have had success, and, Mr. 
Chairman, we continue to seek areas of agreement among broad 
sets of stakeholders for the designation of more wilderness 
within our beautiful state.
    I know that the authors and co-sponsors of this 
legislation, none of whom are from Utah, are sincere in their 
effort to provide protections for the important areas in Utah 
even if they have never even seen those areas. To those 
colleagues who have put their names on this proposal, I say 
thanks, but no thanks. I think as a congressional delegation we 
have proven we can handle the question of wilderness in Utah, 
and we intend to handle it well, and we have in the past, and 
we have two excellent Members on this Committee alone who I 
think have worked very hard in this area and will continue to 
work hard in this area. Certainly Congressman Matheson, I have 
a lot of faith in him in this area, and Senator Bennett and I, 
we are all unified. We want good wilderness, but we want to do 
it the right way, and this is certainly not the right way.
    Now, Mr. Chairman, I have to get back to the Finance 
Committee where we are marking up healthcare reform, so I hope 
that you will excuse me so that I can get back.
    [The prepared statement of Senator Hatch follows:]

       Statement of The Honorable Orrin G. Hatch, a U.S. Senator 
                  from the State of Utah, on H.R. 1925

    Mr. Chairman I am grateful for the opportunity to address this 
committee with regard to H.R. 1925, America's Red Rock Wilderness Act 
of 2009. I also want to thank the witnesses from Utah who have come to 
provide testimony today on both sides of this legislation. In 
particular, I thank Lieutenant Governor Greg Bell of Utah. His views 
are of significant value to us during the consideration of this 
proposal. We will also hear from Carbon County Commissioner John Jones; 
Peter Metcalf, the president of Black Diamond Equipment; Bryson 
Garbett, a former Utah State Legislator; and Rocky Anderson, the former 
mayor of Salt Lake City.
    First off, I note the title of the bill under consideration. The 
authors of the legislation were careful to name it AAmerica's Red Rock 
Wilderness Act,@ not Utah's Red Rock Wilderness Act, even though the 
bill's only purpose is to designate more than one-sixth of my state as 
formal wilderness. According to the authors of this legislation, Utahns 
have no special claim to those nine million acres within our state's 
boundaries. After all, Mr. Chairman, those are federal lands, and they 
belong to ALL Americans, they argue. Well, there may be some truth to 
that point of view, but it's an intentionally simplistic view, and any 
Member of Congress with federal lands within his or her district will 
quickly recognize that. And I would be surprised if there were many 
Members of Congress who would not take at least some offense at a 
proposal to set aside a sixth of their state or district without their 
consultation or input.
    It is true that all Americans are stakeholders in the management of 
our federal lands. But in law and in policymaking, stakeholders are not 
always equal. It is a basic principle of policymaking that stakeholders 
should be involved in the formulation of policies that would affect 
them. And it follows, Mr. Chairman, that the voices of those 
stakeholders most impacted by legislation should be given the greatest 
weight. This proposal turns that principle on its head.
    Certainly, those Americans who live on and around public lands, and 
sometimes make their living on them, have the greatest stake in 
management decisions affecting those lands. It is wrong that this 
legislation turns a completely deaf ear to these most significant 
stakeholders.
    Year after year, we have seen this legislation introduced in 
Congress. The bill is monumental in its scope: nine million acres of 
land within only one state. It would cover an area that is actually 
larger than a number of states put together. But it's also a monument 
to an old way of approaching wilderness designation. To be more 
precise, it's a monument to a failed approach to wilderness 
designation.
    The special interest groups who are behind this bill have raised 
tens of millions of dollars over the years, with the promise to their 
donors that the money would be spent to protect important tracts of 
beautiful red rock in Utah. I've seen some of their past brochures, and 
to be honest, a lot of the pictures they show are of areas already 
protected from development. Their strategy has been to play to 
American's emotions, rather than to constructively work to win actual 
wilderness protection. In fact, all that money and all that effort has 
produced exactly zero acres of new wilderness in Utah.
    Meanwhile, members of the Utah Congressional delegation have done 
the hard work of doing wilderness the right way. We've listened to all 
interested parties, and especially to those stakeholders with the most 
at stake. And by collaboration and inclusion we have had success. And, 
Mr. Chairman, we continue to seek areas of agreement among broad sets 
of stakeholders for the designation of more wilderness in our state.
    I know that the authors and cosponsors of this legislation--none of 
which is from Utah--are sincere in their effort to provide protections 
for important areas in Utah B even if they have never seen those areas. 
To those colleagues who have put their names on this proposal I say: 
Thanks, but no thanks. I think as a congressional delegation we have 
proven we can handle the question of wilderness in Utah.
    Thank you Mr. Chairman.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, sir.
    Mr. Hatch. Thank you so much. It has been an honor to be 
here, as always. We respect the House of Representatives and 
appreciate working with you very much.
    Mr. Grijalva. Thank you for your courtesy.
    Mr. Hatch. Thank you, sir.
    Mr. Grijalva. Let me now invite the distinguished senator 
from Utah, Senator Bennett, for your comments relative to the 
legislation at hand. Sir?

 STATEMENT OF THE HONORABLE ROBERT F. BENNETT, A UNITED STATES 
                 SENATOR FROM THE STATE OF UTAH

    Mr. Bennett. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to be here. As I hear Congressman 
Hinchey talk about Wayne Owens, that takes me down memory lane, 
and I would like to go there for just a minute with you before 
I get into some of the more prepared remarks I have made.
    I knew little or nothing about wilderness until I ran for 
the Senate in 1992 and discovered that it was one of the major 
and most contentious issues in the State of Utah, and my 
opponent in that election was Wayne Owens. As we fought that 
election across the state, I learned a great deal about 
wilderness, and I learned that there was a tremendous amount of 
opposition to Wayne's position.
    Interestingly, Wayne learned that there was a tremendous 
amount of opposition to his position as well, and in the 
process of that election debate, he kept backtracking from the 
position he had taken before the Congress. He kept lowering the 
amount of acreage that he wanted, and at one point in one of 
our debates, he said, ``I never said we should have 3.5 million 
acres of wilderness,'' and I had to say to him, ``Wayne, you 
introduced a bill in the House of Representatives with 3.5 
million acres of wilderness.'' He said, ``Well, that was just a 
beginning of a starting point. I never thought we needed that 
many acres. I just kind of wanted to put that out, but I have 
never really been strongly for the 3.5,'' and we have seen the 
3.5 now grow to 9.8.
    Well, I learned about the issue. Frankly, as I look back on 
that campaign, my position in opposition to Wayne's bill was 
one of the reasons I won that election.
    After the election was over, Wayne and I sat down. I gave 
him a call and I said, ``Wayne, we have been friends for 20 
years. We can be friends again. Why don't you come up to the 
Senate? I will buy you a hot meal, and let us reestablish our 
relationship.'' He did. We sat down in the Senate Dining Room. 
The bells rang for a vote, and I said, ``I am sorry, I have to 
go vote.'' He said, ``I will be happy to do that for you if you 
would like.''
    In the course of our conversations, Wayne said to me, 
``Bob, I think you have the temperament to be the one who can 
finally broker a solution to the wilderness problem in the 
State of Utah. I know it will be hard, but I think you can do 
it. I am not sure the other members of the delegation can, but 
I think you can.'' I took that as a challenge and an 
opportunity and I have been trying, working on wilderness 
issues ever since that time.
    It is very interesting that in that process I have 
discovered that a statewide wilderness bill similar to the Red 
Rock bill simply will not fly in the U.S. Senate whether it is 
the State of Utah or anything else. I was involved in the 
wilderness bill that Senator Feinstein introduced that was done 
in California, and there was so much blood on the floor when 
that was over that I watched members of the Senate say we are 
never going to go through this again. We are not going to deal 
with this kind of wilderness bill when there is so much local 
opposition as there was from the local congressmen in the area 
that was being designated.
    And Senator Feinstein and I talked about what might be done 
in the State of Utah, and again, she said ``I hope you can work 
out something that will finally get a break in the logjam on 
Utah wilderness.''
    A few years ago I took up that challenge once again in 
Washington County. I was encouraged to do it by the example of 
the man who is now the majority leader of the U.S. Senate, not 
known as being an enemy to the environmental viewpoint. Indeed, 
the year he began his efforts to try to get things done in 
Nevada he was given the environmental group's Man of the Year 
award, Senator Harry Reid. And he recognized that a single 
statewide wilderness bill for Nevada didn't make any sense, and 
he went to work trying to solve the problem on a county-by-
county basis.
    And I talked to Senator Reid and said ``How can we do this 
in the State of Utah?'' And he said, ``Bob, I will do 
everything I can to help you get this done in the State of 
Utah.'' And he has been true to his word.
    We used the Nevada template to guide us in how we put 
together a solution to the wilderness problem, and I reached 
out to Congressman Matheson, who had become the congressman 
representing Washington County. We picked Washington County 
because it was the most controversial. Washington County has 
some of the most magnificent wilderness in the entire world in 
it, and the fight over how to protect that wilderness has been 
hotter in Washington County than any other.
    So we took the most difficult one to start with, and we 
used the Nevada pattern as the way to go. Indeed, we used the 
language from the Nevada bills, bills which passed this House, 
bills which passed the Senate, in some cases unanimously. And 
then people said ``Oh, you are not doing it right.'' And some 
people said to me ``You are setting a precedent.'' I said ``How 
can I possibly be setting a precedent when I am using language 
that has already passed both Houses of the Congress of the 
United States?''
    So we started. With Congressman Matheson's support, Senator 
Patch's co-sponsorship we started. We established a regional 
process in Washington County that was successful for the first 
time in the history of Utah of getting wilderness designated 
with the exception of the bill that Congressman Bishop referred 
to up in northern Utah that had another aspect to it that was 
not driven by the kind of controversy that we had here.
    But for the first time addressing truly controversial lands 
we created a regional process, and Congressman Matheson and I 
went to work on it and we were successful. We were successful 
because we started from the ground up with a working group 
composed of stakeholders, and by stakeholders, we incorporated 
the local leaders, we incorporated the local land management 
agencies and we incorporated those from national and 
international environmental groups.
    We talked to the National Wilderness Society, and we got 
representatives of the National Wilderness Society to join with 
us. We examined every acre in the county either by air or on 
foot or in many cases both. We chose the places that could be 
designated as wilderness without creating a management 
nightmare for BLM, and I will refer to that in just a moment. 
We worked with the Congressional committees to come up with the 
management language that made sense. And most importantly, we 
looked at the county as a whole and developed a comprehensive 
solution to the county's problems.
    Our bill was supported by the entire Utah Congressional 
delegation and nearly every user and conservation group from 
the local level to the state level to the national level, 
including some international people who came in and expressed 
their interest in Utah wilderness. The result was a permanent 
protection of special lands in the county without affecting 
day-to-day operations. It was a successful balancing of all 
interests, and I am proud to have been involved in this effort 
along with Congressman Matheson.
    Now the new model that we created building on the Nevada 
model recognizes that true conservation can never be achieved 
with a one size fits all approach as the Red Rock bill 
proposes. Congressman Hinchey refers to the PBS series and the 
Yellowstone National Park. We should recognize that Yellowstone 
National Park is not a wilderness. People can go into 
Yellowstone National Park. There are roads in Yellowstone 
National Park. You can drive a car in Yellowstone National 
Park. All of that is denied wilderness. Let us not say that 
Yellowstone National Park is a model for wilderness because it 
clearly is not.
    We have more national parks than any other state, and one 
of the things we did in our bill, Congressman Matheson and I, 
was to designate wilderness in Zion National Park. There were 
parts of Zion National Park that needed the wilderness 
designation for protection, and we did it. Before we passed 
that bill those parts of the national park were open for 
intrusion from human activity that would have damaged those 
parts. So we looked very carefully everywhere.
    But let us not make the mistake of assuming that something 
that is gorgeous that needs to be protected can only be 
protected with a wilderness designation. As the PBS series 
shows, Yellowstone National Park, one of America's most 
magnificent treasures, has been protected without being 
designated wilderness. Let us keep that in mind.
    So our process enabled us to develop alternatives such as 
National Conservation areas in places that deserved protection 
but where wilderness is simply not an option. And let me give 
you an example that we had with a conversation with the BLM 
field manager in St. George that demonstrated this.
    We were discussing an area that under the Red Rock approach 
would have been wilderness. Under our bill it is not. We were 
talking to the people who managed the area, and the BLM field 
manager told me his biologists were pleading with him do not 
let this area be designated as wilderness. Why? Because it 
contained an endangered specie, the desert tortoise, and their 
biologists had to go on the land to manage the endangered 
specie activity with respect to the desert tortoise and it 
would mean they would have to take mechanical vehicles on the 
land with them as they went in to do that, and if it were 
designated wilderness, they could not do that.
    That sensitive area is protected in the Washington County 
Land Use bill that Congressman Matheson and I put together and 
that is now passed. It is protected as a conservation area, not 
as wilderness. The people on the ground understood that 
wilderness was the wrong way to protect the land, but let us 
understand the land is protected and it is protected by a 
careful examination of the way to do it and it is protected by 
the act of Congress that went into it.
    Now that kind of flexibility in dealing with the protection 
of the land, the attention to the management details on the 
ground, is simply not present in the Red Rock bill. It is the 
logical thing to do, and the Red Rock bill does not do it that 
way. The Washington County Land Use bill represents a 
significant paradigm shift from the past, and we believe it 
provides the model to follow in the future.
    And our success is a departure from the area that was 
characterized for over 20 years by saber rattling and political 
gamesmanship of which both sides frankly have been guilty. We 
proved with our bill that if we bring responsible people to the 
table who are actually interested in results, not fundraising 
or political posturing, we can develop a meaningful proposal 
with broad support.
    Now the bill before the Committee in my view is a 
centerpiece of the old paradigm. It carries forward the all or 
nothing approach to wilderness that harms the land rather than 
enhances its values. It does not incorporate a single element 
of the successful process that has worked in Nevada and that we 
have undertaken and made work in Washington County. It 
perpetuates the very mindset that we have spent so long trying 
to overcome.
    In fact, it doesn't even acknowledge the areas that we have 
already designated as wilderness in Washington County even 
though it was introduced after the President signed our bill, 
and interestingly many of the proponents of the Red Rock bill 
turned around and tried to take credit for the work that 
Congressman Matheson and I had done. The Red Rock bill belongs 
on the shelf with the rest of Utah wilderness bills that were 
never serious proposals. If the proponents of the bill are 
truly concerned about protecting land in Utah, their efforts 
could be better spent participating in the new process as we 
move to other counties.
    Now the statement has been made ``That will take too long. 
We won't get it done fast enough.'' Well, they have been trying 
the statewide approach for over 20 years and haven't produced 
as a result of it. In the words of one of their former 
supporters who came to see me in my office as we were working 
on the Red Rock bill or working on the Washington County bill, 
he said ``I am moving from that side to your side because I 
have been supporting them with my time and my money for over 20 
years and they haven't produced a single acre.''
    If time is the issue, Mr. Chairman, our approach has 
history on its side. We have produced wilderness in Utah. We 
have done it in a short timeframe, and we are poised to do it 
again and again. After we had the success of the Washington 
County Land Use bill, over a half a dozen, maybe more, county 
commissioners have come into my office and Congressman 
Matheson's office and said ``We are ready. We are ready. We are 
tired of this fighting. We are ready to move on wilderness in 
our counties. The olive is out of the bottle. We are ready to 
go. And if we stop the progress that we have made in Washington 
County to haggle over the Red Rock bill, we will slow down the 
designation of wilderness in Utah.''
    My door is always open. I will be happy to talk to anybody 
because I am as committed as anybody in getting this problem 
solved. Wayne Owens asked me to be the broker to finally get it 
done. I believe we have done it in Washington County and we are 
prepared to do it, and I say again to the Committee if you are 
anxious in getting wilderness designated in Utah and getting 
lands protected in Utah, we have a way to do it, we have a 
track record, we have accomplishment in doing it and we are 
prepared to do it again. H.R. 1925
    Mr. Grijalva. Thank you, Senator, for your time and your 
courtesy.
    Let me now ask our colleague, Mr. Matheson from Utah, his 
comments on 1925. Sir?

 STATEMENT OF THE HONORABLE JIM MATHESON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Matheson. Well, thank you, Chairman Grijalva. I 
appreciate the opportunity to testify on the Red Rock 
Wilderness Act of 2009.
    I think in the State of Utah there is probably no more 
contentious public lands issue than the establishment of 
wilderness areas, and in some ways, this is ironic because Utah 
is a land that has wild character, rugged, remote and isolated 
by river canyons and deserts. But discussions about wilderness 
in Utah have usually taken on a polarized dynamic that has led 
to a great amount of emotional rhetoric and very little 
progress.
    The 1964 National Wilderness Preservation System Act 
created the policy of Congress to secure for the American 
people of present and future generations the benefits and 
enduring resource of wilderness. It required the public land 
agencies to inventory their lands and make recommendations to 
Congress regarding wilderness. Now, on paper, that sounds very 
straightforward. In practice in Utah, it has long been a 
torturous case of taking two steps back for every step forward.
    Mr. Chairman, today you are going to hear a tremendous 
amount of passion. You already have and you will continue with 
the other panels. You will hear a tremendous amount of passion 
from the various witnesses who testify before you today both 
for and against the proposed legislation. This passion 
illustrates the challenges of what has been a polarized debate 
in Utah. It also oversimplifies the complexity of the issue. 
There are many, many stakeholders with different perspectives 
of Utah public land issues. And if we want to make progress, a 
collaborative process that engages all of those stakeholders 
needs to occur.
    Since the late 1970s, Utah wilderness proposals have run 
the gamut ranging from zero acres to the bill before you today. 
That gives you an inkling of how disparate the views are among 
local elected officials, the state, private landowners, the 
state Institutional School of Trust Lands Administration, 
ranchers, oil and gas, timber, mining, sportsmen, 
mountainbikers, water managers, backcountry horsemen, climbers, 
Native American tribes, environmentalists and the general 
public. I thought I would let you know how many stakeholders 
are out there.
    A wilderness process overseen by my father, Governor Scott 
Matheson, took seven years. It resulted in the 1984 passage of 
the Utah Wilderness Act, which designated about 700,000 acres, 
mainly on Federal Forest Service land. No one got everything 
they wanted, but in the end, everyone had a seat at the table 
for the negotiations and they had ownership in the outcome. 
That is the model of how public lands issues can be resolved. 
However, that model has rarely been followed in Utah.
    There are many examples from other states where a 
collaborative bipartisan effort has resulted in consensus 
wilderness designations. These include the Oregon Badlands 
Wilderness Act, the Owyhee Bruno Wilderness Act in Idaho and 
the Rocky Mountain National Park and Dominguez Canyon 
wilderness designations in Colorado. All of these bills were 
the result of following a collaborative inclusive model.
    That is the model that was followed when I joined Senator 
Bennett in a bipartisan effort a few years ago to write the 
Washington County Growth and Conservation Act. It was an honest 
attempt to balance diverse points of view. It was not just a 
wilderness bill, but it did designate more than 256,000 acres 
of wilderness. It also designated the first ever wild and 
scenic river in Utah. It provided for the removal of a dam site 
within an environmentally sensitive habitat. It established a 
national conservation area for the Federally threatened desert 
tortoise, and it provided funding for development enforcement 
of a dedicated OHV trail.
    I think the Senator will confirm it was contentious and 
hard-fought, the whole process. Some local elected officials 
and some environmental groups actively opposed it initially, 
but in the end, they proclaimed their support. That approach 
allowed us to address local concerns and specific features of 
the land. It wasn't easy, but in the end, significant progress 
on this most contentious public lands issue was achieved.
    And so as we sit here today, I can tell you as the Senator 
mentioned in his testimony other Utah counties are sponsoring 
local working groups. They are holding discussions about 
possibly duplicating the Washington County model. Together 
Senator Bennett and I have established what I think is a 
bipartisan roadmap for future legislative success on Utah lands 
issues.
    You know, as the largest daily newspaper in Utah 
editorialized this past Sunday, wilderness needs to be 
homegrown. It cannot be the work of only one group of 
stakeholders no matter how extensive or sincere. That is a 
major reason why I do not support H.R. 1925. It does not 
reflect the collective views of the many stakeholders in Utah. 
As legislators, it is our job to achieve progress, and I am 
committed to being a partner with all stakeholders in a 
collaborative effort that dissolves gridlock and provides a 
true legacy for future generations in Utah. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Matheson follows:]

 Statement of The Honorable Jim Matheson, a Representative in Congress 
                  from the State of Utah, on H.R. 1925

    Thank you, Chairman Grijalva, for the opportunity to testify before 
the Committee regarding the Red Rock Wilderness Act of 2009.
    In Utah, there is probably no more contentious public lands issue 
than the establishment of wilderness areas. In some ways, this is 
ironic because much of Utah is land that has wild character--rugged, 
remote, and isolated by river canyons and deserts. But discussions 
about wilderness in Utah have usually taken on a polarized dynamic that 
has led to a great amount of emotional rhetoric, and very little 
progress.
    The 1964 National Wilderness Preservation System Act created the 
policy of Congress ``to secure for the American people of present and 
future generations the benefits of an enduring resource of 
wilderness.'' It required the public land agencies to inventory their 
lands and make recommendations to Congress regarding wilderness. On 
paper, it sounds straightforward. In practice in Utah, it has long been 
a torturous case of taking two steps back for every step forward. Mr. 
Chairman, you will hear a tremendous amount of passion from the various 
witnesses who testify before you today, both for and against the 
proposed legislation. This passion illustrates the challenges of the 
polarized debate in Utah. It also oversimplifies the complexity of the 
issue. There are many, many stakeholders with different perspectives of 
Utah public land issues. If we want to make progress, a collaborative 
process that engages all stakeholders must occur.
    Since the late 1970s, Utah wilderness proposals have run the 
gamut--ranging from zero acres--to the bill before you today. That 
gives you an inkling of how disparate the views are among local elected 
officials, the state, private land owners, the State Institutional 
School Trust Lands Administration, ranchers, oil and gas, timber, 
mining, sportsmen, mountain-bikers, water managers, backcountry 
horsemen, climbers, Native American tribes, environmentalists and the 
general public. A wilderness process overseen by my father--Governor 
Scott Matheson--took seven years. It resulted in the 1984 passage of 
the Utah Wilderness Act which designated 700,000 acres--mainly on 
federal forest land. No one got everything they wanted. But in the end, 
everyone had a seat at the table for the negotiations and had ownership 
in the outcome. That is the model of how public lands issues can be 
resolved. However, that model has rarely been followed in Utah.
    There are many examples from other states where a collaborative, 
bipartisan effort has resulted in consensus wilderness designations. 
These include the Oregon Badlands Wilderness Act, the Owyhee-Bruneau 
Wilderness in Idaho, and the Rocky Mountain National Park and Dominguez 
Canyon Wilderness designations in Colorado.
    All of these bills were the result of following a collaborative, 
inclusive model.
    That is the model that was followed when I joined Senator Bob 
Bennett in a bipartisan effort a few years ago to write the Washington 
County Growth and Conservation Act. It was an honest attempt to balance 
diverse points of view. It was not just a wilderness bill. But it did 
designate more than 256,000 acres of wilderness; the first ever Wild 
and Scenic River in Utah; removal of a dam site within environmentally-
sensitive habitat, establishment of a National Conservation Area for 
the federally-threatened desert tortoise; and funding for development 
and enforcement of a dedicated OHV trail. It was contentious and hard-
fought. Some local elected officials and some environmental groups 
actively opposed it initially, but in the end, proclaimed their 
support. That approach allowed us to address local concerns and 
specific features of the land. It wasn't easy. But in the end, 
significant progress on this most contentious public lands issue was 
achieved.
    As we sit here today, other Utah counties are sponsoring local 
working groups. They are holding discussions about possibly duplicating 
the Washington County model. Together Senator Bennett and I have 
established a bipartisan roadmap for future legislative proposals.
    As the largest daily newspaper in Utah editorialized this past 
Sunday, ``Wilderness needs to be home-grown.'' It cannot be the work of 
only one group of stakeholders, no matter how extensive or sincere. 
That is a major reason why I do not support H.R. 1925--it does not 
reflect the collective views of the many interested stakeholders in 
Utah. As legislators, our job is to achieve progress. I am committed to 
being a partner with all stakeholders in a collaborative effort that 
dissolves gridlock and provides a legacy for future generations.
                                 ______
                                 
    Mr. Grijalva. Thank you very much.
    Let me know ask Representative Perriello, and the 
legislation is H.R. 2689. Sir, welcome. Thank you for your 
patience.

 STATEMENT OF THE HONORABLE THOMAS PERRIELLO, A REPRESENTATIVE 
      IN CONGRESS FROM THE STATE OF VIRGINIA, 5th DISTRICT

    Mr. Perriello. Thank you very much, Chairman, Ranking 
Member Bishop, respected members of the Committee. Thank you 
for today's hearing to discuss H.R. 2689. I am glad so many 
people are here to hear about that one.
    [Laughter.]
    Mr. Perriello. This bill will authorize the Secretary of 
the Interior to study the suitability and feasibility of 
designating the National D-Day Memorial in Bedford, Virginia, 
as a unit of the National Park System. I am also honored today 
to be joined by Dr. William McIntosh, President of the National 
D-Day Memorial Foundation. I first spoke to him many months ago 
about the dire financial situation of the memorial, and I have 
since worked with him as well as with Senators Warner and Webb 
and others to help find a solution to resolve the difficulties 
facing the memorial.
    Simply put, the community has reached the limits of how 
much support it can give to what is a national treasure for all 
of our veterans and for all Americans, including those from 
Utah. The National D-Day Memorial remembers and preserves the 
lessons and legacies of D-Day, forever memorializing the lives 
lost on June 6, 1944. Of the 34 soldiers from Bedford, 19 died 
in combat. As the city's population at the time was only 3,200, 
Bedford suffered the highest proportional loss of life of any 
American city on D-Day. The men we lost were local heroes, but 
the freedom and security bought with their sacrifice is a 
national treasure.
    This story of sacrifice at D-Day is not just a story that 
took place on the beaches of Normandy but a tale of local 
communities across America. The battlefield may have been in 
Europe, but the losses were felt here at home. This memorial 
was authorized by President Bill Clinton in 1996 and dedicated 
by President George W. Bush in 2001. This past June was the 
65th anniversary of D-Day, and just shortly before that 
anniversary, Elisha Nance, the last surviving Bedford boy, 
passed away at the age of 94.
    In August, the National Park Service made a site visit to 
the memorial to follow up on a request from the Secretary of 
the Interior, Ken Salazar, to study the suitability of using 
the Antiquities Act to preserve the memorial. In the words of 
the Secretary, ``The memorial stands as a symbol of the courage 
and sacrifices of all members of the United States and allied 
forces who began the liberation of northwest Europe as part of 
Operation Overlord. The question of the suitability of using 
the Antiquities Act, while an important road to consider, is 
separate and distinct from the more traditional method to 
authorize a full study of the feasibility of designating the 
National D-Day Memorial as part of the National Park Service.''
    I am not here to speak about the ongoing activities within 
the NPS and studying the Antiquities Act but rather to advocate 
for the legislation before the Subcommittee that would provide 
for the protection and preservation of the memorial through the 
traditional processes should the Antiquities Act be found 
unsuitable.
    I am also happy that this has the bipartisan support of Mr. 
Goodlatte, whose district neighbors mine and has taken a very 
conservative approach to the question of public lands but 
understands the incalculable treasure of this particular 
memorial.
    Anyone who visits the memorial will see that it is far more 
than just a structure dedicated to preserve the lessons and 
legacies of D-Day. The memorial works to educate all 
generations about the valor, fidelity and sacrifice of the 
allied forces. The memorial works to teach current generations 
about the greatest generation and what life was like not just 
for those fighting but their friends, families and communities 
back home.
    The National D-Day Memorial Foundation has a Victory Garden 
in which at-risk youth are taught about the war effort at home 
by growing their own fruits and vegetables in the area. The 
memorial also works with veterans of World War II to preserve 
oral histories and their memories of D-Day and the war. This is 
a national treasure that serves as a permanent reminder of the 
bravery and heroism of our American armed forces.
    I was recently there for a Memorial Day celebration, 
handing a Gold Star flag to a Gold Star mom of a son who died 
in Iraq. He had been inspired to join the Marines by visiting 
the D-Day memorial. He went back there with his father to tell 
him that he had decided to enlist after September 11. And when 
he was killed, his family came back there to celebrate and 
memorialize his heroism.
    This is a living memorial that keeps alive this memory and 
makes that courage and sacrifice animated again through future 
generations. It stands in the shadows of the Peaks of Otter 
near Smith Mountain Lake in one of the beautiful slices of the 
Commonwealth of Virginia. It is an area of national treasure 
and national beauty, both for God's creation and the sacrifices 
that man has made for our great country and its freedom. And I 
thank the Committee for its consideration and appreciate your 
time and hearing today.
    [The prepared statement of Mr. Perriello follows:]

   Statement of The Honorable Thomas Perriello, a Representative in 
                  Congress from the State of Virginia

    Chair Grijalva, Ranking member Bishop, and respected members of the 
committee, thank you for today's hearing to discuss H.R. 2689. This 
bill will authorize the Secretary of the Interior to study the 
suitability and feasibility of designating the National D-Day Memorial 
in Bedford, Virginia, as a unit of the National Park System. I am also 
honored to be joined by Dr. William McIntosh, President of the National 
D-Day Memorial Foundation. I first spoke to Dr. McIntosh many months 
ago about the dire financial situation of the Memorial and I have since 
worked with him to help find a solution to resolve the difficulties 
facing the Memorial.
    The National D-Day Memorial remembers and preserves the lessons and 
legacy of D-Day, forever memorializing the lives lost on June 6, 1944. 
Of the thirty-four soldiers from Bedford nineteen died in combat. As 
the city's population at the time was only 3,200, Bedford suffered the 
highest proportional loss of life of any American city on D-Day. The 
men we lost were local heroes, but the freedom and security bought with 
their sacrifice is a national treasure. This story of sacrifice at D-
Day is not just a story that took place on the beaches of Normandy but 
a tale of local communities across America. The battlefield may have 
been in Europe but the losses were felt here at home. The National D-
Day Memorial was authorized by President Bill Clinton in 1996, and 
dedicated by President George W. Bush in 2001. This past June was the 
65th Anniversary of D-Day. Just shortly before the Anniversary Elisha 
Ray Nance, the last surviving ``Bedford Boy,'' passed away yesterday at 
the age of 94.
    In August, the National Park Service made a site visit to the D-Day 
Memorial to follow up on a request from Secretary of the Interior Ken 
Salazar to study the suitability of using the Antiquities Act to 
preserve the Memorial. In the words of Secretary Salazar, ``The 
memorial stands as a symbol of the courage and sacrifices of all 
members of the United States and Allied Forces who began the liberation 
of northwest Europe as part of Operation Overlord.'' The question of 
the suitability of using the Antiquities Act, while an important road 
to consider, is separate and distinct from the more traditional method 
to authorize a full study of the feasibility of designating the 
National D-Day Memorial as part of the National Park System. I am not 
here to speak about the ongoing activities within the National Parks 
Service in studying the Memorial and the Antiquities Act, but rather 
advocate for the legislation before this subcommittee that would 
provide for the protection and preservation of the Memorial through the 
traditional process should the Antiquities Act be found unsuitable.
    Anyone who visits the Memorial will see that it is far more than 
just a structure. Dedicated to preserving the lessons and legacy of D-
Day, the Memorial works to educate all generations about the valor, 
fidelity, and sacrifice of the Allied Forces. The Memorial works to 
teach current generations about the Greatest Generation and what life 
was like not just for those fighting on D-Day but their friends, 
families, and communities back home during the war. The National D-Day 
Memorial Foundation has a Victory Garden in which at-risk youth are 
taught about the war effort at home by growing their own fruits and 
vegetables. The Memorial also works with veterans of World War II to 
preserve oral histories and their memories of D-Day and the war. This 
is a national treasure that serves as a permanent reminder of the 
bravery and heroism of our American armed forces.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir.
    Let me ask Congressman Schrader for his comments on H.R. 
2781. Sir, welcome and again thank you for your patience.

 STATEMENT OF THE HONORABLE KURT SCHRADER, A REPRESENTATIVE IN 
        CONGRESS FROM THE STATE OF OREGON, 5th DISTRICT

    Mr. Schrader. Thank you very much, Mr. Chairman and Ranking 
Member Bishop, members of the Natural Resources Subcommittee 
for the opportunity to speak on House Resolution 2781. This 
bill would designate more than 21 miles of the Molalla River as 
a protected natural resource under the National Wild and Scenic 
Rivers System.
    I also want to thank the President of the Molalla River 
Alliance, Michael Moody, for making the trip from Oregon and 
representing the alliance and the 45 civic and local Oregon-
based groups who recognize the social, cultural and economic 
benefits of this bill. I appreciate and commend their 
dedication to the Molalla River and the hard work over the last 
few years protecting the river and educating their communities 
on proper river stewardship.
    The Molalla River is nothing short of an historic and 
national treasure in my state. Historically it serves as both 
the trail for indigenous Molalla River Indians and as a vital 
trade route between pioneers in the Willamette Valley and 
inhabitants of eastern Oregon. Its Table Rock Trail, which is 
also known as the Huckleberry Trail, was used by members of the 
Warm Springs Tribe in search of huckleberry and salmonberry 
picking areas. Early settlers used its fertile lands and 
drinking water for homesteading and its Ogle Mountain Mine 
attracted migrants during the goldrush.
    Today the Molalla River is known by residents in Clackamas, 
in Marion County and across Oregon for its many recreational 
purposes, which include hiking, diving, fishing, kayaking, 
whitewater rafting, picnicking, mountainbiking and horseback 
riding. It still serves as a water source for many citizens of 
Molalla and my hometown of Canby. It provides spawning beds for 
threatened steelhead trout and chinook salmon, and it is also 
an essential wildlife area for the pileated woodpecker, red 
tree vole, red-legged frog, northern spotted owl, pacific giant 
salamander and both golden and bald eagles.
    Designating the Molalla River as recreational under the 
National Wild and Scenic River System would have tremendous 
economic, cultural and environmental benefits for this region. 
Economically it would attract more tourism and create many more 
new jobs, something the State of Oregon desperately needs. 
Environmentally it would protect the character of the river, 
thereby preserving it so future generations could recognize its 
rich cultural, historical and social benefits.
    Protecting our environment and protecting local economies 
are not mutually exclusive. We can preserve the scenic beauty 
of the Molalla River while also maintaining the Federal land 
base available for timber management in Oregon. Under my bill, 
there are approximately 420 acres of timber management areas or 
matrix lands that would be impacted. While this represents a 
relatively small amount of the impacted timber lands, I am 
sensitive to that reduction. Therefore, as the Committee moves 
forward, I would ask the Chairman and Ranking Member to work 
with me and my staff to ensure there will be no net loss of 
acres available for timber management in my state and the BLM 
area as a result of this legislation.
    Once again, I thank my colleagues for providing me the 
opportunity to speak on this important legislation and urge the 
Committee to pass H.R. 2781 and designate this section of the 
Molalla River as part of the National Wild and Scenic River 
System. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Schrader follows:]

Statement of The Honorable Kurt Schrader, a Representative in Congress 
                 from the State of Oregon, on H.R. 2781

    Thank you Chairman Grijalva, Ranking Member Bishop, and members of 
the Natural Resources Subcommittee on National Parks, Forests, and 
Public Lands for the opportunity to speak about H.R. 2781. This bill 
would designate more than 21 miles of the Molalla River as protected 
under the National Wild and Scenic Rivers System. I also want to thank 
the President of the Molalla River Alliance, Michael Moody making the 
trip from Oregon and representing the Alliance and the 45 civic and 
local Oregon-based groups who recognize the social, cultural, and 
economic benefits of this bill. I appreciate and commend their 
dedication to the Molalla River and hard work over the past few years 
protecting the river and educating their communities on proper river 
stewardship.
    The Molalla River is nothing short of a historic and natural 
treasure in my state. Historically, it served as both a trail for 
indigenous Molalla Indians and as a vital trade route between pioneers 
in the Willamette Valley and residents of Eastern Oregon. Its Table 
Rock Trail, which is also known as ``Huckleberry Trail,'' was used by 
members of the Warm Springs tribe in search of huckleberry and 
salmonberry picking areas. Early settlers used its fertile lands and 
drinking water for homesteading and its Ogle Mountain mine attracted 
migrants during the gold rush.
    Today, the Molalla River is known by residents in Clackamas and 
Marion Counties and across Oregon for its many recreational purposes 
which include hiking, diving, fishing, kayaking, whitewater rafting, 
picnicking, mountain biking, and horseback riding. It still serves as a 
water source for many citizens of Molalla and my home town of Canby. It 
provides spawning beds for threatened Steelhead Trout and Chinook 
Salmon and is also an essential wildlife area for the pileated 
woodpecker, red tree vole, red-legged frog, northern spotted owl, 
pacific giant salamander, and both golden and bald eagles.
    Designating the Molalla River as recreational under the National 
Wild and Scenic Rivers System would have tremendous economic, cultural, 
and environmental benefits for the region. Economically, it would 
attract more tourism while creating many new jobs--something the state 
of Oregon desperately needs. Environmentally, it would protect the 
character of the river thereby preserving it so future generations can 
recognize its rich cultural, historical, and social benefits.
    Protecting our environment and protecting local economies are not 
mutually exclusive. We can preserve the scenic beauty of the Molalla 
River while also maintaining the federal land base available for timber 
management in Oregon. Under my bill there is approximately 420 acres of 
timber management acres or ``matrix'' lands that would be impacted. 
While this represents a relatively small amount of impacted timber 
lands, I am sensitive to the reduction. Therefore, as the committee 
moves forward, I would ask the Chairman and Ranking Member to work with 
me and my staff to ensure there will be no net-loss of the acres 
available for timber management as a result of this legislation.
    Once again, I thank my colleagues for providing me the opportunity 
to speak on this important legislation and I urge the committee to pass 
H.R. 2781 and designate this section of the Molalla River as part of 
the National Wild and Scenic Rivers System.
                                 ______
                                 
    Mr. Grijalva. Thank you very much.
    Let me ask Congressman Frelinghuysen for his comments on 
H.R. 118. Sir, thank you.
    Mr. Frelinghuysen. Thank you for shoehorning me in here. I 
appreciate the elevated status up here on the dais. And, Mr. 
Bishop, thank you for your support and advice.
    H.R. 118 seeks to authorize the addition of 100 acres for 
the Morristown National Historical Park in my congressional 
district of New Jersey, the oldest historical park in the 
nation, so we would raise the limit such that the people wanted 
to make private donations or that we had willing sellers that 
we could add to the park. This bill has no controversy 
identified with it. As Mr. Bishop said, it is supported by all 
Members of Congress in the New Jersey Congressional delegation. 
I ask for its favorable consideration. Thank you.
    Mr. Grijalva. Thank you very much, sir.
    Three votes have been called, and so let me thank the 
colleagues that are here for their comments today, and we will 
recess for about 30 minutes and come back and continue with the 
second panel. Thank you.
    [Recess.]
    Mr. Heinrich [presiding]. We are back, and we are going to 
start with Mr. Campbell. Mr. Campbell, if you want to get 
started on H.R. 86. Thank you for making it over.

 STATEMENT OF THE HONORABLE JOHN CAMPBELL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Campbell. Great. Thank you, Mr. Chairman, and Ranking 
Member Bishop and Members. This should be considerably less 
controversial than the last bill you dealt with. This bill 
deals with approximately 40, and I will call them rocks, off 
the coast of California within my district. We will show you 
pictures to show what they are now.
    They are large. They are kind of house sized rocks. In 
1935, by an act of Congress, those rocks were put under the 
purvey of the Coast Guard in order to potentially put 
lighthouses on them and otherwise use them for civil defense 
during what became World War II.
    Those uses are no longer anticipated or practical for any 
purposes going forward, and frankly, the rocks are kind of too 
small to really locate much of a lighthouse on and they are not 
very far off the coast, as you can see from this picture here, 
because that is some coastal aloe on the coast, so they are not 
that far away.
    What this bill would do is very simple. It would just move 
these 40 rocks under the purvey of the California Coastal 
National Monument and to be administered as for public use and 
parks, and frankly, for marine life preservation and 
enhancement in the area. That is all this bill would do is 
move.
    To show you where the rocks are roughly, here is the map. 
Each one of those little black and green dots along there in 
Newport Beach, Laguna Beach and Dana Point are one, or two, or 
three of these 40 rocks. All this bill would do is change 
something that was done in 1935 because prior to that these 
rocks were actually part of the park system, and so it would 
return them to being national coastal monument. I yield back, 
Mr. Chairman. happy to take any questions.
    Mr. Heinrich. Are there any questions for members on the 
panel?
    [No response.]
    Mr. Heinrich. Thank you very much for joining us. We are 
going to go to Mr. Chaffetz and then start Panel No. 2. Thank 
you.

STATEMENT OF THE HONORABLE JASON CHAFFETZ, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Chaffetz. Thank you, Mr. Chairman. I appreciate it. 
Thank you. Ranking Member Bishop, I appreciate the opportunity 
to participate in this very important hearing. I appreciate our 
Senators, Hatch and Bennett, Lieutenant Governor Bell who is 
here with us, former Mayor Anderson, various county 
commissioners and other residents and interested parties from 
the State of Utah, SUWA, for instance. I appreciate you all 
being here.
    As the newest member of Utah's congressional delegation, I 
had the benefit of building on the successes of former and 
current Members of Congress. For example, in Utah, the Cedar 
Mountain and Washington County bills were the culminations of 
years of hard work, negotiations and give and take by all 
parties involved, as was described by Mr. Matheson and Senator 
Bennett.
    I am now emulating the successful models I foresee with 
wilderness proposals in my own district, the 3rd Congressional 
District of Utah. I would encourage the Southern Utah 
Wilderness Alliance and Representative Hinchey to do the same, 
to work cooperatively with all stakeholders and don't offer up 
a bill that has been flatly rejected by the overwhelming 
majority of elected local officials in the State of Utah.
    Former Salt Lake City Mayor Anderson will mention in his 
testimony that in 2006 over 1.2 million visitors came to the 
arches in Canyonlands National Park spending some $99 million--
by the way, I question that number--during their visits. There 
is no doubt that the national parks in Utah benefit the local 
economy, and we love having them; however, the economies in my 
district and other parts of the state also rely upon multiple 
use aspect of public lands.
    The small Utah towns that depend on ranching, outdoor 
motorized recreation and energy production would see their 
economies decimated because of the restrictive burdens created 
by this bill, the purported America's Red Rock Wilderness Act. 
While some may argue that more wilderness acres would attract 
more tourism to those towns, I would like to reference a recent 
economic report from the Governor.
    In 2007, the Utah natural resources and mining-based jobs 
made up four percent of our state's economy and pay a high 
monthly salary of $5,664. On the other hand, the leisure and 
hospitality industry makes up less than four percent, roughly 
3.4 percent, of the economy and their salaries averaged the 
lowest of any other industry at just $1,258 per month.
    Utah enjoys one of the lowest unemployment rates in the 
country, and if the Red Rock Wilderness bill were to pass, 
thousands of well-paying jobs would be replaced by low paying, 
seasonal tourism jobs. Energy production and tourism are not 
mutually exclusive. They coexist now, and they will coexist in 
the future. There is no need to decimate one at the expense of 
others.
    Now, lest I be labeled as someone who wants to tear up our 
Federal lands, I would ask a legitimate question. Should 
certain lands receive extra protections and designations? 
Absolutely yes, and I am committed to protecting those areas, 
but I would like to know where is the end game for wilderness 
alliances?
    For example, the original BLM proposal was roughly three 
million acres, then SUWA countered with 5.1 million acres, then 
it became 5.7 million acres, and now we have a hearing today 
that would designate 9.4 million Utah acres as wilderness. If 
the goal is to designate wilderness in areas truly worthy of 
that highest and most restrictive designation, then you have a 
partner.
    If the end goal is to further inflate the acreage in this 
bill thus allowing the organizations to exist in perpetuity, 
then it is going to be a long, rocky road. When will enough be 
enough? We have a chart here and we had a graphic of it. I 
don't know if we can put the graphic up on this thing. I think 
Fred here will just show it. Congressman Bishop has shared this 
before.
    While roughly 70 percent of Utah is owned by Federal and 
state government, many states to the east, such as New York, 
enjoy less than one percent of their land owned by the 
government. Perhaps it is time for the representatives from 
those states to push for wilderness in the east where it is 
obviously needed.
    When all is said and done, the reality is this: the Red 
Rock Wilderness Act is an archaic, antiquated model for 
designating wilderness. An overwhelming majority of Utahans, 
and Americans for that matter, have rejected the Federal one 
size fits all approach to wilderness in Utah. I would challenge 
Mr. Hinchey and SUWA to put aside their environmental 
fundraising campaigns which are sponsored by this bill and work 
for an inclusive solution.
    Most Utahans would like to see truly pristine lands 
designated, but we must also respect the input of people whose 
livelihoods depend on the shared use of Federal lands. Other 
members in this delegation have shown that all sides are able 
to come together and achieve both wilderness designations and 
continued multiple use access for all. I hope that after today 
all parties involved can come together and truly do the same. 
With that, Mr. Chairman, I yield back the balance of my time.
    Mr. Heinrich. Congresswoman Lummis?

STATEMENT OF THE HONORABLE CYNTHIA LUMMIS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF WYOMING

    Mrs. Lummis. Thank you, Mr. Chairman. I would like to align 
myself with the remarks that have been made previously by all 
of the gentlemen from Utah who have spoken thus far. It is my 
experience in the west that the greatest threat to western open 
lands, it is not oil and gas because oil and gas wells are 
reclaimed once the resource is recovered, it is not mining 
because mines are reclaimed pursuant to America's state-of-the-
art reclamation laws once mines are reclaimed, it is houses.
    Houses are the biggest threat to open lands in the western 
states. Instead of taking lands that are already opened and 
making them less open we should be more concerned about 
conserving land that is open and put into productive use now in 
order to keep view sheds, landscapes, water cleanliness, air 
cleanliness, and all of those things come from, and are 
filtered by, open land.
    Furthermore, it is houses and buildings and roads that emit 
a lot of carbon into the atmosphere, where it is open lands 
that absorb carbon, sequester it, because of the plant life on 
those open lands. So we should be concentrating our 
conservation efforts in the west on conserving open land, not 
on changing the status of currently open land to even more 
restrictive uses. Thank you, Mr. Chairman. I yield back.
    Mr. Heinrich. Thank you. Mr. Hinchey?
    Mr. Hinchey. Thanks very much. I just wanted to inform my 
good friend on the other side of the aisle here about some of 
the things that we are doing and some of the things that have 
been done. For example, we are in the process now of trying to 
get Federal recognition of certain areas in New York, including 
in the Hudson Valley, which would be very marvelous and it is 
something that would be very important to do.
    We are in the process of doing it, and we would appreciate 
your support. I would also like to inform you that we have two 
very large state parks in New York, the Catskill Park and the 
Adirondack State Park. The Adirondack State Park is larger than 
any national park anywhere in the country and it was set up 
long before most of the national parks were set up in other 
places around the country.
    So the example that New York sets is something important 
and significant, and I just wanted to let you know what is 
going on.
    Mr. Chaffetz. Will the gentleman yield?
    Mr. Hinchey. Sure.
    Mr. Chaffetz. An honest question. How much land are you 
currently pursuing in your state to get these Federal 
designations? Like, give me a sense of----
    Mr. Hinchey. We are pursuing a very significant area in the 
Hudson Valley. The exact acreage is still unclear because we 
are trying to make it as large as possible.
    Mr. Chaffetz. Well, whatever it is, let us make it bigger, 
and I would be happy to support that.
    Mr. Hinchey. Yes, we will make it bigger, but we are also 
making it in the context of the largest state park anywhere in 
the country, and again, for your information, larger than any 
of the national parks anyplace in the country, so it is not all 
New York City. Stop around and visit us once in a while.
    Mr. Chaffetz. I would love to. I will come out and take a 
tour. I am sure it is absolutely beautiful. If the gentleman 
will yield to just one more question.
    Mr. Hinchey. Sure.
    Mr. Chaffetz. I really do believe that there is a proper 
role and responsibility that we have. I thought Senator 
Bennett, in particular, really articulated the fact that we 
can, and have, particularly in the west, set aside such hugh 
portions of our land.
    What I would hope that what you would be supportive of is 
when we go to try to get more money for PILT payments out west 
as compensation for the fact that we have such a huge 
percentage, more than half of our state set aside, that when we 
go to fund and get authorization and then truly fund those PILT 
payments, that you would come to our support because it is the 
education component that really, as Congressman Bishop points 
out, gets underfunded along the way.
    Mr. Hinchey. I have been supporting that for I think 
roughly about 16, 17 years here.
    Mr. Chaffetz. Well, thank you.
    Mr. Hinchey. So I will continue to support it very, very 
effectively, as strong as I can, and perhaps, even in the 
context of the new organization that we have here in the 
Congress, it might be possible to do it. So I appreciate what 
you are saying and also want to note that the public lands at 
prices across the country where most of them are in the west, 
those are national public lands and they were set up as 
national public lands because they were abandoned by the states 
in which they are now located.
    Mr. Chaffetz. I don't know that they were necessarily 
abandoned, but I think that is----
    Mr. Hinchey. Well, they were--yes. They were not paid any 
attention to, they were not settled, they were not interested 
in. They were places that were essentially----
    Mr. Heinrich. Mr. Hinchey?
    Mr. Hinchey.--not having any attention paid to them.
    Mr. Chaffetz. I think the record would reflect it a little 
differently.
    Mr. Heinrich. We are going to have another round of votes 
called here before long, and so if we can move to a quick 
statement from Mr. Holt, and then I want to hear from our 
second panel.

   STATEMENT OF THE HONORABLE RUSH HOLT, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Holt. I thank the Chairman. I did want to just state 
briefly my support for Mr. Frelinghuysen's legislation, which 
is, by the way, relevant to the discussion that was just under 
way. We want to set aside and protect additional land with 
regard to the Morristown National Historical Park. In New 
Jersey we are doing everything we can. In fact, there is a 
specific goal of setting aside protecting a third of the 
existing open space in the state.
    Now, much of that is not as suitable for wilderness 
designation as are the red rocks as designated in Mr. Hinchey's 
designation, but to the extent that we can preserve these 
eastern lands, we want to do that. With regard to the Utah 
lands, these are by any measure that I could come up with are 
eminently worthy of the highest level of protection.
    The history of conservation in this country has been a 
history of overcoming opposition, some of it parochial, some of 
it narrow-minded, some of it legitimate at the time, but 
history has judged that these protected areas have been to the 
great benefit of this country. In fact, it is being chronicled 
with respect to the national parks every night this week, some 
of the opposition that had to be overcome in order to get this 
level of protection, and the resulting benefit that has come to 
this entire nation.
    So I just wanted to add my strongest support to Mr. 
Hinchey's legislation, and I thank the Chairman for the time.
    Mr. Heinrich. Thank you. We are going to get started with 
Panel No. 2, and I want to welcome Mr. Abbey and Mr. Holtrop 
from our National Forest System and from our Bureau of Land 
Management. I am going to let you guys dive right in so that we 
can hopefully hear as much of your testimony as we can before 
we go to the next round of votes.

    STATEMENT OF ROBERT V. ABBEY, DIRECTOR, BUREAU OF LAND 
MANAGEMENT, ACCOMPANIED BY TERRENCE D. MOORE, CHIEF OF PLANNING 
    AND COMPLIANCE, NORTHEAST REGION, NATIONAL PARK SERVICE

    Mr. Abbey. Well, thank you, Mr. Chairman and Members of the 
Committee. I am Bob Abbey and I am the Director of the Bureau 
of Land Management, and I thank you for inviting the Department 
of the Interior to testify on bills of interest to the Bureau 
of Land Management and the National Park Service. I am 
accompanied by Terrence Moore, Chief of Planning and Compliance 
for the National Parks Service's northeast region who will be 
happy to answer any questions on H.R. 118 and H.R. 2689.
    I want to keep my remarks brief because we have provided 
the Committee members with our written testimony which provides 
the rationale for the positions that we are taking on each of 
these positions. I did want to highlight some of the comments 
that we do have on each piece of legislation. H.R. 1925 
proposes to designate 218 units of BLM managed lands in Utah 
comprising 9.4 million acres as components of the National 
Wilderness Preservation System.
    These designations span the State of Utah and include 
extraordinary landscapes with unmatched wild land resources. 
The Department strongly supports the constructive resolution of 
public lands and wilderness designation issues in Utah and 
across the United States. Through our wilderness decisions we 
demonstrate a sense of stewardship and conservation that is 
uniquely American and is sensibly balanced with the other 
decisions that we make that affect public lands.
    The passage by Congress and signing by the President of the 
omnibus Public Lands Management Act, Public Law 111-11, earlier 
this year constituted a very positive sign that we are moving 
these issues forward. The history of wilderness proposals in 
Utah is a contentious one. Resolution and certainty will serve 
all parties, including the conservation community, extractive 
industries, OHV enthusiasts, local communities, state 
government and Federal land managers.
    An important milestone in this effort was reached with the 
inclusion of the Washington County Act as part of the omnibus 
Public Lands Management Act. We hope that this collaborative 
model can be extended to the rest of Utah, and we suggest an 
approach that is more geographically focused. We would welcome 
the opportunity to work cooperatively with sponsors of this 
legislation, the Committee and the members of the Utah 
delegation to address, and hopefully resolve, wilderness issues 
in Utah.
    Now, if I may, I would like to comment on H.R. 86. The BLM 
supports H.R. 86 which would eliminate old withdrawals on 
public lands off the coast of Orange County, California, and 
allow the inclusions of these rocks, islands and exposed reefs 
within the California Coastal National Monument. We look 
forward to passage of this legislation which would ensure the 
long-term protection and preservation of these important 
coastal features and pave the way for important local community 
stewardship initiative.
    The National Park Service supports H.R. 118, a bill to 
amend existing law that would increase authorization for 
additional lands at Morristown National Historical Park from 
615 to 715 acres. Authorizing this additional 100 acres will 
enable the park to better protect important revolutionary war 
resources as they become available from willing sellers in the 
future.
    Relating to H.R. 2689, the National Park Service recommends 
deferring action on H.R. 2689 to allow the National Park 
Service to complete a report on a preliminary assessment as to 
whether the D-Day memorial would be eligible for inclusion into 
the National Parks System. This would give Secretary Salazar an 
opportunity to review the report and to share his contents with 
the members of the Virginia delegation.
    Relating to the Molalla Wild and Scenic River, the BLM 
supports H.R. 2781 which proposes to designate 15.1 miles of 
the Molalla River and 6.2 miles of the Table Rock Forest of the 
Molalla in northern Oregon as components of the National Wild 
and Scenic River System. We recommend that these river segments 
be designated as recreational under the Wild and Scenic River 
Law.
    Relating to Devil's Staircase Wilderness, H.R. 2888 
proposes to designate nearly 30,000 acres of Federal land near 
the coast in southwestern Oregon as wilderness, as well as 
portions of both Franklin Creek and Wasson Creek as components 
of the Wild and Scenic River System. The majority of the lands 
proposed for designations are on lands managed by the Forest 
Service and we defer to the Forest Service on those 
designations.
    The Department of the Interior supports the designations on 
BLM lands and recommends that we work together for minor 
modifications to this legislation. In conclusion, Mr. Chairman, 
Members of the Committee, I thank you for inviting me to 
testify on behalf of the Department of the Interior, and I 
would be happy to answer any questions.
    Mr. Heinrich. Thank you, Mr. Abbey, and we will go to Mr. 
Holtrop.
    [The prepared statements of Mr. Abbey follows:]

  Statement of Robert V. Abbey, Director, Bureau of Land Management, 
              U.S. Department of the Interior, on H.R. 86

    Thank you for inviting the Department of the Interior to testify on 
H.R. 86, which would add certain rocks and small islands along the 
coast of Orange County, California, to the California Coastal National 
Monument managed by the Bureau of Land Management (BLM). The BLM 
supports H.R. 86.
Background
    The California Coastal National Monument, part of the BLM's 
National Landscape Conservation System, was established by a 
Presidential Proclamation by President Clinton on January 11, 2000, to 
protect:
        ``all unappropriated or unreserved lands and interest in lands 
        owned or controlled by the United States in the form of 
        islands, rocks, exposed reefs, and pinnacles...within 12 
        nautical miles of the shoreline of the State of California.''
    Covering more than 20,000 rocks and small islands spread along 
1,100 miles of the California coastline, the Presidential Proclamation 
protects the Monument's overwhelming scenic quality and natural beauty. 
The Proclamation specifically calls for the protection of the geologic 
formations and the habitat that these rocks and small islands provide 
for seabirds, marine mammals, and other plant and animal life, both 
terrestrial and marine.
    Some particularly significant public rocks and islands off the 
coast of Orange County in the Laguna Beach area provide important 
habitat for a wide variety of upper rocky intertidal species, as well 
as various shorebird species. Additionally, four rock locations--Bird 
Rock and Two Rocks off the City of Laguna Beach, San Juan Rocks off the 
City of Dana Point, and San Marcos Rocks off the southern portion of 
the City of San Clemente--provide important roosting habitat for 
seabirds (including cormorants and the Federally-listed brown pelican) 
and haul-out areas for seals and sea lions.
    In the process of working with local communities on planning for 
the California Coastal National Monument, the BLM discovered that the 
rock features off the coastline of Orange County were under 
Congressional withdrawals dating from the 1930s and, therefore, were 
not included within the Monument. These withdrawals include more than 
40 offshore rocks, small islands, exposed reefs, and pinnacles located 
within one mile of the coast of Orange County, California, totaling 
approximately two acres above mean high tide. More than 70 years old, 
the withdrawals were originally intended to temporarily reserve the 
Orange County offshore rocks and small islands for ``park, scenic, or 
other public purposes'' (1931 Act), and reserve three specific offshore 
rock clusters for the possibility of future lighthouses (1935 Act), 
which were never built. These withdrawals were ultimately never 
utilized and are no longer needed.
    The Laguna Ocean Foundation has led a community-wide effort to 
include these significant areas within the California Coastal National 
Monument. The Foundation has worked with the City of Laguna Beach and 
other local groups, including the Audubon Society and the Surfrider 
Foundation, on a variety of city and area-wide coastal protection and 
monitoring projects, which resulted in H.R. 86.
H.R. 86
    H.R. 86 would eliminate the existing withdrawals on these public 
lands off the coast of Orange County and place these features within 
the existing California Coastal National Monument.
    The BLM supports the revocation of the old withdrawals and the 
inclusion of these rocks, islands, and exposed reefs within the 
Monument.
    The BLM has been working with partners along the 1,100 mile 
California coast to create a series of California Coastal National 
Monument Gateway community initiatives. These Gateway initiatives are a 
means to support organized local stewardship of various California 
coastal areas through the development of a consortium of the area's 
resource managers and advocates. The Laguna Beach community has 
expressed strong interest in developing a California Coastal National 
Monument Gateway initiative for the Orange County coastal area. 
Inclusion of these rocks and islands within the Monument will allow the 
BLM to work with the community to provide responsible, long-term 
stewardship of these valuable areas.
Conclusion
    Thank you for the opportunity to testify in support of H.R. 86. We 
look forward to passage of this legislation which would place these 
significant features off the coast of Orange County within the 
California Coastal National Monument, thus ensuring their long-term 
protection and preservation, and paving the way for an important local 
community stewardship initiative.
                                 ______
                                 

                Statement of the National Park Service, 
              U.S. Department of the Interior, on H.R. 118

    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
H.R. 118, a bill to authorize the addition of 100 acres to Morristown 
National Historical Park in the state of New Jersey. The Department 
supports enactment of this legislation.
    H.R. 118 would amend existing law (16 U.S.C. 409g) by increasing 
the authorization for additional lands at Morristown National 
Historical Park from 615 to 715 acres. Authorizing this additional 100 
acres will enable the park to begin to better protect important 
Revolutionary War resources as they may become available from willing 
sellers in the future. This legislation, if enacted, would also enable 
the park to quickly respond to past offers by Harding Township to 
donate nine acres for inclusion in the Jockey Hollow unit.
    The 2003 General Management Plan for Morristown National Historical 
Park proposed an increase of up to 500 acres to the park's boundary, 
predominately through easements, to protect critical properties 
including those adjacent to Washington's Headquarters, Jockey Hollow, 
Fort Nonsense, and the New Jersey Brigade unit.
    Morristown National Historical Park was the first national 
historical park established by Congress on March 2, 1933, Public Law 
72-409. The park currently contains 1,711 acres consisting of four non-
contiguous units: Washington's Headquarters with the Ford Mansion and 
Headquarters Museum, the Fort Nonsense Unit, the Jockey Hollow Unit, 
and the New Jersey Brigade Area. The Jockey Hollow Unit includes the 
Wick house (headquarters of General Arthur St. Clair), five 
reconstructed soldier huts, and approximately 27 miles of walking 
trails.
    During two critical winters of the Revolutionary War, 1777 and 
1779-80, the countryside in and around Morristown, New Jersey, 
sheltered the main encampments of the American Continental Army and 
served as the headquarters of its commander-in-chief, General George 
Washington.
    General Washington twice chose Morristown for encampment due to its 
strategic location, including proximity to New York City, defensible 
terrain, important communication routes, access to critical resources, 
and a supportive community. The park encompasses ground occupied by the 
army during the vast 1779-80 encampment, and the site of the 
fortification from the 1777 encampment. The Ford Mansion, where 
Washington made his headquarters, is an important feature of the park 
and recalls both military and civilian contributions to the winning of 
our nation's independence.
    The park's museum collection includes close to 350,000 items 
including archeological objects from the encampments; paintings by the 
Peales, Stuart, Savage, Sully, and other early American artists; 18th 
century furniture; archival material; Revolutionary War arms and 
equipment; and, a collection of items, letters and books belonging to 
George Washington.
    Morristown National Historical Park is situated in the heavily 
populated region of northern New Jersey, a center for that state's 
continuing growth and development. It is important for the park's 
future viability, protection of its important Revolutionary War 
resources, and the enjoyment of its close to 300,000 annual visitors, 
that lands adjacent to its boundaries be protected from adverse 
development impacts. H.R. 118 will assist in ensuring the future 
integrity of this special place that commemorates and interprets 
seminal events of Revolutionary War history and the sacrifices of those 
who served during that time to enable the birth of our nation.
    As noted at the beginning of this statement, this authorization 
would enable the park to acquire an additional 100 acres as they may 
become available in the future by sale or donation from willing 
landowners. It would enable the park to continue discussions on the 
possible donation of 9 acres to the National Park Service for inclusion 
in the Jockey Hollow unit. Because acquisition of these 9 acres would 
be by donation, the costs of acquisition would be minimal and would 
likely include survey and title work. The Park Service estimates that 
full fee acquisition of the remaining acreage authorized would be 
slightly less than $6 million. However, the preferred method of 
acquisition would be by donation or the purchase of easements. The 
estimated cost for acquisition of easements would be approximately $4.8 
million or approximately 80 percent of the full fee acquisition cost. 
The 9 acres, referenced above, is open space adjacent to the park 
boundary with no structures. There would be no costs for capital 
improvements or annual operations and maintenance as the open space 
would remain in its natural state. Posting new boundary markers for the 
full 100 acres, if acquired in fee simple, would cost approximately 
$50,000. Regardless, any funding necessary for these acquisition and 
related costs would be subject to National Park Service priorities and 
the availability of appropriations.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions you or members of the committee may have regarding 
the Department's position on H.R. 118.
                                 ______
                                 

  Statement of Robert V. Abbey, Director, Bureau of Land Management, 
             U.S. Department of the Interior, on H.R. 1925

    Thank you for inviting the Department of the Interior to testify on 
H.R. 1925, America's Red Rock Wilderness Act. The Department strongly 
supports the constructive resolution of public lands and wilderness 
designation issues in Utah and across the western United States. The 
passage by Congress and signing by the President of the Omnibus Public 
Land Management Act (Public Law 111-11) earlier this year constituted a 
very positive sign that we are moving these issues forward. While BLM 
has not had an opportunity to review many of the proposed designations, 
we would welcome the opportunity to work cooperatively with the 
sponsors of the legislation, the Committee and the members of the Utah 
delegation to resolve wilderness issues in Utah. We suggest an approach 
that is more geographically focused. The Washington County Act's 
wilderness provisions in Public Law 111-11 may provide a good example.
    America's wilderness system includes many of the Nation's most 
treasured landscapes, and ensures that these untrammeled lands and 
resources will be passed down from one generation of Americans to the 
next. Through our wilderness decisions, we demonstrate a sense of 
stewardship and conservation that is uniquely American and is sensibly 
balanced with the other decisions we make that affect public lands.
Background
    Substantial work on this proposal has been undertaken in Utah by 
citizen volunteers who care deeply about the land and its protection. 
The history of wilderness proposals in Utah is a contentious one. 
Resolution and certainty will serve all parties--including the 
conservation community, extractive industries, OHV enthusiasts, local 
communities, State government, and Federal land managers. An important 
milestone in this effort was reached with the inclusion of the 
wilderness designations within the Washington County Act as part of the 
Omnibus Public Land Management Act of 2009, which was enacted earlier 
this year. We hope that this collaborative model can be extended to the 
rest of Utah.
H.R. 1925
    H.R. 1925 proposes to designate 218 units of BLM-managed lands, 
comprising 9.4 million acres, into the National Wilderness Preservation 
System. These designations span the State of Utah, from the Great Basin 
region of western Utah, to the Canyonlands in the southeast; from the 
Uinta Basin and Book Cliffs in the northeastern corner of the State, to 
the Mojave Desert in southwestern Utah. Many of these lands are 
extraordinary, with unmatched wild land resources. The legislation 
breaks these designations into ten distinct areas:
    Great Basin wilderness areas (44 areas)
    Zion and Mojave Desert wilderness areas (14 areas)
    Grand Staircase-Escalante wilderness areas (52 areas)
    Moab-La Sal Canyons wilderness areas (15 areas)
    Henry Mountains wilderness areas (11 areas)
    Glen Canyon wilderness areas (9 areas)
    San Juan-Anasazi wilderness areas (12 areas)
    Canyonlands Basin wilderness areas (14 areas)
    San Rafael Swell wilderness areas (21 areas)
    Book Cliffs and Uinta Basin wilderness areas (26 areas)
    The BLM reviewed some of the areas proposed for designation under 
H.R. 1925 through its recently-completed resource management plans. 
However, given the scope of the bill, the BLM has not undertaken a 
detailed analysis of each proposed designation in the context of 
designated wilderness. Should the Committee wish to move forward with 
the legislation, the BLM would carefully review each of the 218 areas 
to assess wilderness quality, boundary manageability, and conflicts 
with current uses, including motorized recreation and energy resource 
development. In addition, detailed mapping is necessary. Undertaking 
such a review and creating maps of these areas is both critically 
important to moving forward and a monumental task.
    Below are a few examples of areas that an initial review, based on 
available information, indicates may deserve protection.
    Desolation Canyon in eastern Utah, proposed for designation under 
section 110(b)(6) of H.R. 1925, is an extraordinary treasure, and is 
deeper in places than Arizona's Grand Canyon. This adventure 
destination draws visitors to study, explore, float, and hike through 
spectacular landscapes. Red rock canyons, white sand beaches, and 
cottonwood groves define this exceptionally picturesque area that 
supports a vibrant river outfitting community. The remoteness and 
simplicity of the area enhance its appeal.
    Section 109 designates a number of wilderness areas throughout the 
San Rafael Swell. The unique character of the San Rafael Swell area 
began to form 50 million years ago when a massive uplift formed a 
geologic structure called an anticline. This bulge in the earth's crust 
was later eroded to leave high mesas, deep canyons, domes, and 
spectacular arches and spires. The terrain varies from sheer cliffs and 
dazzling canyons to more gently eroded badlands broken by shallow 
washes. San Rafael Reef extends through the southeast side of the area 
with dramatic sheer-walled cliffs, pinnacles, knobs, twisted canyons 
and valleys of stunning colors. It is a geological classroom of amazing 
proportions.
    On the western edge of Utah, the Deep Creek Mountains, addressed in 
section 101(b)(10) of the proposed legislation, are a mountain oasis 
isolated within the Great Salt Lake Desert. Rising dramatically from 
the desert, granite canyons lead upward to snow-capped peaks. The 
vertical extremes have created rare ecological niches with exceptional 
biological diversity. In addition, numerous archaeological sites from a 
wide span of history are prevalent in the area.
    Southeastern Utah's Grand Gulch, addressed in section 107(b)(6) of 
the proposed legislation, is another remarkable area. One of Utah's 
most popular wild land hiking areas, the Grand Gulch is home to rock 
art, ancient cliff dwellings, and other ceremonial structures that are 
located throughout the cliff-face area. More than 1,000 years ago the 
ancestors of modern Puebloan people inhabited much of the Grand Gulch, 
and today the preserved cultural resources are protected in this 
remote, primitive setting.
    We also know that some of the areas proposed for designation 
present serious challenges because of existing and conflicting uses. 
For example, recreational use has exploded on public lands throughout 
the West, including in southern and eastern Utah. While many 
recreational activities, such as hunting and hiking, are compatible 
with BLM wilderness designation, others, such as mountain biking and 
OHV use, are not.
    One use that conflicts with wilderness is mountain biking; an 
increasingly popular outdoor activity on BLM lands. In the Moab area, 
for example, both BLM's Bar M Mountain Bike Focus Area and parts of the 
Klondike Bluffs Mountain Bike Focus Area are within the Arches Adjacent 
area proposed in section 104(b)(1) of the legislation. Both of these 
areas, specifically designated by the BLM for mountain biking, receive 
substantial use--as many as 20,000 bikers annually on a single bike 
trail--which would be inconsistent with wilderness designation.
    OHV use, either in designated motorized use areas or on designated 
road networks, also presents serious conflicts in a number of 
wilderness areas proposed in H.R. 1925, including Goldbar Canyon 
(section 104 (b)(8)) and Duma Point (section 108 (b)(5)). About 70 
percent of the proposed Goldbar area is within BLM's Gemini Bridges/
Poison Spider Mesa Backcountry Motorized Touring Focus Area; as many as 
800 vehicles per day access this area. Similarly, we estimate that over 
21,000 OHVs use the Duma area annually.
    Some existing or proposed energy development activities may pose 
inherent conflicts with some of the designations in the bill. In the 
Uinta Basin in eastern Utah, oil and gas development has increased 
dramatically over recent years. Some of the proposed wilderness areas 
include existing leases, some of which are currently producing, and 
others that we expect will produce in the future. Areas with these 
conflicts include Winter Ridge (section 110(b)(25)), Lower Bitter Creek 
(section 110(b)(13)), and Cane Spring Desert (section 106(b)(1)). In 
some cases the production areas could be carved out of the boundary of 
the proposed wilderness, but in others it may make designation 
impractical.
    In addition, the recently-designated Westwide Energy Corridors may 
overlap portions of a number of the areas proposed for designation. In 
the case of the Upper Kanab Creek (section 103(a)(2)(N)), a 3 1/2 mile 
segment of the corridor bisects the wilderness area proposed in the 
bill.
    Utah's west desert has potential for solar, wind, and geothermal 
development that the BLM would like to further review as well, and we 
hope that the Committee will consider this potential. For example, 
locations within the Antelope Range (section 101(b)(1)) and San 
Francisco Mountains (section 101(b)(34)) are currently under 
consideration for wind energy development. High-potential geothermal 
sites intersect the Crater Bench (section 101(b)(7)), Cricket Mountain 
(section 101(b)(9)), Drum Mountains (section 101(b)(11)), Sand Ridge 
(section 101(b)(35)) and Granite Peak (section 101(b)(15)) areas.
    Finally, section 102(b) of the bill provides for wilderness 
designations in the Zion and Mojave Deserts of southwestern Utah. We 
note that Title II, subtitle O of the Omnibus Public Land Management 
Act, Public Law 111-11, designated nearly 130,000 acres of BLM 
wilderness in this same area and many of the proposed designations in 
this subsection appear to overlap with the provisions of that law.
Conclusion
    The beauty and power of Utah's red rock canyons, mountains, deserts 
and plateaus defy easy description. These extraordinary natural 
features include an expansive range of ecosystems. We support moving 
the discussion on designating wilderness in Utah forward. Our hope is 
that this hearing will be the impetus for the hard work that needs to 
be undertaken in order to make thoughtful decisions about these 
important lands. The Department of the Interior looks forward to 
working cooperatively with local and national constituencies, this 
subcommittee, the sponsor of the bill, and the Utah Congressional 
delegation toward that end.
                                 ______
                                 

                Statement of the National Park Service, 
             U.S. Department of the Interior, on H.R. 2689

    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
H.R. 2689, a bill to authorize the Secretary of the Interior to study 
the suitability and feasibility of designating the National D-Day 
Memorial in Bedford, Virginia, as a unit of the National Park System.
    The Department recommends deferring action on H.R. 2689 to allow 
the National Park Service to complete a report on a preliminary 
assessment, requested by Secretary Salazar, as to whether the D-Day 
Memorial would be eligible for inclusion into the National Park System. 
This would also give the Secretary an opportunity to review the report 
and to share its contents with the members of the Virginia delegation.
    H.R. 2689 would authorize the Secretary of the Interior to conduct 
a study to determine the feasibility and suitability of designating the 
National D-Day Memorial in Bedford, Virginia as a unit of the National 
Park System. The study also would include cost estimates for any 
acquisition, development, operation, and maintenance of the area and 
identify alternatives for management, administration, and protection of 
the area. We estimate that this study would cost approximately 
$250,000.
    The landing of Allied forces on the beaches of Normandy, France on 
June 6, 1944 was a seminal event in World War II and in the American 
military chronicle. It marked the greatest amphibious landing in 
history, the beginning of the liberation of France, and led to the 
eventual defeat of Adolph Hitler's Germany. On that day, too, some 
4,500 Allied servicemen were killed displaying their valor and fidelity 
while making the ultimate sacrifice. In the rural community of Bedford, 
Virginia, families learned that 19 of their 34 sons landing on the 
beaches did not survive the day.
    The National D-Day Memorial is located on an 88-acre site in 
Bedford, Virginia. It rises from a hill overlooking the community and 
commemorates the sacrifices of all who lost their lives on June 6, 
1944. It consists of a series of plazas and architectural and 
sculptural features commemorating the planning of Operation Overlord, 
the English Channel crossing, the landings, and the march into France 
and ultimate victory. The major feature at the center of the memorial 
is the 44.5 foot granite veneered Overlord Arch. A water feature 
depicting the landing approach is designed to emit spurts of water 
simulating the gun fire encountered by those approaching the beaches. 
Numerous bronze plaques devoted to involved military units and 
individuals, as well as memorial donors, are placed against walls. The 
names of those who died on June 6, 1944 are contained on a separate 
necrology wall. A small visitor contact station and book store is 
adjacent to the memorial.
    The memorial was designated a National Memorial by Congress in 
Title X, Section 1080 of the National Defense Authorizations Act of 
1997 (Public Law 104-201). It was largely constructed through private 
fund raising efforts of the National D-Day Memorial Foundation 
(Foundation) and was dedicated on June 6, 2001 by President George W. 
Bush. The Foundation continues to complete construction and manage the 
memorial, but has encountered severe financial difficulties in meeting 
its close to $2.4 million annual operational costs. The memorial is 
open for visitation 362 days a year and received approximately 80,000 
visitors between July 2008 and June 2009. Approximately 19,000 of these 
visitors came during the month of June due to the observance of the 
65th anniversary of D-Day. The Foundation records revenues of $509,653 
and slightly over $1 million in contributions for this 12-month period.
    On June 25, 2009, ten members of the Virginia congressional 
delegation, including this bill's sponsor and co-sponsors, wrote to 
Secretary of the Interior Ken Salazar requesting that he work with 
President Barak Obama to establish the D-Day Memorial as a National 
Monument pursuant to the authorities granted to the President by the 
Antiquities Act of 1906, and that management of the monument be 
undertaken by the National Park Service. Secretary Salazar responded to 
the request on August 6, 2009 indicating that he had asked a team of 
National Park Service representatives to conduct a site visit to the 
memorial to undertake a preliminary assessment as to whether it may be 
eligible for inclusion into the National Park System. The Secretary 
further indicated that he would share the team's report with the 
delegation once it was completed.
    On August 25 and 26, a National Park Service team toured the site 
and met with Foundation staff, including its executive director. The 
team received a great deal of information regarding the design and 
construction of the memorial, current visitor services and 
interpretation, and maintenance and operational protocols and costs. 
The team is currently in the process of analyzing the documents 
provided and expects to complete its report to Secretary Salazar this 
fall.
    In light of this current analysis, the Department believes it is 
premature to consider the authorization of a Special Resource Study. We 
respectfully request that the committee defer action on this bill until 
the Secretary has had an opportunity to review the National Park 
Service team report and to share its contents with the members of the 
Virginia delegation.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions you or members of the committee may have regarding 
the Department's position on this legislation.
                                 ______
                                 

  Statement of Robert V. Abbey, Director, Bureau of Land Management, 
      U.S. Department of the Interior, on H.R. 2781 and H.R. 2888

    Thank you for inviting the Department of the Interior to testify on 
H.R. 2781, designating portions of the Molalla River in Oregon as 
components of the Wild and Scenic Rivers System and H.R. 2888, the 
Devil's Staircase Wilderness Act of 2009. The Bureau of Land Management 
(BLM) supports both of these bills as they apply to lands we manage, 
and we would like to work with the sponsors and the Committee on minor 
refinements to both bills.
H.R. 2781--Molalla Wild and Scenic River
    The Molalla River begins its journey to the sea on the western 
slopes of the Cascade Mountains of Oregon. At an elevation of 4,800 
feet, the Molalla flows undammed for 49 miles west and north until it 
joins the Willamette River. For years, the Molalla suffered from too 
much negative attention from its visitors, including vandalism. To 
address these problems, local residents joined together several years 
ago and formed the Molalla River Alliance (MRA). The MRA, a nonprofit 
all volunteer organization, has over 45 public and private partners, 
including Federal, State, and local government agencies, user groups, 
and conservationists. Working cooperatively with BLM's local field 
office, the MRA has provided the Molalla the care it needed. Today, we 
are pleased that this subcommittee is considering designating 
approximately 21 miles of the river as a component of the National Wild 
and Scenic Rivers System.
    The Molalla River is home to important natural and cultural 
resources. Protection of this watershed is crucial as the source of 
drinking water for local communities and the important spawning habitat 
it provides for several fish species, including salmon and steelhead. 
Within an hour's drive of the metropolitan areas of Portland and Salem, 
Oregon, the Molalla watershed provides significant recreational 
opportunities for fishing, canoeing, mountain biking, horseback riding, 
hiking, hunting, camping, and swimming. A 20-mile hiking, mountain 
biking, and equestrian trail system draws over 65,000 visitors 
annually.
    H.R. 2781 proposes to designate 15.1 miles of the Molalla River and 
6.2 miles of the Table Rock Fork of the Molalla as components of the 
National Wild and Scenic Rivers System. In earlier planning analyses, 
the BLM evaluated the Molalla River and the Table Rock Fork of the 
Molalla River and determined that most of these two rivers should be 
considered for designation as wild and scenic rivers. As a result, the 
designation called for in H.R. 2781 would be largely consistent with 
management currently in place, and would cause few changes to BLM's 
current administration of most of this area. The 5,500-acre Table Rock 
Wilderness, designated by Congress in 1984, is embraced by the Molalla 
and Table Rock Fork, and designation of these river segments would 
reinforce the protections in place for the wilderness area.
    Wild and scenic rivers are designated by Congress in one of three 
categories: wild, scenic, or recreational. Differing management 
proscriptions apply for each of these designations. H.R. 2781 does not 
specify which classification the river should be given. The BLM 
recommends a recreational classification of the river segments 
identified in the legislation. This classification is consistent with 
the strong recreational values of this area, as well as the presence of 
roads along the course of the river segments and numerous dispersed 
campsites along its shorelines.
H.R. 2888, Devil's Staircase Wilderness Act
    The proposed Devil's Staircase Wilderness, near the coast of 
southwestern Oregon, is not for the faint of heart. Mostly wild land 
and difficult to access, the Devil's Staircase reminds us of what much 
of this land looked like hundreds of years ago. A multi-storied forest 
of Douglas fir and western hemlock towers over underbrush of giant 
ferns, providing critical habitat for the threatened Northern Spotted 
Owl and Marbled Murrelet. The remote and rugged nature of this area 
provides a truly wild experience for any hiker.
    H.R. 2888 proposes to designate nearly 30,000 acres as wilderness, 
as well as portions of both Franklin Creek and Wasson Creek as 
components of the Wild and Scenic Rivers System. The majority of these 
designations are on lands managed by the U.S. Forest Service. The 
Department of the Interior defers to the U.S. Department of Agriculture 
on those designations.
    Approximately 6,100 acres of the proposed Devil's Staircase 
Wilderness and 4.2 miles of the Wasson Creek proposed designation are 
within lands managed by the BLM. The Department of the Interior 
supports these designations and would like to work with the sponsor and 
the Committee on minor boundary modifications to improve manageability.
    We note that while the vast majority of the acres proposed for 
designation are Oregon &California (O&C) lands, identified under the 
1937 O&C Lands Act for timber production, however, the BLM currently 
restricts timber production on these lands. These lands are 
administratively withdrawn from timber production by the BLM, either 
through designation as an Area of Critical Environmental Concern or 
through other classifications. Additionally, the BLM estimates that 
nearly 90 percent of the area proposed for designation is comprised of 
forest stands that are over 100 years old, and provides critical 
habitat for the threatened Marbled Murrelet and Northern Spotted Owl.
    The 4.2 miles of Wasson Creek would be designated as a wild river 
to be managed by the BLM under H.R. 2888. The majority of the acres 
protected through this designation would be within the proposed Devil's 
Staircase wilderness designation, though 752 acres would be outside the 
proposed wilderness on adjacent BLM lands.
    The designations identified on BLM-managed lands under H.R. 2888 
would result in only minor modification of current management of the 
area and would preserve these wild lands for future generations.
Conclusion
    Thank you for the opportunity to testify in support of these two 
important Oregon designations. The Department of the Interior looks 
forward to working with the sponsors and the Committee on minor 
modifications to the legislation and to welcoming these units into the 
BLM's National Landscape Conservation System.
                                 ______
                                 

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
     SYSTEM, FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Mr. Chairman and Members of the Subcommittee, 
I will be brief and I thank you for the opportunity to provide 
the views of the Department of Agriculture on H.R. 2888, the 
Devil's Staircase Wilderness Act. The Department supports the 
designation of the Devil's Staircase Wilderness, as well as the 
Wild and Scenic River designations, on National Forest System 
lands.
    The proposed Devil's Staircase Wilderness provides an 
outstanding representation of the Oregon coast range and would 
enhance the National Wilderness Preservation System. The 
Department recommends the Committee consider conversion of the 
existing 4100 road to a foot and horse trail compatible with 
wilderness uses. Removing the road would result in the 
Department being able to manage the wilderness as a whole 
rather than two halves.
    The road is currently brushy and difficult to travel and 
making restoration of a wilderness setting a viable option. 
H.R. 2888 would also designate approximately 10.4 miles of 
streams on National Forest System lands as part of the national 
Wild and Scenic River System, 5.9 miles of Wasson Creek and 4.5 
miles of Franklin Creek, both on the Siuslaw National Forest.
    Both Wasson and Franklin Creeks contain Coho Salmon 
critical habitat, a threatened species under the Endangered 
Species Act. The Department supports designation of the 5.9 
miles of the Wasson Creek on National Forest System lands based 
on the segment's eligibility under the Siuslaw National Forest 
Plan.
    Regarding Franklin Creek, the Department does not oppose 
its designation under this proposed legislation. Subsequent to 
the 1990 eligibility study, the Forest Service has found that 
Franklin Creek provides critical habitat for Coho Salmon and 
serves as a reference stream for research because of its 
relatively pristine character which is extremely rare in the 
Oregon coast range.
    We would like to work with the bill sponsors and the 
Committee on several minor map revisions and modifications that 
would enhance wilderness values and improve our ability to 
manage resources in the area. I will be happy to answer any 
questions the Committee may have.
    [The prepared statement of Mr. Holtrop follows:]

  Statement of Joel Holtrop, Deputy Chief for National Forest System, 
      Forest Service, U.S. Department of Agriculture, on H.R. 2888

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to provide the views of the Department of Agriculture on 
H.R. 2888, the ``Devil's Staircase Wilderness Act of 2009.''
    H.R. 2888 would designate an area known as the ``Devil's 
Staircase'' as wilderness under the National Wilderness Preservation 
System. In addition, H.R. 2888 would designate segments of Wasson and 
Franklin Creeks in the State of Oregon as wild rivers under the Wild 
and Scenic Rivers Act. The Department supports the designation of the 
Devil's Staircase wilderness as well as the Wild and Scenic River 
designations on National Forest System lands. We would like to offer 
minor modifications to H.R. 2888 that would enhance wilderness values 
and improve our ability to manage resources in the area.
Devil's Staircase Wilderness Designation
    The Devil's Staircase area lies in the central Oregon Coast Range 
north of the Umpqua River and south of the Smith River. Elevations in 
the area range from near sea level to about 1,600 feet. The area is 
characterized by steep, highly dissected terrain. It is quite remote 
and difficult to access. A stair step waterfall on Wasson Creek is the 
source of the name ``Devil's Staircase''.
    The proposed wilderness encompasses approximately 29,600 acres of 
National Forest System (NFS) and Bureau of Land Management (BLM) lands. 
NFS lands are approximately 23,500 acres, and BLM lands are 
approximately 6,100 acres. Approximately 7,800 acres of the NFS lands 
are within the Wasson Creek Undeveloped Area under the Forest Plan for 
the Siuslaw National Forest and were evaluated for wilderness 
characteristics in the 1990 Siuslaw National Forest Land and Resource 
Management Plan. While the Forest Service remains committed to the 
forest planning process, the agency did not have the opportunity to 
recommend wilderness during the development of the 1990 Siuslaw 
National Forest Land and Resource Management Plan. Congress passed 
Public Law 98-328, the Oregon Wilderness Act of 1984. That Act provided 
specific language regarding the wilderness recommendation process that 
exempted the Forest Service from having to further review a wilderness 
option for unroaded lands in the forest planning process since Congress 
had just acted on the matter. The Act does specify that during a forest 
plan revision the agency is required to revisit the wilderness options. 
For this reason, the Siuslaw National Forest Land and Resource 
Management Plan did not include a wilderness recommendation. The 1990 
Record of Decision determined that the Wasson Creek inventoried 
Roadless Area would be managed for undeveloped recreation 
opportunities.
    All NFS lands that would be designated as wilderness are classified 
as Late Successional Reserve under the Northwest Forest Plan, which 
amended the Siuslaw National Forest Land and Resource Management Plan 
in 1994. This land allocation provides for the preservation of old 
growth (late successional) habitat. There are no planned resource 
management or developed recreation projects within the NFS portion of 
the lands to be designated as wilderness.
    Most of the area is forested with older stands of Douglas fir and 
western hemlock, and with red alder in riparian areas. All three tree 
species are under-represented in the National Wilderness Preservation 
System, relative to its abundance on NFS lands in Washington and 
Oregon. These older stands provide critical habitat and support nesting 
pairs of the northern spotted owl and marbled murrelet, which are 
listed as threatened species under the Endangered Species Act.
    The proposed Devil's Staircase Wilderness provides an outstanding 
representation of the Oregon Coast Range and would enhance the National 
Wilderness Preservation System. The Oregon Coast Range has been largely 
modified with development, roading, and logging. Three small wilderness 
areas currently exist along the Oregon portion of the Pacific Coast 
Range, and the proposed Devil's Staircase Wilderness would more than 
double the acres of old growth coastal rainforest in a preservation 
status. Wilderness designation would also preserve the Devil's 
Staircase which is a unique landscape feature.
Road and Road Decommissioning
    There are approximately 24 miles of National Forest System roads 
within the proposal boundary. 10.5 miles of these roads are not needed 
for administrative use and would be decommissioned or obliterated.
    The remaining 13.5 miles of road comprise Forest Service Road 4100 
that bisects the proposed wilderness. The Department recommends the 
committee consider conversion of the existing road to a foot and horse 
trail compatible with wilderness uses. Removing the road would result 
in the Department being able to manage the wilderness as a whole rather 
than two halves. The road is currently brushy and difficult to travel, 
making restoration of a wilderness setting a viable option. The Forest 
Service would use a minimum tool analysis to determine the appropriate 
tools necessary to complete activities associated with the road.
Wild and Scenic River Designations
    H.R. 2888 would also designate approximately 10.4 miles of streams 
on National Forest System lands as part of the National Wild and Scenic 
Rivers System: 5.9 miles of Wasson Creek and 4.5 miles of Franklin 
Creek, both on the Siuslaw National Forest.
    Both Wasson and Franklin Creeks have been identified by the 
National Marine Fisheries Service (NMFS) as critical habitat for coho 
salmon (Oregon Coast ESU [Evolutionarily Significant Unit] of coho 
salmon), a threatened species under the Endangered Species Act.
    The Department defers to the Department of the Interior in regard 
to the proposal to designate the 4.2-mile segment of Wasson Creek 
flowing on lands administered by BLM.
    The Forest Service conducted an evaluation of the Wasson and 
Franklin Creeks to determine their eligibility for wild and scenic 
rivers designation as part of the forest planning process for the 
Siuslaw National Forest. However, the Agency has not conducted a wild 
and scenic river suitability study, which provides the basis for 
determining whether to recommend a river as an addition to the National 
System. Wasson Creek was found eligible as it is both free-flowing and 
possesses outstandingly remarkable scenic, recreational and ecological 
values. The Department supports designation of the 5.9 miles of the 
Wasson Creek on NFS lands based on the segment's eligibility.
    At the time of the evaluation in 1990, Franklin Creek, although 
free flowing, was found not to possess river-related values significant 
at a regional or national scale and was therefore determined ineligible 
for designation. Subsequent to the 1990 eligibility study the Forest 
Service has found that, Franklin Creek provides critical habitat for 
Coho salmon, currently listed as threatened under the Endangered 
Species Act, and also serves as a reference stream for research because 
of its relatively pristine character which is extremely rare in the 
Oregon Coast Range. The Department does not oppose its designation. 
Designation of the proposed segments of both Wasson and Franklin Creeks 
is consistent with the proposed designation of the area as wilderness. 
The actual Devil's Staircase landmark is located on Wasson Creek.
    We would like to work with the bill sponsors and the committee on 
several amendments and map revisions that we believe would enhance 
wilderness values and improve the bill.
    I would be happy to answer any questions the committee has on these 
designations.
    Thank you.
                                 ______
                                 
    Mr. Heinrich. Thank you. We are going to go to Mr. Chaffetz 
first and try to get as many questions as we can before--we 
have a series of votes that have been called, so, Mr. Chaffetz, 
why don't you get started.
    Mr. Chaffetz. Thank you, and thank you both for being here. 
Mr. Abbey, is it the policy of the administration to reduce 
energy development in Utah?
    Mr. Abbey. No, it is not.
    Mr. Chaffetz. How would you define the administration's 
position on development of energy in Utah?
    Mr. Abbey. The administration is very aggressive as far as 
moving forward with proposals that come before the Bureau of 
Land Management and other----
    Mr. Chaffetz. What evidence is there of that? Can you name 
anything that would demonstrate evidence of what you just said?
    Mr. Abbey. Well, we continue to hold lease sales in the 
State of Utah for oil and gas.
    Mr. Chaffetz. But you have also canceled quite a few along 
the way too, so what has been the net effect?
    Mr. Abbey. Well, we have canceled a couple of lease sales.
    Mr. Chaffetz. More than a couple, I believe.
    Mr. Abbey. Well, we have withdrawn some areas that have 
been nominated for oil and gas and for very good reasons. We do 
want to move forward and review each of the areas that have 
been nominated for oil and gas leasing in a careful manner.
    Mr. Chaffetz. So how many lease sales have we had so far in 
2009?
    Mr. Abbey. In the State of Utah?
    Mr. Chaffetz. Yes.
    Mr. Abbey. I would have to get back with you on that 
specific answer, but I do know----
    Mr. Chaffetz. But you believe that it has been a lot.
    Mr. Abbey. Well, no, I didn't say--we hold lease sales on a 
quarterly basis and Utah is no exception to that.
    Mr. Chaffetz. And how many have actually gone through then 
entire process? You don't have any numbers as regards to that?
    Mr. Abbey. I don't have that with me.
    Mr. Chaffetz. So, again, just to clarify the overriding 
policy and directive that you have been given at BLM, help me 
define and characterize again energy development in Utah.
    Mr. Abbey. Is to move forward, review all the nominations 
that come before the Bureau of Land Management to determine 
whether or not they merit leasing based upon decisions that we 
would then make. Based upon that review, we would go forward 
and offer those parcels that we think are deserving.
    Mr. Chaffetz. The bill that we were talking about, the Red 
Rock Wilderness designation, there are many of us that believe 
that it is vague in the description of each area. How would the 
Department of the Interior put the legislation into boundaries 
on the map, and who would actually make the determination of 
those boundaries?
    Mr. Abbey. Well, we would certainly recommend boundary 
adjustments based upon an on the ground type of review. That is 
one of the reasons why I mention in my testimony that we would 
be willing to, and hopefully able, to work with members of this 
Committee on those areas that we believe are also worthy of 
designation as wilderness, but it will require further review 
and analysis of what makes sense on the ground.
    Mr. Chaffetz. So there is no map?
    Mr. Abbey. We have seen, you know, different maps at 
different times, but there are maps that have been produced. 
The Bureau of Land Management has not produced any maps with 
our recommended boundaries.
    Mr. Chaffetz. And so you want to move forward on this even 
though we haven't seen a map and there needs to be more on the 
ground work. Is that fair?
    Mr. Abbey. I think what we are, well, what we are 
testifying to is that we believe that there are areas in Utah 
that are deserving of wilderness designations, just like you 
have testified to in your comments.
    We do want to work with the various stakeholders in the 
State of Utah fashioned on the Washington County legislation so 
that we could try to reach a consensus at the local level, as 
well as take into account the interests of citizens from 
outside Utah who also have a stake in what is designated in the 
future, and then hopefully we would be able to come up with 
something that makes sense as far as which areas are deserving 
and would then be designated through legislation.
    Mr. Chaffetz. Thank you. In the interest of time, we have 
votes on the Floor, I yield back the balance of our time.
    Mr. Heinrich. Thank you. Mr. Hinchey, do you have some 
questions for the panel?
    Mr. Hinchey. Well, thank you. Thank you very much. 
Gentlemen, thank you very much. I very much appreciate your 
being here and the things that you said. I just wanted to 
restate a fact about the oil and gas reserves in the area that 
we are attempting to designate under the Red Rock Lands bill.
    To be precise about it, the land that we are trying to 
designate holds less than a few days worth of oil and a few 
weeks worth of gas, and that is according to the Energy 
Information Agency, which have looked at this very carefully 
and closely, and so they know exactly what the potential is 
there.
    So while there is less than one percent of the nation's oil 
reserves and less than two percent of the nation's gas 
reserves, but there are some other oil and gas elements in 
Utah, and the industry that is interested in securing those oil 
and gas reserves has already secured more than five million 
acres of oil and gas leases in Utah but they are not really 
paying very much attention to it because they are only dealing 
with one and a half million, or less than 30 percent, of what 
they have.
    So it is important, I think, to just understand that and 
make it clear what exactly the situation is with regard to that 
set of circumstances. Is that knowledgeable to you?
    Mr. Abbey. I think you are absolutely correct in your 
statement. You know, whether or not an area has oil and gas 
resources is just one of many factors that should be taken into 
account when reviewing and making recommendations as to which 
of these areas could possibly be designated as wilderness. 
There are other factors that would also come into play.
    I certainly don't take exception to anything you said as 
far as, you know, the significance, or the lack of 
significance, of oil and gas resources that may exist under 
some of these proposed areas.
    Mr. Hinchey. Sure. Absolutely. Well, thank you very much. I 
also want to tell you I was impressed with your testimony, your 
statements. One of the things, one of the many impressive 
things that you said was, ``the beauty and power of Utah's red 
rock canyons, mountains, deserts and plateaus defy easy 
description''. I must say that I absolutely agree with you. I 
have been there many times.
    I had an opportunity to see them at a distance and up 
closely, and it is very true, it is absolutely magnificent. It 
is something that for those reasons, for the beauty, the 
uniqueness, the striking colors, the dramatic aspects of it, 
for all of those, and many other reasons, this is some part of 
the country that should be protected and given the kind of 
recognition that it deserves on behalf of the population of 
America that owns this land, and also, to draw more attention 
to it because one of the main elements of the advanced commerce 
activities in Utah comes about as a result of the way in which 
the beauty of that state attracts people from other places 
around the country and from other places outside of the 
country. Could you tell us a little bit about that?
    Mr. Abbey. I would be happy to. You know, I, too, have seen 
many of these areas up close and personal. In the mid-1990s I 
helped lead an effort on behalf of the Bureau of Land 
Management at the direction of then Secretary Bruce Babbitt to 
go into Utah and revisit some of the areas that had not been 
identified through the wilderness inventory as having 
wilderness characteristics.
    So as part of that team we did go into Utah, looked at some 
of these extraordinary areas and came up with the conclusion 
that approximately 3.6 million acres, in addition to the three 
million acres that had been previously identified as wilderness 
study areas, had wilderness characteristics. Now, let me be 
careful in these comments so that you fully understand what 
that means.
    The fact that areas have wilderness characteristics does 
not necessarily mean they should be designated as wilderness. 
As I mentioned earlier, there are other factors that should be 
taken into account prior to legislation that would designate 
any area as part of the National Wilderness Preservation 
System.
    The fact that these areas, or at least 3.6 million acres in 
our review, have wilderness characteristics, I think it lends 
itself to further review and further studies and analysis 
whether or not which of those other areas should be considered 
as part of any legislation. Our proposal, and certainly our 
position, would be that we think it is best done through more 
of a geographically styled study and legislation instead of a 
statewide.
    Mr. Hinchey. My understanding is that the Bureau of Land 
Management has looked at a lot of this area, not all of it, and 
of the area that is designated within the Red Rock bill they 
have concluded that 75 percent of that acreage deserves to be 
declared wilderness, is that correct?
    Mr. Abbey. Well, I think what we have declared, and I don't 
know the specific percentage, but what we have declared is 6.6 
million acres of public lands management at the Bureau of Land 
Management and Utah have wilderness characteristics already.
    Mr. Hinchey. And the other remaining acres have not been 
looked at carefully enough to make a conclusion about that?
    Mr. Abbey. Well, again, we would hope for an opportunity in 
the future to work with citizens groups and other stakeholders 
to maybe review some of those other areas that were not 
included as part of our earlier reviews.
    Mr. Hinchey. Yes. I am not negating what----
    Mr. Abbey. No. I understand.
    Mr. Hinchey. I am just saying that a lot of attention has 
been paid----
    Mr. Heinrich. Mr. Hinchey?
    Mr. Hinchey.--to a lot of it.
    Mr. Heinrich. We are going to need to get across to a vote 
just now. Would you be willing to hold the rest of your 
questions until we come back from the recess.
    Mr. Hinchey. Yes. Just one left. A lot of attention has 
been paid to part of it, but there are other elements that have 
to be paid more attention to, isn't that correct?
    Mr. Abbey. Well, there are a lot of factors that should 
come into play before any area is designated as wilderness. 
That is correct.
    Mr. Hinchey. Thank you very much.
    Mr. Heinrich. We are going to submit a number of questions 
for the record but I think there are some more questions, so if 
you wouldn't mind hanging around for a little bit we will 
recess for 30 minutes and get back as quickly as we can.
    [Recess.]
    Mr. Heinrich. Welcome back. We are going to continue with 
questions, and I think we are going to start with Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. I have questions 
first for Mr. Abbey. First off, congratulations on your 
position.
    Mr. Abbey. Thank you, Congressman.
    Mr. DeFazio. Look forward to working with you. You have a 
unique set of lands in my state which are called the O&C lands, 
the most productive timberlands, virtually the only productive 
timberlands BLM has under its jurisdiction. I have proposed the 
wilderness called the Devil's Staircase and I appreciate the 
support of the administration and both departments on this 
issue.
    Just a couple of things that need to be clarified. There 
has been concern expressed because some of the acreage are O&C 
lands and when timber activities take place on O&C lands, the 
counties share in the revenues. Within this proposed 
wilderness, there is some acreage that is O&C. However, it has 
been designated an area of critical environmental concern, and 
also, under the Clinton Forest Plan, there are 6,100 acres that 
are late successional reserves and critical habitat.
    What I want to get to here is that I can't envision any 
scenario under which any timber activities might take place on 
these lands. I know that none are currently planned and 
wouldn't be allowed. Can you substantiate that?
    Mr. Abbey. Well, I think you are absolutely correct, 
Congressman. You know, from what I have been told, it is 99 
percent of the lands that would be designated by this 
legislation are administratively withdrawn from timber 
production anyway, so I think any impact to the timber industry 
would be very, very minimal. I am talking about the lands 
management of the Bureau of Land Management.
    Mr. DeFazio. OK. Then there is a second question which is a 
little broader, and hopefully if you are not prepared to answer 
now, we are certainly going to have an opportunity to discuss 
this. It is about the management of the O&C lands in Oregon. As 
you know, Secretary Salazar withdrew something called the 
whopper, which, you know, as kids we all knew it was a big lie, 
and it was a big lie put forward by the Bush administration.
    It was political science. Unfortunately, what he did is we 
lost a number of years of potentially resolving, you know, 
conflicts and planning for a sustainable harvest on those lands 
and for forest health. We had been told, at the time when they 
were withdrawn the Secretary said you would be putting forward 
the projects to provide interim supply and working on a longer 
term plan. I would just like a brief update on where we are at 
on that.
    Mr. Abbey. Well, Congressman DeFazio, we are doing that 
just as we speak. We are putting together a list of sales that 
we believe we can go forward with to allow, you know, the 
industry to have an opportunity to compete for those sales. 
They are not going to be major, you know, timber sales by any 
means, but we do believe that we have parcels of timber that 
could be made available and we intend to do just that.
    Mr. DeFazio. OK. Look forward to discussing this in more 
detail. I have also forwarded to the Secretary, and it may come 
to your office, a draft of legislation I propose to change the 
management on these lands and on the Forest Service lands and 
would like both agencies to be evaluating that legislation in 
looking at both what you think its timber yield could be, and 
also, whether or not you agree with the principles that are 
embodied in that.
    Mr. Abbey. Great. We look forward to reviewing that and 
commenting on it. Thank you.
    Mr. DeFazio. Thank you. And so, Mr. Holtrop, there is one 
issue. An adjacent landowner, Roseberg Forest Products, has 
raised they are concerned about the management of these lands. 
There is sort of a common myth out there that if something is a 
wilderness we won't fight fire. Could you address that?
    Mr. Holtrop. We do fight fire in wilderness. We don't lose 
sight of the fact that as we fight it that it is wilderness, 
but at the same time, we do fight fire aggressively and 
especially if the fire has potential for affecting private 
lands.
    Mr. DeFazio. OK. My understanding, the current management 
on this entire forest within which these lands are contained is 
for full suppression, that there is no policy to, or you deem 
that there is not a resource benefit in wildfires, these are 
areas that are considered to be infrequent but high intensity 
in terms of their burning. Is that your understanding?
    Mr. Holtrop. The ecological aspects that you just described 
are consistent with my understanding. I am not prepared to tell 
you what exactly the policy is, although that seems consistent 
with the fact that they are low intensity, infrequent fires.
    Mr. DeFazio. Well, high intensity.
    Mr. Holtrop. High intensity, low frequency. Yes.
    Mr. DeFazio. Right. Yes. OK. The Forest Service has 
proposed, there is a road that bisects the wilderness, to close 
it, Road 4100. Has that road been inventoried? Do you have 
details on the current condition, usage of the road, et cetera?
    Mr. Holtrop. I have some general information on it. It is a 
ridge top road, it is a Class 2 road, it is fairly heavily 
brushed in, high clearance vehicles. We think the current state 
of the road does lend itself to being restored into either a 
trail or totally obliterated, and what that would accomplish is 
then the entire area could be designated wilderness without the 
bisecting road in the middle. We think that is consistent with 
the wilderness characteristic.
    Mr. DeFazio. Obviously there is tremendous concern, 
particularly when we are trying to do wilderness on the Senate 
side, about any costs that are incurred. Do you have any 
estimates or plans on either if it was converted to a trail or, 
I mean, could it be just, I mean how would we deal with it in a 
low cost way?
    Mr. Holtrop. Yes. Generally what we would do, it is about 
14 miles of road so there are probably large segments of the 
road that doing nothing would probably be sufficient for 
allowing it to continue to brush in and become more trail-like 
than road-like. Being ridge top, there are probably not very 
many culverts to be removed. Where there is work to be done, 
generally our cost per mile is around $15,000 per mile to do 
this type of work.
    Mr. DeFazio. OK. Great. OK. Thank you, Mr. Chairman. Those 
are all the questions I have for this panel.
    Mr. Heinrich. Thank you. Mrs. Lummis?
    Mrs. Lummis. Thank you, Mr. Chairman. Mr. Abbey, I would 
like to ask you about the Red Rock Wilderness Act. I understand 
that your agency has not finished inventorying all the proposed 
parcels. Is that the case?
    Mr. Abbey. Well, we have not formally taken a position on 
all the proposed parcels, and certainly, before anything would 
be designated we would like another opportunity to go back, 
revisit each of these areas that are being proposed for 
designation and to work with the various members of this 
Committee and others on what we might believe to be more 
manageable boundaries and to address some potential conflicts 
that currently exist in some of these areas.
    Mrs. Lummis. Thank you. To each of you, regarding Devil's 
Staircase, I would like to ask about the buffer zone language. 
Do you support the language or have any specific 
recommendations come to your attention from your agencies on 
the legality of wilderness area buffer zones? Any comment on 
that particular language?
    Mr. Abbey. The language that says there is to be no buffer 
zone adjacent to the wilderness is what you are saying?
    Mrs. Lummis. Correct.
    Mr. Abbey. We are comfortable with the bill as written.
    Mrs. Lummis. Very good. Mr. Holtrop, the Devil's Staircase 
Wilderness Act authorizes the Forest Service to acquire lands 
within the proposed wilderness boundary. How many inholdings 
are there in this parcel? Do you know?
    Mr. Holtrop. In the north end, there is a 160-acre 
inholding. I believe the bill as drafted has mistakenly 
included three islands in the river that are actually private 
lands, but I think that is one of the technical corrections 
that we wanted to work with the Subcommittee on.
    Mrs. Lummis. OK. Are the owners of, well, I should say is 
this one inholding, the 160-acre inholding, is the owner of 
that aware and supportive of this legislation? How would their 
rights be affected by the designation?
    Mr. Holtrop. My understanding, and let me hasten that, if 
there are other inholdings, I am not familiar with them. There 
might be some other small inholdings, but I don't think they 
are significant. The 160-acre inholding, I believe, is held by 
Roseberg Resource, Incorporated, and they have utilized that 
for helicopter logging in the past. The terrain is rugged, and 
steep and difficult, and their access to that parcel would not 
be affected by the bill. The current access that they have had 
on it is by helicopter.
    Mrs. Lummis. OK. Very good. Mr. Chairman, I yield back. 
Thank you.
    Mr. Heinrich. Thank you. Mr. Bishop?
    Mr. Bishop. Thank you. Mr. Holtrop, it is good to see you 
again. Too bad I don't have anything for you, but it is nice to 
talk to you again. Mr. Abbey, I appreciate your testimony so 
far. You stated that this administration supports an approach 
to wilderness that is more geographically focused.
    Mr. Abbey. Yes.
    Mr. Bishop. Can you just elaborate what you mean by that?
    Mr. Abbey. Well, basically it is what would make sense on a 
landscape scale basis. It could be county by county. If that is 
more amenable to the members of the public and to the 
stakeholders who might be affected by wilderness legislation, 
then we would certainly support that. We also think that you 
can look at certain areas geographically, like the Western 
Desert, and, you know, where it may encompass more than one 
county you could possibly look at a legislation that would 
encompass more than one county.
    Mr. Bishop. I appreciate that, and I also want to tell you, 
and I think I mentioned this briefly as we talked down there, 
just to reemphasize how much I appreciate the BLM personnel, 
the professional staff on the ground in Utah. They do 
understand what the land is like, they understand where they 
are.
    When we were trying to craft the wilderness legislation 
before, both in Washington and as well in Cedar Mountain, they 
were incredibly helpful in going out with us to make sure that 
what was logical was included and what was illogical was not 
included. Even when we overrode them, they still understood 
what was logical. So I want you to take that back, that Selma 
and her staff do a marvelous job in the State of Utah. I am 
extremely proud of them.
    I would like to know, though, if this particular bill, and 
I am referring to the Utah specific bill, what sort of mapping 
would have to be required before this bill could become law 
from your office?
    Mr. Abbey. It would be extensive mapping. It would be quite 
a bit of workload, which is currently not planned or funded. 
Again, what we would do is, well, we would take directions from 
this Committee and other Members of Congress as far as 
responding to any specific requests you might have from the 
Agency to do mapping.
    As far as our own review, we would, you know, have to 
travel to each of the individual sites, conduct an on the 
ground type of analysis and review of what we think the 
boundaries should be so that we could enforce their 
manageability.
    Mr. Bishop. OK. And there would be a cost associated with 
that?
    Mr. Abbey. There would be----
    Mr. Bishop. But it is currently not planned?
    Mr. Abbey. There is.
    Mr. Bishop. OK. Let me just ask one last question because I 
am not quite sure exactly how this does. This bill makes 
reference to Cedar Mountain wilderness that was passed a while 
ago. Within there there were certain WSAs and certain 
agreements within the WSAs that surround that particular area. 
Do you know what impact this would have on the prior 
legislation passed? Would it replace it, expand it, or would 
that depend on the map that you eventually draw?
    Mr. Abbey. Well, if you introduce and pass new legislation 
addressing those wilderness study areas that have previously 
been dropped--is that your question?
    Mr. Bishop. No, they were not dropped, but there were 
certain requirements or conditions that were placed on how they 
would be managed in the future.
    Mr. Abbey. Well, this new legislation would direct us on 
how they would be managed in the future.
    Mr. Bishop. Thank you, sir.
    Mr. Abbey. You are welcome.
    Mr. Heinrich. Any other questions?
    Mr. DeFazio. Mr. Chairman, if I could just for a moment?
    Mr. Heinrich. You bet.
    Mr. DeFazio. Just for the record, my staff informed me that 
the one inholding which was previously mentioned is Roseberg 
Forest Products. It has no road access so it is not going to 
lose road access. It was previously helicopter logged and they 
will be able to helicopter log it in the future, so their 
property rights are not affected in any way.
    Mr. Heinrich. Well, I want to thank Mr. Abbey and Mr. 
Holtrop, and I want to especially thank you for your patience 
as we moved back and forth in vote. We are going to let you go 
and move on to our third panel now.
    Mr. Abbey. Thank you.
    Mr. Holtrop. Thank you.
    Mr. Heinrich. So welcome, Mr. McIntosh, Mr. Moody and Mr. 
Stahl. As soon as you are all settled in, we are going to hear 
from Mr. McIntosh first. Mr. McIntosh, you could get started 
whenever you are ready. Can you pull the microphone just a 
little bit closer, please.

 STATEMENT OF WILLIAM A. McINTOSH, PRESIDENT AND CEO, NATIONAL 
             D-DAY MEMORIAL FOUNDATION, BEDFORD VA

    Mr. McIntosh. Better still if I turned it on, I suspect. In 
September of 1996, Congress gave this memorial project its 
warrant and the National D-Day Memorial its designation. The 
memorial to be constructed by the National D-Day Memorial 
Foundation in Bedford, Virginia is hereby designated a national 
memorial to be known as the National D-Day Memorial.
    Sited on an 88 acre parcel in the shadow of the Blue Ridge 
Mountains the memorial rises on nine consecrated acres leaving 
the balance of the land open. The President of the United 
States addressed an audience of 24,000 when he participated in 
its dedication on the 57th anniversary of D-Day. This year, the 
memorial marked the 65th anniversary of the Normandy landing 
with a public commemoration and follow-on programs that over 
the course of the day drew a total audience of 9,000.
    The National D-Day Memorial is every bit the physical plant 
the World War II Memorial is and many times more the memorial. 
Chief among the reasons for that are the gravitas and dignitas 
that hallmark it. Not merely a destination, the National D-Day 
Memorial is a sacred place. Memorial staff and volunteers make 
sure visitors understand that before they enter it.
    They also make sure visitors understand its location, 
Bedford, Virginia. It is less about that particular town than 
it is about that town's function as an emblem of this nation's 
communities large and small that have provided, and provide 
still, citizens who answer the call to serve in our military, 
naval and air forces. On the 65th anniversary of D-Day, more 
than 100 active duty veterans of the wars in Iraq and 
Afghanistan turned up at the memorial in uniform.
    The divisional shoulder patches and regimental crests worn 
by many of them were the same ones worn by those who came in at 
Normandy, as well as those who in later years served in Korea, 
Vietnam, Desert Storm and Bosnia.
    Presenting the D-Day Memorial and D-Day as a climax of 
World War II this facility celebrates its subject in such a way 
as to number it among the most veteran welcoming sites in the 
country, branch, place and period of service notwithstanding, 
and one of the most instructive for the large population of 
visitors who know nothing of national service.
    Since its dedication, the memorial has received more than 
one million visitors and delivered a broad range of educational 
programming to some 100,000 school children who have come from 
10 different states. Whether the memorial should have been 
built is beside the point. The fact is it has been. Today it is 
a significant destination not only for Virginians but for the 
rest of the Nation as well.
    Indeed, fewer than half the memorial's annual visitors 
altogether, some 80,000, come from Virginia. Despite its well-
tended grounds and gardens, robust physical appearance, worthy 
purpose and rich educational programming, the memorial exists 
on sustenant rations. Is the foundation going to go into debt 
to keep the memorial open? No. Is the memorial worth keeping 
open? Yes.
    Can it be kept open? Yes, if the Congress that gave it its 
warrant in 1996 to become the National D-Day Memorial will do 
what it should have done then: enact legislation to help place 
it under the umbrella of the National Park Service. Thank you.
    Mr. Heinrich. Thank you very much, Mr. McIntosh. Thank you 
for being here today. We are going to go to Mr. Moody next.
    [The prepared statement of Mr. McIntosh follows:]

         Statement of William A. McIntosh, President and CEO, 
         National D-Day Memorial Foundation, Ltd., on H.R. 2689

    The D-Day landing of the Allied Forces in Normandy, France, on 6 
June 1944--the largest air, land, and sea operation ever undertaken--
included 5,333 ships and boats, some 11,000 aircraft, 50,000 military 
vehicles, and over 175,000 soldiers, to say nothing of participating 
sailors and merchant seamen. The Allies suffered 9,758 casualties, 
among them 6,603 from the United States. On D-Day they took the war 
back to its maker. Performing heroically, they assaulted Fortress 
Europe a hedgerow at a time and gave the lie to Hitler's dream of world 
domination. D-Day was the turning point of World War II. Liberated 
Europe never lost sight of that, but its monumental significance soon 
faded in the public consciousness of this nation. But for the fleeting 
appearance of the print and film versions of Cornelius Ryan's The 
Longest Day and Ronald Reagan's ``Boys of Point du Hoc'' speech on the 
40th anniversary, it disappeared.
    Sitting in dimming twilight at the end of a cookout some twenty 
years ago, a small group of World War II veterans fell to swapping 
stories. Not unlike the ashes beneath the grill they had cooked supper 
on, their memories had begun to cool and dissolve. As they sifted 
through them in the gathering darkness to search for adventure, lost 
friends, and times long gone, what first appeared to be a tentative 
stirring in the ash soon emerged as a youthful phoenix. In the weeks 
following, that fledgling gained strength and built itself a nest: The 
National D-Day Memorial Foundation. Incorporated in the spring of 1989, 
the Foundation set about the task of establishing a D-Day memorial in 
the United States.
    For the next half-dozen years, a number of dedicated people came 
and went as members of a Roanoke-based board trying to identify and 
secure an appropriate site for a D-Day memorial. Roanoke had peopled 
one of twelve Virginia National Guard infantry companies of the 29th 
Infantry Division's 116th Regiment whose storied antecedents include 
General Thomas Jackson's Stonewall Brigade. Roanoke suffered terrible 
losses on D-Day as did Farmville, Lynchburg, Charlottesville, Chase 
City, South Boston, and most of the other communities whose young men 
served in the other companies of that regiment. Bedford, with a wartime 
population of some 3,000, experienced the severest per capita losses on 
D-Day, and by 1995 had worked with the Foundation to establish a D-Day 
memorial there.
    In September of 1996, Congress gave the project its warrant and the 
National D-Day Memorial its designation: ``The memorial to be 
constructed by the National D-Day Memorial Foundation in Bedford, 
Virginia, is hereby designated a national memorial to be known as the 
``National D-Day Memorial'' (Public Law 104-201, Sec. 1080). Sited on 
an 88-acre parcel in the shadow of the Blue Ridge Mountains, the 
Memorial rises on nine consecrated acres, leaving the balance of the 
land open and available for additional construction as needed. The 
President of the United States addressed an audience of 24,000 when he 
participated in its dedication on the 57th anniversary of D-Day. This 
year the Memorial marked the 65th anniversary of the Normandy landing 
with a public commemoration and follow-on programs that, over the 
course of the day, drew a total audience of 9,000.
    Between the 57th and the 65th anniversaries, the phoenix that had 
risen from ashes in 1989 burst into flames. Over that same period, the 
National D-day Memorial Foundation went in and out of bankruptcy, 
endured two Federal trials with no convictions, cleared a $6 million 
residual debt dollar for dollar, and finished construction of the 
Memorial. At the end of all that, a new phoenix rose from its ashes, 
which brings us to today.
    The National D-Day Memorial has never been better than it is today. 
And it is not as good as it will be tomorrow. It is every bit the 
physical plant the WWII Memorial is and many times more the memorial. 
Chief among the reasons for that are the gravitas and dignitas that 
hallmark it. Not merely a destination, the National D-Day Memorial is a 
sacred place. Memorial staff and volunteers make sure visitors 
understand that before they enter it. They also make sure visitors 
understand that its location--Bedford, Virginia--is less about that 
particular town than it is about that town's function as an emblem of 
this nation's communities, large and small, that have provided, and 
provide still, citizens who answer the call to serve in our military, 
naval, and air forces.
    On the 65th anniversary of D-Day, more than a hundred active-duty 
veterans of the wars in Iraq and Afghanistan turned up at the Memorial 
in uniform. The divisional shoulder patches and regimental crests worn 
by many of them were the same ones worn by those who came in at 
Normandy as well as those who served in Korea, Vietnam, Desert Storm, 
and Bosnia.
    If, at first blush, the Memorial's focus on D-Day seems too narrow, 
a closer look reveals that it exists in tribute to the valor, fidelity, 
and sacrifice of the Allied forces on D-Day. Writ large, that tribute 
also includes the D-Day contributions made on the Eastern Front of the 
European Theater and in the American, Mediterranean, China-Burma-India, 
and Asiatic-Pacific Theaters, without which the story would have had a 
different ending.
    The Memorial uses that story as a foil to highlight its subject: 
Character. Presenting D-Day as the structural climax of World War II, 
the Memorial tells the story and celebrates its subject in such a way 
as to number it among the most veteran-welcoming sites in the country--
branch, place, and period of service notwithstanding--and one of the 
most instructive for the large population of visitors who know nothing 
of national service. Since its dedication, the Memorial has received 
more a million visitors and delivered a broad range of educational 
programming to some 100,000 school children.
    Thanks to the largesse and confidence of its donors and unstinting 
service of its volunteers, the National D-Day Memorial Foundation has 
continued to operate the Memorial in direct support of its educational 
mission: To preserve the lessons and legacy of D-Day. The Foundation is 
straight-arrow, debt-free, frugal, disciplined, and mission-driven. Few 
non-profits exceed its scrupulosity. Even so, alas, it cannot sustain 
itself as an independent entity.
    Whether the Memorial should have been built is beside the point: 
The hard fact is, it has been. Today, it is a significant destination 
not only for Virginians but for the rest of the nation as well; indeed, 
fewer than half of the Memorial's annual visitors (altogether some 
80,000) come from Virginia. Despite its well-tended grounds and 
gardens, robust physical appearance, worthy purpose, and rich 
educational programming, the Memorial lives on subsistence rations 
gathered from a modest larder.
    Is the Foundation going to go in debt to keep the Memorial open? 
No. Is the Memorial worth keeping open? Yes. Can it be kept open? Yes--
if the Congress that gave it its designation in 1996 to become the 
National D-Day Memorial will do what it should have done then: Enact 
legislation to help place it under the umbrella of the National Park 
Service.
    In the last two decades, this memorial phoenix has twice risen from 
its own ashes, and in this 65th anniversary year of D-Day is releasing 
occasional wisps of smoke. If you think the Committee on Natural 
Resources should work to find a way to keep it from bursting into flame 
yet again, please make that finding plain; if not, at least pause to 
acknowledge the valor, fidelity, and sacrifice that will go unremarked 
should the National D-Day Memorial close its gates.
    10 Attachments (Copyright-free images of the National D-Day 
Memorial at Bedford, Virginia)
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 

            STATEMENT OF MICHAEL MOODY, PRESIDENT, 
            MOLALLA RIVER ALLIANCE, MOLALLA, OREGON

    Mr. Moody. Thank you very much. Appreciate it. As 
Congressman Bishop said, my experience with the BLM--I am sure 
Mr. Abbey has probably slipped out--has been of the same ilk, 
extremely professional, thorough, foresightful. A really 
interesting group of people to work with. My name is Mike 
Moody, I am President of the Molalla River Alliance. We 
initiated and lead the efforts before you today seeking Wild 
and Scenic River designation for the Molalla River.
    The Molalla River is one of Oregon's historic rivers. It is 
vital to local communities. Among other attributes, the Molalla 
River is the primary source of drinking water for the 
communities of Canby and Molalla. However, for far too many 
years the Molalla River corridor has been wracked with 
destructive, unacceptable, and, at times, illegal human 
behavior.
    The response to this is the Molalla River Alliance. This is 
a grass roots, communitywide, unprecedented local 
collaboration. The Molalla River Alliance is an all volunteer 
coalition of more than 45 nonprofit civic and conservation 
organizations, Federal, state and local agencies, numerous user 
groups, individual property owners and individual 
conservationists.
    We are dedicated to preserving the water quality of the 
Molalla River, sustaining the wildlife, plants and fish that 
inhabit its watershed while promoting a safe and healthy 
environment that encourages diverse enjoyment of the recreation 
corridor, including tourism and family friendly activities. We 
have forged a productive partnership of diverse, divergent and 
frequently opposing groups.
    We have wild fish advocates sitting next to hatchery fish 
advocates. We have antilogging advocates sitting next to timber 
growers. We have hunters sitting next to horseback riders and 
hikers. We have fly fishermen sitting next to bait fishermen. 
The Molalla River Alliance has taken a leading role in 
galvanizing numerous stakeholders, scientists and policymakers, 
and this group of nontraditional allies works because all found 
a common bond between us which is the shared passion for this 
river.
    Why are we seeking Wild and Scenic River designation? 1] We 
have a practical reason. This is a source of drinking water for 
more than 20,000 citizens in Molalla and Canby and designation 
assures sustained access to that clean water.
    2] Wild and Scenic Rivers will benefit our local community. 
In the state with the third highest unemployment rate in the 
nation, Molalla has one of the highest rates in Oregon, 
approaching 13 percent. Both the City of Molalla and Clackamas 
County commissioners support Congressman Schrader's bill and 
believe that Wild and Scenic status will bring with it a 
certain cache that will attract more visitors.
    In a community previously dependent upon the boom/bust 
cycles of the forest products industry we are confident 
designation will generate much needed economic activity through 
enhanced tourism.
    The Molalla River corridor offers myriad recreational 
opportunities, including hiking, kayaking and white water 
rafting, touring, mountain bike riding, camping, horseback 
riding, hunting, fishing, swimming, picnicking, et cetera, 
there are more than 30 miles of nonmotorized trails as well, 
all conveniently accessible to a population that is quickly 
approaching two million people.
    In addition, designation can be instrumental in attracting 
funding. The vetting process for Wild and Scenic Rivers helps 
the river to stand out. It becomes elevated among funding 
agencies and foundations who know that their money is more 
likely to be used effectively. This is especially obviously in 
an era of tight funding that we are living through today.
    3] Wild and Scenic Rivers will benefit fish and wildlife 
that inhabit its watershed. The stretch under consideration 
provides critical spawning and rearing habitat for Steelhead 
Trout and Salmon, and two of these species are currently listed 
as threatened under the Endangered Species Act.
    4] Widespread support from our community through the broad-
based Molalla River Alliance confirms Wild and Scenic Rivers as 
a priority for area stakeholders and decisionmakers.
    5] Because the act confers no Federal authority over 
private land use or local zoning, there is no practical impact 
on private property. To that end, there is no organized 
opposition to this effort, and there is no organized opposition 
to this proposal.
    6] No less vital is an enhanced sense of community 
associated with designation. This fosters goodwill and serves 
to motivate stakeholders with diverse interests that might 
otherwise not cooperate.
    Finally, No. 7, the Molalla River Alliance and the Bureau 
of Land Management, which would be the managing agency for this 
river, have a well-established and close working relationship. 
The BLM has found that the Molalla River is both eligible and 
suitable as a Wild and Scenic River. In conclusion, our 
efforts, we believe, represent a rare opportunity to safeguard 
and preserve in perpetuity an ecological, historical and 
geological treasure offering myriad recreational opportunities 
while providing a much needed economic boost to our community.
    I wouldn't be a good businessman if I didn't ask you for 
the order. I am asking, and respectfully asking you to support 
our request to legislate the Molalla as a Wild and Scenic 
River. On behalf of my community, my contemporaries and myself, 
I appreciate this opportunity today. I would be happy to answer 
any questions, or attempt to answer any questions, that you 
might have.
    Mr. Heinrich. Thank you, Mr. Moody. We are going to hear 
from Mr. Stahl and then start with a round of questions. Mr. 
Stahl?
    [The prepared statement of Mr. Moody follows:]

                Statement of Michael Moody, President, 
                  Molalla River Alliance, on H.R. 2781

    The Molalla River is an Oregon natural treasure. It is vital to 
local communities in Oregon's Willamette Valley. Among other 
attributes, the Molalla River is the primary drinking water source for 
the cities of Molalla and Canby.
    However, for far too many years the Molalla River corridor has been 
wracked with destructive and inappropriate human behavior including:
        Extensive dumping
        Littering
        Vandalism
        Violence
        Drug use and underage drinking parties
        Illegal camping
        Human waste
        Degradation of the health of the fishery
The Molalla River Alliance
    These unacceptable activities prompted creation of an unprecedented 
and broad-based local collaboration. Established in early 2008, the 
Molalla River Alliance (``Alliance'') is an all-volunteer coalition of 
more than 45 non-profit civic and conservation groups, regional, local, 
state and federal agencies, numerous user groups and a rapidly growing 
list of individual conservationists and property owners.
    Over the past year, the Alliance has evolved into an important 
community forum for improving the safety and quality of the Molalla 
River Recreation Corridor. The Alliance initiated and leads efforts to 
secure Wild and Scenic Rivers legislation. The Alliance also was the 
impetus for a much-needed increase in law enforcement in the Corridor, 
resulting in a dramatic and sustained decline in lawless and 
inappropriate behaviors.
    The key goals of the Molalla River Alliance are to preserve water 
quality of the river, sustain the wildlife, fish and plants that 
inhabit its watershed, while promoting a safe and healthy environment 
that encourages diverse enjoyment of the recreation area, including 
tourism and family-friendly activities.
    The Alliance has taken a leading role in galvanizing numerous 
stakeholders, scientists and policy makers whose commitment first is to 
the health of the river and its ecosystems, for consequential enjoyment 
by all people.
    The Alliance has successfully forged a productive partnership of 
diverse, divergent, and frequently opposing groups such as wild fish 
advocates sitting next to hatchery fish advocates; anti-logging 
advocates sitting next to timber growers; hunters sitting next to horse 
riders and hikers; and, fly fishermen sitting next to bait fishermen.
    This group of non-traditional allies works because all have found a 
common bond, which is the shared passion for this storied river.
    For these efforts to be successful Alliance members endorse an 
``ecosystem-based management'' approach which simply means it places 
benefits to the river above those of any single species, activity, or 
group, including humans. No goal or priority of the Molalla River 
Alliance favors the interests of any single group or individual.
    The Alliance is confident its efforts represent a rare opportunity 
to safeguard and preserve in perpetuity an ecological, geological and 
historical treasure, offering myriad recreational opportunities, 
convenient to a major metropolitan area.
The Molalla River
    The Molalla River supports bountiful ecosystems and offers year-
round recreational opportunities within an hour's drive of a major 
metropolitan area. It provides extensive native fish habitat including 
critical cold tributary spawning streams. It is home to wild winter 
steelhead and salmon runs, an abundance of wildlife, and geological and 
cultural wonders.
    From its headwaters beyond the Table Rock Wilderness in the Cascade 
Mountain Range, the crystal-clear and biologically diverse Molalla 
River originates in coniferous forests and tumbles through private and 
public forests and agricultural lands to its confluence with the 
Willamette River approximately 53 miles away.
    The Molalla River cuts through basalts and lava, forming deep 
canyons and beautiful rock out-crops including columnar rosettes and 
basalt columns which can be seen on the canyon walls. Carbon dating 
fossil leaves has placed the Molalla formation in the upper Miocene 
period, or 15 million years ago.
    The Molalla River and its watershed support vital fish habitats, 
including native winter steelhead and salmon runs, resident rainbow and 
cutthroat trout, and a naturalized population of Coho salmon. The upper 
river and its major tributaries provide critical spawning and rearing 
habitat.
    Distinct populations of Molalla River steelhead and salmon are 
listed as ``threatened'' under the Endangered Species Act.
    This area also serves as an important wildlife corridor containing 
breeding and rearing habitat for northern spotted owl, pileated 
woodpecker, red tree vole, red-legged frog and pacific giant 
salamander. It provides habitat for bears, elk, cougars, bobcat, deer, 
beaver, otter, hawks, osprey and both golden and bald eagles.
Recreational and Cultural Uses
    The Molalla River Recreation Corridor is also of significant 
cultural, historic and recreational significance. Formerly the site of 
working steam donkeys, railroads and logging camps, today it offers 
year-round recreational opportunities.
    Annually, thousands of recreationalists visit the Corridor for 
hiking, kayaking and white water rafting, touring and mountain biking, 
camping, horseback riding, hunting, fishing, swimming, picnicking, 
nature watching, or to simply enjoy nature. There are more than 30 
miles of non-motorized trails.
    Historically, an extensive system of trails existed along the 
Molalla River. These trails were principal trade routes across the 
Cascades between indigenous peoples of the northern Willamette Valley 
and Eastern Oregon. The Molalla Indians used one such trail in the 
early 1800's which is now called the Table Rock Historic Trail. During 
the 1920's this same trail was utilized by Native Americans from the 
Warm Springs Reservation to reach traditional berry picking areas near 
the Molalla River and Table Rock. Searching for gold and land to 
homestead, Euro-Americans began moving into the area during the late 
1800's.
    The Molalla River is less than 50 miles from downtown Portland, 
Oregon's largest city. This proximity likely means more and more people 
will visit as the population of the metropolitan area grows. In 2008 
the Corridor saw a 33% increase in use compared to the previous year--a 
record number of visitors.
    The Molalla River Alliance, including its members American Rivers, 
Oregon Wild, Native Fish Society and Molalla RiverWatch, are working 
together to secure Wild and Scenic designation for nearly 22 miles of 
the upper Molalla River. Designation would protect a quarter mile 
buffer on both sides of the river, and would therefore protect 
approximately 7,000 acres of riparian land essential for viable fish 
and wildlife habitat. These protections include a segment of the main 
Molalla River (15.1 miles) and also the Table Rock Fork (6.2 miles).
    The upper river is also benefiting from river restoration efforts 
by numerous Molalla River Alliance members that will enhance native 
fish migration and overall river health. These current actions provide 
an opportunity for decision-makers to ensure that the Molalla River and 
its values are protected and managed for the benefit and enjoyment of 
the local ecology and communities.
Wild and Scenic River Protection
    Sustainable management of forest lands and river restoration 
efforts are both necessary and essential to achieving a healthy river 
and watershed. A vital expedient to safeguarding the Molalla River and 
its values is to successfully legislate it a Wild and Scenic River. 
This designation will provide the Molalla one of our nation's strongest 
conservation tools for rivers.
    Rivers listed under the Wild and Scenic Rivers Act are afforded a 
specific set of protections, including
    <bullet>  Preservation of the river's ``outstandingly remarkable 
values'' (ORVs) and its free-flowing character;
    <bullet>  Protection of the existing uses of the river;
    <bullet>  Ban on dams and any federally licensed water project that 
would have a ``direct and adverse'' effect on the river's free-flowing 
character, water quality or outstanding values;
    <bullet>  Creation of a 1/4-mile protected riparian buffer corridor 
on both sides of the river;
    <bullet>  Protection of the river's water quality (The Molalla 
River is the source of drinking water for the cities of Molalla and 
Canby);
    <bullet>  Preservation of the river's unique historic, cultural, 
scenic, ecological, and recreational values.
    Because the Wild and Scenic Rivers Act confers no federal authority 
over private land use or local zoning, there is no practical impact on 
private property. Riverside landowners will not be told what to do with 
their property or have their land confiscated by the federal 
government.
    To the point, not a single property owner has voiced opposition to 
Wild and Scenic designation for the Molalla River.
    The river was studied and found suitable for Wild and Scenic Rivers 
designation by the Bureau of Land Management. The Outstandingly 
Remarkable Values attributed to the Molalla River are recreation, 
scenic and geology. The federal agency's implicit support is an impetus 
to ensure designation is achieved.
    Even more so, widespread support of the local community through the 
broad-based Molalla River Alliance confirms Wild and Scenic protection 
is a priority for area stakeholders, policy makers and river users. 
Designation by Congress would mean the river's values will be protected 
in perpetuity. Wild and Scenic River protections will benefit the local 
community and economy because the designation serves as a stimulus to 
visitors and tourists.
Benefits of a Wild & Scenic Molalla River to Local Communities
    The City of Molalla's and Clackamas County's interest in the 
Molalla River, and in obtaining Wild and Scenic River status, is very 
practical. First, it's Molalla's sole source of drinking water. So it's 
very much in Molalla's interest to ensure that the Molalla River 
continues to run pure and clean. The city believes Wild and Scenic 
River status will help protect this critical resource from any future 
degradation.
    The second reason Molalla and Clackamas County support Congressman 
Schrader's bill is that Wild and Scenic River status brings with it a 
certain cachet that will attract more visitors to Molalla. City leaders 
see Molalla becoming a destination point for tourism. Visitors drawn by 
the appeal of a Wild and Scenic River may discover Molalla's numerous 
other tourist-based activities. Restoring and enhancing wild salmon and 
steelhead runs in the river means more visits to Molalla by anglers and 
campers, more stops at restaurants and motels, more business for 
outfitters and guides.
    One of the city's challenges has been to ensure that this 
recreation corridor is safe for families to come and play. That has not 
always been so, but we have made unprecedented strides in the right 
direction.
    Until the last year or two, the Molalla River Recreation Corridor 
had a reputation that didn't really lend itself to being a family 
destination. There was unregulated squatting and camping, underage 
alcohol and pot parties, illegal dumping, vandalism, poaching, no 
communications, and little if any law enforcement.
    In the summer of 2008 that began to change. Prompted by the Molalla 
River Alliance, the City of Molalla applied for and was designated a 
``Weed and Seed'' site by the U.S. Justice Department, and it began 
receiving federal funds to carry out measures aimed at weeding out 
crime and seeding the community with projects and activities to 
strengthen community connections and opportunities. One of the most 
effective outcomes so far has been enhanced and interagency law 
enforcement patrols in the Molalla River Recreation Corridor
    These patrols were supplemented by patrols by Clackamas County 
Sheriff's office, the Oregon State Police, Oregon Fish and Wildlife 
Department, and the Bureau of Land Management. A magnetized door logo 
was created to stick on patrol vehicles to give visitors reassurance 
that this was a coordinated effort. This also put others on notice that 
it wasn't going to be business as usual.
    All of this has resulted in a dramatic and, more important, 
sustained reduction in lawless behavior, vandalism and dumping. 
Families are now the primary demographic visiting and camping in the 
Molalla River Recreation Corridor.
    The city is confident that Wild and Scenic River status will help 
establish a positive, inviting image for this remarkable stretch of 
river and attract even more conservation-minded individuals and 
organizations to work with us in protecting this great resource for 
future generations.
Additional Benefits of Wild and Scenic River Designation
    Beyond the direct ban on dams and other federally-assisted water 
projects that could have a harmful effect on the designated river, 
numerous identifiable examples exist of ways in which Wild and Scenic 
Rivers designation has effected positive changes for rivers and nearby 
communities.
    Clearly, designation generates an increase in public awareness and 
appreciation of a river. Knowledge and education about the importance 
of the health of the river can foster goodwill in the community and be 
a positive force for river restoration efforts. Public interest and 
support can also bring together stakeholders with diverse interests 
that might not otherwise cooperate, for the sake of the river. 
Coordination among multiple agencies facilitates the river being 
managed in a holistic manner.
    For numerous Northwest rivers (including the Deschutes, North Fork 
of the John Day, Salmon, Cascade, Big Marsh Creek, Metolius, Skagit and 
White Salmon), Wild and Scenic Rivers designation has provided 
instrumental leverage and garnered additional resources for protection, 
river-related restoration and management of the rivers. In many cases, 
Wild and Scenic Rivers designation priorities a particular project in 
the eyes of government agencies and other funding organizations.
    Because a Wild and Scenic River has been vetted through the 
designation process, a river stands out and is elevated among funding 
agencies who know their money is more likely to be used effectively. 
Increased public awareness can be a powerful and effective force to 
obtain funding to better manage, protect and restore a river.
    In an era of tight funding, Wild and Scenic Rivers designation 
garners attention when agencies are developing resources. Designation 
can be instrumental in attracting funding for acquisitions and 
conservation easements of key parcels in the river corridor. Parcels 
may need to be acquired in the river corridor to ensure their 
protection or to provide additional public access, among other reasons.
    Wild and Scenic designation provides a point of focus that attracts 
interest and naturally lends itself to the formation of partnerships. 
Through Wild and Scenic designation local, state and federal agencies, 
landowners, recreation users, non-profit organizations and others have 
a framework to come together and work to protect, restore and ensure 
public access to the river. Designation elevates the public's 
perception of the river as an important national resource.
CLOSING
    On behalf of the Molalla River Alliance and the community of 
Molalla, I urge the Committee to support Wild and Scenic Rivers 
designation for the many benefits it will provide to natural and human 
communities along the Molalla River.
                                 ______
                                 

  STATEMENT OF ANDY STAHL, EXECUTIVE DIRECTOR, FOREST SERVICE 
       EMPLOYEES FOR ENVIRONMENTAL ETHICS, EUGENE, OREGON

    Mr. Stahl. Thank you, Mr. Chairman. My name is Andy Stahl, 
I am the Executive Director of Forest Service Employees for 
Environmental Ethics, a 10,000 member coalition of civil 
servants who manage our national forests, combined with the 
citizens who own them. I want to thank you for holding this 
hearing on H.R. 2888, a bill to designate the Devil's Staircase 
Wilderness and to protect segments of Wasson and Franklin 
Creeks as wild or recreation rivers.
    I especially want to thank Representatives Blumenauer, 
Schrader and Wu for cosponsoring the bill, and Senators Wyden 
and Merkley for introducing its companion, S-1272, in the 
Senate. On behalf of all of my fellow Oregonians who care about 
our state's wildest places, I want to give a special thanks to 
Representative DeFazio. I had the pleasure, with Peter, of 
making a descent into the rarely visited Devil's Staircase last 
fall.
    It was an eight-hour bushwack through Oregon's steepest, 
most remote geography. We were fortunately led by two Forest 
Service scientists who knew the area better than we did. We 
traveled through 300 year old forests, thickets of impenetrable 
Vine Maple, and Evergreen Huckleberry and Devil's Club, and we, 
with no small amount of luck, actually made it to the staircase 
itself.
    Only the second time in my life I had ever been there, it 
was an epic trip and it demonstrated just what a wilderness 
area is really like when it is wild. In 1983, Oregon Senator 
Mark Hatfield first brought attention to this wild place. He 
held field hearings on H.R. 1149 which became the 1984 Oregon 
Wilderness bill, and he heard testimony in support of Devil's 
Staircase, then called Wasson Creek, from a number of Oregon 
citizen groups and Oregonians.
    By 1984, the Devil's Staircase area lay at the heart of a 
forest policy crisis over logging related landslides in 
Oregon's coast range. A Federal District Judge had ruled that, 
``The steep slopes make the Mapleton District particularly 
susceptible to soil erosion. It has the highest concentration 
of landslide prone land types in the Siuslaw National Forest.''
    The Judge went on to explain that as early as 1963 Forest 
Service personnel noticed that timber harvesting damaged soil, 
watershed and fish habitats in the district, and throughout the 
1960s soil specialists warned that logging and road 
construction could seriously affect soil and watershed 
stability.
    In 1969 the regional forester placed a moratorium on timber 
harvesting in the part of the Mapleton District between the 
Smith and Umpqua Rivers. That is precisely the area proposed 
for protection in this bill. In 1995, after a 10 year planning 
process, the Bureau of Land Management designated its portion 
of Devil's Staircase as an area of critical environmental 
concern making it unavailable for timber harvest.
    As part of the Northwest Forest Plan, the Forest Service 
designated its lands as a late successional forest reserve. The 
area is also critical habitat for both the Northern Spotted Owl 
and Marbled Murrelet protected under the Endangered Species 
Act. Today, Devil's Staircase remains Oregon's most wild, most 
remote and most unexplored corner. Its deeply canopied forests, 
some of whose trees are hundreds of years old, is the least 
fragmented in Oregon's coast range.
    It has wildlife, like the aforementioned Pacific Giant 
Salamander we heard in the hearing today. Also has a wonderful 
little lake, Wasson Lake, created by a recent landslide to 
which people picnic and hike. It is not a place I recommend for 
recreation. This is a rugged and inaccessible terrain. There is 
no trail into the area. Modern technology is of little use in 
navigating the steep slopes.
    It is a place where man himself is only an infrequent and 
weary visitor. H.R. 2888 would ensure that Devil's Staircase 
remains Oregon's wild place forever. I thank you for this 
opportunity to testify, and happy to answer any questions you 
may have.
    [The prepared statement of Mr. Stahl follows:]

Statement of Andy Stahl, Executive Director of Forest Service Employees 
                 for Environmental Ethics, on H.R. 2888

    My name is Andy Stahl. I am the Executive Director of Forest 
Service Employees for Environmental Ethics, a 10,000-member coalition 
of civil servants who manage our national forests and citizens who own 
them.
    Thank you, Mr. Chairman, for holding this hearing on H.R. 2888, a 
bill to designate the Devil's Staircase Wilderness in Oregon and to 
protect segments of Wasson and Franklin Creeks therein as wild or 
recreation rivers. Thanks also to Representatives Blumenauer, Schrader 
and Wu for co-sponsoring this bill and to Senators Wyden and Merkley 
for introducing its companion, S. 1272, in the Senate.
    On behalf of all Oregonians who care about our state's wildest 
place, I want to give special thanks to Representative DeFazio. Peter 
went above and beyond his legislative duty by trekking last fall to the 
rarely-visited Devil's Staircase waterfall in the heart of this 
eponymous wilderness. The eight-hour bushwhack through Oregon's 
steepest and most remote geography took our small group, led by two 
Forest Service scientists, through 300-year-old forests, thickets of 
native vine maple, evergreen huckleberry, and Devil's club, down 
precipitous bedrock debris slides, and, ultimately (with no small 
amount of luck) to the Devil's Staircase falls itself. It was an epic 
trip, as has been the journey of this land towards wilderness 
protection.
    In 1983, Oregon Senator Mark Hatfield first brought legislative 
attention to Oregon's most wild place. At field hearings on H.R. 1149, 
which became the 1984 Oregon Wilderness bill, Senator Hatfield heard 
testimony in support of Devil's Staircase (then called ``Wassen 
Creek'') from the Portland Audubon Society; the Wassen Creek Wilderness 
Committee; Siuslaw Task Force; from a hydrologic engineer who pointed 
out the landslides that result from clearcutting these steep slopes; 
and, from Marriner Orum representing the Sierra Club's Many Rivers 
Group (I can report that Marriner, at 92, is still riding his bicycle 
in Eugene).
    By 1984, the Devil's Staircase area lay at the heart of a forest 
policy crisis over logging-related landslides in Oregon's Coast Range. 
Federal district court Judge Gus Solomon had ruled that ``steep slopes 
make the Mapleton District [in which Devil's Staircase lies] 
particularly susceptible to soil erosion. It has the highest 
concentration of landslide-prone landtypes in the Siuslaw National 
Forest.'' Judge Solomon explained that ``[a]s early as 1963, Forest 
Service personnel noticed that timber harvesting damaged soil, 
watersheds, and fish habitats in the district. Throughout the 1960's, 
soil specialists warned that logging and road construction could 
seriously affect soil and watershed stability. In 1969, the Regional 
Forester placed a moratorium on timber harvesting in the part of the 
Mapleton District between the Smith and Umpqua Rivers,'' which is the 
area proposed for protection in this bill. National Wildlife Federation 
v. United States Forest Service, 592 F. Supp. 931, 934 (D. Or. 1984).
    In 1995, after a 10-year planning process, the Bureau of Land 
Management designated its portion of Devil's Staircase as an ``Area of 
Critical Environmental Concern,'' which makes the forest ``not 
available'' for timber harvest. http://www.blm.gov/or/plans/wopr/exrmp/
coosbay/tables/table3.html. A subsequent land use planning process (the 
Western Oregon Plan Revision), although recently withdrawn by Secretary 
Salazar for unrelated legal infirmities, reaffirmed the area's ACEC-
protected status.
    Concurrently, as a part of the Northwest Forest Plan, the U.S. 
Forest Service designated its lands contained within the proposed 
Devil's Staircase wilderness as a late-successional forest reserve, 
thus withdrawing these lands from the commercial timberland base. The 
Devil's Staircase area is also federally-protected critical habitat for 
two threatened bird species--the northern spotted owl and marbled 
murrelet.
    Today, Devil's Staircase remains as Oregon's most wild, remote, and 
unexplored corner. Its deeply-canopied forest, some of whose trees are 
hundreds of years old, is the least fragmented in Oregon's Coast Range. 
Its major streams, including Wasson, Franklin and Harvey Creeks are 
habitat for native salmon species, including coho, steelhead, Chinook, 
and cutthroat trout, while its upland habitat sustains Roosevelt elk, 
black bears, and Pacific giant salamanders. People visit Wasson Lake, a 
geologic oddity created by a recent landslide, to picnic and hike, and 
they explore, if sufficiently adventuresome, its remote and beautiful 
forested slopes.
    But it is not for its recreational assets that Devil's Staircase is 
most appreciated. This is a rugged and inaccessible landscape. No trail 
marks the way into these wild lands. Modern GPS technology is of little 
use in navigating its heavily-dissected ridges and ravines. In the 
words of the Wilderness Act, not only is Devil's Staircase untrammeled 
by man, man himself is only an infrequent and wary visitor. H.R. 2888 
would ensure that Devil's Staircase remains Oregon's wildest place 
forever.
    Thank you again for this opportunity to testify. I would be happy 
to answer any questions you may have.
                                 ______
                                 
    Mr. Heinrich. Thank you, Mr. Stahl. I am going to ask you, 
actually, one quick question and then we will go to the Ranking 
Member and make our way around. I wanted to ask you how 
familiar you are personally with the high clearance two track 
that runs through the area that bisects the proposed 
wilderness, and how you feel about potentially turning it into 
a foot and horse path.
    Mr. Stahl. I think that would be a very appropriate 
conversion. We have seen the same thing work in the Cummins 
Creek Wilderness, which lies just a couple of dozen miles north 
in the coast range where an old, unused logging road has now 
been converted to one of the major hiking trails that accesses 
Cummins Creek.
    So this road has had no maintenance by the Forest Service 
in years, the brush is growing in, it is all forested along its 
length, and if you take a high clearance vehicle in there, you 
had better not care about your paint job.
    Mr. Heinrich. Thank you. Mr. McIntosh, in your testimony 
one of the things you stated was that Congress should have made 
this memorial part of the National Park System in 1996. From 
your perspective, why do you believe that was not done?
    Mr. McIntosh. Because I think honestly that the chances for 
its going up seemed so distant and so remote that it was an 
inappropriate thing to do at that time.
    Mr. Heinrich. OK.
    Mr. McIntosh. The point of my making that remark was when 
people come to representatives seeking congressional support 
for this, that or the other project, it would be well, I think, 
if they were really closely vetted, they being the projects 
themselves, because there are a lot of things that have come 
into existence that have turned out to be larger than they 
ought to have been and which really do require a tremendous 
amount of support that was unanticipated.
    Mr. Heinrich. Thank you. Mr. Moody, do you agree with the 
BLM that the appropriate category or status for the Molalla is 
a recreational status?
    Mr. Moody. In terms of reading what the characteristics 
are, in terms of wild scenic or recreational, we far more 
adhere to those conditions than frankly and honestly than we do 
for wild or scenic. Yes.
    Mr. Heinrich. Great. Mr. Moody, can you tell me about just 
what has been done in recent years to clean up this stretch of 
the mall?
    Mr. Moody. I would be happy to, and I appreciate that 
opportunity. The canyon has been victim of extensive dumping, 
littering, vandalism, violence, drug use, drinking, illegal 
camping, riparian damage, degradation of the fishery, et 
cetera. At our second meeting, we organized and realized that 
the goals that we have established have no chance of being 
achieved if we weren't able to eliminate that element, that 
behavior in the corridor.
    So we organized a interagency enhanced patrols into that 
corridor with the local police department, the Clackamas County 
Sheriff Molalla Police Department, Oregon State Patrol, and the 
Bureau of Land Management Patrol as well. We have had a 
dramatic and now sustained impact in reducing that element in 
that corridor. The demographic of the type of visitor to our 
corridor today is now a family of four, and the drinking 
parties et cetera have been dramatically reduced.
    Mr. Heinrich. Thank you very much. That concludes my 
questions for this round. And we will go to Ranking Member 
Bishop.
    Mr. Bishop. Mr. Moody, I appreciate, in fact I appreciate 
all three of you being here and your patience in coming to this 
point. Mr. Moody, as I understand, the river of which you speak 
is already being administered as wild scenic recreational?
    Mr. Moody. It is.
    Mr. Bishop. So the change of designation would really not 
have a significant impact on how the administration of this 
stretch of river is being handled right now?
    Mr. Moody. As I have been told by Bureau of Land Management 
personnel in the Salem district, that is exactly correct. But 
the transition I think should be seamless.
    Mr. Bishop. But the bill itself does not state what the 
designation ought to be, is that correct?
    Mr. Moody. I think that it does. And if it doesn't, as the 
Chairman had asked, it is for recreational designation.
    Mr. Bishop. Well we will double check on the bill itself, 
but it would be wise simply if the legislation did make that 
designation clear.
    Mr. Moody. And I too will look into that.
    Mr. Bishop. OK.
    Mr. Moody. Yes, thank you.
    Mr. Bishop. Thank you very much.
    Mr. Heinrich. Mr. DeFazio, did you have some question? No. 
Mr. Hinchey?
    Mr. Hinchey. I have no questions, but I just want to join 
Mr. Bishop and express my appreciation to all three of you for 
being here and for the contents of the testimony that you gave 
and the response to the questions. I found it very, very 
interesting and very intriguing in many ways. So thank you 
very, very much for being here, and thank you for all that you 
are doing.
    Mr. Moody. Thank you.
    Mr. Heinrich. I want to express that too. Thank you very 
much for your advocacy and thank you for your patience as we. 
And Mr. Bishop wants to add something as well.
    Mr. Bishop. Mr. Moody, I am just looking at this again, I 
would ask you to go back with your group here, the analysis 
that I have says the bill does not specify which 
classification. I think I agree with you, there ought to be a 
specific statement of what the classification ought to be if 
this bill goes forward.
    Mr. Moody. I agree with you, and I will talk with 
Congressman Schrader about that.
    Mr. Bishop. Thank you very much.
    Mr. Moody. Thank you for the opportunity.
    Mr. Heinrich. Thanks again.
    Mr. Heinrich. We are going to go now to our fourth panel, 
we are going to hear from The Honorable Gregory Bell, 
Lieutenant Governor of Utah; Commissioner John Jones from 
Carbon County; Mr. Peter Metcalf, the President, CEO, and Co-
Founder of Black Diamond Equipment; and Bryson Garbett, former 
Utah State Legislator from Salt Lake, and Rocky Anderson, the 
former Mayor of Salt Lake City, Utah.
    Welcome, gentlemen. Since I believe the Lieutenant Governor 
is en route, actually he is here, so we will give him a minute 
to settle in. Welcome, Lieutenant Governor Bell, and feel free 
to get settled in and start at your leisure.

STATEMENT OF THE HONORABLE GREGORY BELL, LIEUTENANT GOVERNOR OF 
                   UTAH, SALT LAKE CITY, UTAH

    Mr. Bell. Thank you, Mr. Chair, Ranking Member, and 
Honorable Members of the Committee. I am delighted to be here 
today, and I appreciate so much your giving us this time. I am 
here on behalf of Governor Herbert, Governor of the State of 
Utah. We appreciate the many citizens who have come today to 
weigh in on this important issue, and we certainly do not 
resent the attention to public lands which are located in the 
State of Utah.
    Of course we have very strong feelings how those lands are 
treated, we are the ones who live with them, we recognize the 
Federal ownership of those lands, we also recognize the 
necessity of treating those lands in a nuanced way. I think we 
are past now the age of one size fits all. We have all realized 
that these issues have become so polarized that it is almost 
impossible to deal from any one perspective.
    And while the examples of the Washington County and Cedar 
Mountain examples have been very, very successful, there are 
some who don't even support those processes. But I think going 
forward we would make two simple comments without being 
redundant. And that is that, we in the State of Utah are 
committed to a nuanced look at the public lands in the State of 
Utah. No longer can we treat this issue as a paint brush would 
paint the side of a barn. This has to be more like sculpting or 
like surgery, where with a scalpel or with a knife or a little 
chisel we are going to take area by area a look at these lands.
    These lands comprehend so many different kinds of property, 
kinds of interest, the layers, the wires, if you will, running 
underneath the floor are so many, the local interests, the 
economic, the aesthetic, the spiritual, all of the people who 
have weighed in have made such tremendously good comments about 
the values which are at work in these public lands. Therefore 
those have to be treated with in, again, a very sophisticated 
way.
    The second comment that we make in our letter is that we in 
Utah have been pretty good. We have been very good about not 
only reaching good processes and achieving things, but also in 
addressing and managing the lands themselves. And so, while 
these are public lands, they need to be dealt with taking into 
account the interests of those who live around them, those who 
hike there, those who bike there, those who camp there 
certainly, but those who live there.
    It is so important that people who have grown up on these 
lands, around these lands, who make their livelihood related to 
these properties, that they be consulted and that they be given 
a sense of self determination. We don't want to railroad 
anybody, we don't want to run over people, and particularly 
those folks who live around these remote, desolate in some 
cases, lands. Those interests have to be accounted for. So we 
appreciate so much your attention to these things, but our hope 
is that we can get to more of a delicate and multilayered 
process rather than the concept we find before us.
    [The prepared statement of Governor Gary R. Herbert 
follows:]
    [A letter submitted for the record by Governor Gary R. 
Herbert, State of Utah, follows:]

                           September 29, 2009

Rep. Raul M. Grijalva
Chairman
Subcommittee on National Parks,
Forests and Public Lands
Longworth House Office Building
Washington, D.C.

Dear Chairman Grijalva:

    Utah has a long history of responsible stewardship of the land, 
dating back to Native American and early pioneer times. Those who lived 
here in the past, and continue to live here today, have learned to work 
with the land, and the arid climate that helped sculpt it, in order to 
make a living. Today, the livelihood of residents of rural Utah depends 
on development of the natural resources in the energy and minerals 
business, outstanding stewardship of the land through comprehensive and 
coordinated grazing of the land, the natural beauty of the state 
through the tourism and recreational industries, and, increasingly, 
from renewable energy resources in the state.
    Wilderness, as defined by the United States Congress, has been a 
contentious issue in Utah for decades. Positions on the issue range 
from the belief that the designation of Wilderness locks people out of 
an area and forecloses all economic opportunity on one side, to the 
assertion that, without Congressional Wilderness, the land and 
landscapes are lost forever on the other. Neither extreme is accurate. 
Looking forward, the discussion must move from these unproductive 
polarized positions to a careful examination of the resources and 
beauty of the land, human uses of the land, and the best management 
tools available. Unfortunately, through this long debate, common sense 
in the management of the land has often been lost.
    Before the Subcommittee on October 1, 2009, will be a hearing on 
H.R. 1925, a bill to designate a huge portion of the State of Utah as 
Congressional Wilderness. The bill, sponsored by Rep. Maurice Hinchey 
of New York, is not supported by a single member of the Utah 
delegation. The amount of land proposed for this designation is 
overwhelming--it is the approximate equivalent of the size of the State 
of Maryland. The State of Utah recognizes that the lands proposed for 
wilderness designation by this bill, lands that are managed by the 
Bureau of Land Management, are owned by the American people. However, 
we also find this proposal is, and always has been, an unrealistic and 
unvetted allocation of the natural resources of this great State. The 
proposal has not been presented by the sponsor to the many stakeholders 
in this issue, particularly the rural citizens who feel so passionately 
about the matter. Nor has the sponsor sought to balance the laudable 
goal of preserving our stunning scenic resources against the nation's 
needs for wildlife conservation, recreational pursuits, and energy,
    Utah has a history of nuanced collaborative efforts to address 
thorny issues. I have been active in many such efforts and note that 
Utah's Lieutenant Governor, Greg Bell, formerly served as the chairman 
of Envision Utah, an internationally acclaimed honest broker and 
facilitator for urban, rural and wilderness issues.
    The sponsor's proposal has been publicized as a responsible effort 
by citizens to survey the resources of the State and make a 
determination of the lands that should be designated Congressional 
Wilderness. Yet, this result is entirely dependent upon a determination 
by those citizens that the public lands are roadless, do not contain 
human intrusions (or those intrusions are substantially unnoticeable), 
and there are no competing resource needs. Similar comprehensive 
surveys by local government are ignored, as are efforts by the State 
and local governments to seek recognition of historical roads. Recent 
decisions by the federal courts have clarified the nature of these 
historic roads--cases that postdate the citizens' work in this area.
    Management of Congressional Wilderness is also a point of concern 
for the State. Recent efforts by Utah's delegation on a comprehensive 
land management bill for Washington County in Southern Utah established 
that a National Conservation Area, not Congressional Wilderness, is the 
most appropriate management tool for areas where the desert tortoise 
lives. In addition, Congressional Wilderness embodies a particular 
vision for management of the resources through natural processes, a 
vision that can be at odds with the needs of nearby human uses. This 
difference came into play in Utah this past summer with a decision to 
let a lightning-caused fire burn in Congressional Wilderness for some 
weeks, only to have it flare-up and threaten homes outside the 
boundaries later in the summer. Active management of the fuel in the 
forest area, or ignition of a prescribed fire at a more appropriate 
time of year, may have alleviated the situation, yet was unavailable to 
the forest land managers.
    The State of Utah supports the efforts of Utah's Congressional 
delegation to seek a balanced review of Utah's lands for wildlife 
conservation, energy production (including renewable energy resources), 
recreational pursuits and tourism, and wilderness and other 
conservation designations. These efforts involve collaboration between 
conservation advocates, resource stewards such as ranchers and 
recreational providers, resource users such as energy companies, local 
governments, and state agencies. The State urges the Chairman to 
require the sponsor and citizens who have spent time preparing the work 
behind the bill to engage in these efforts. Only then will a true, 
workable balance of conservation and human use emerge. Moreover, the 
huge amount of land targeted by this bill should be addressed on an 
area-by-area basis, because a one-size-fits-all approach will produce 
the wrong results. Again, we recommend to you the Washington County 
experience as a model of nuanced treatment of a spectrum of lands and 
values affecting those lands.
    Thank you for the opportunity to provide comment on a matter of 
such grave importance, not only to the State of Utah and its citizens, 
but the entire Intermountain West and the Nation.

                               Sincerely,

                              Gary R. Herbert

                                Governor

cc:  Senator Orrin Hatch
    Senator Robert Bennett
    Congressmen Jim Matheson
    Congressman Rob Bishop
    Congressman Jason Chaffetz
                                 ______
                                 
    Mr. Heinrich. Thank you, Lieutenant Governor.
    We will now hear from Commissioner John Jones from Carbon 
County.

  STATEMENT OF JOHN JONES, CARBON COUNTY COMMISSIONER, PRICE, 
                              UTAH

    Mr. Jones. Mr. Chairman, Congressman Bishop, and the 
Subcommittee, I appreciate this opportunity to testify on 
behalf of the people of rural Utah on HR-1925 for the objective 
of Representative Hinchey's affection. My name is John Jones 
and I represent Carbon County, a historical mining community 
with a strong tradition of organized labor who have provided 
utilities across this country for some of the nation's finest 
high BTU low sulfur coal.
    Ours is the most democratic county in Utah, and like you, 
Mr. Chairman, we are proud democrats who are concerned about 
providing good jobs and stable economic opportunities. As I 
look at the impacts of the Red Rock Wilderness bill, I see 
imminent destruction statewide to thousands of miles of roads, 
mine sites, well pads, cabins, landing strips, and stock ponds, 
complete with some of their supporting structures. It is not 
uncommon as we travel these roads to run into people who are 
both working the land and out enjoying these historical sites.
    True management of multiple use lands, including 
recreation, is accomplished through trails and road systems 
that provide access to these areas. If this doesn't prove that 
this area has been touched by man, I don't know what could. 
Moreover, the evidence of man throughout this proposed Red Rock 
Wilderness has been and remains the primary ticket to rural 
Utah's prosperity. Carbon County, like many other counties in 
Utah, has just participated in a grueling seven-year public 
process working with the BLM to develop a balanced resource 
management plan which protects lands and truly outstanding 
environmental qualities and leaves open for development crucial 
oil- and gas-rich lands.
    This was no last minute, eleventh hour backroom deal. Mr. 
Chairman, we had high expectations for this Administration and 
supported it last November. Since then, without any 
explanation, Interior Secretary Salazar overturned our seven-
year effort to create a price area RMP by blocking legitimate 
oil and gas areas upon which our people depended for work and 
economic opportunities, not to mention that his devastating 
actions are driving away energy production companies that pay 
about 60 percent of Carbon County's property taxes, of which 
$12 million went to local school districts last year. The same 
is true with other RMPs developed across Utah.
    Passage of HR-1925 would place a nail in the coffin of 
rural Utah communities and render impossible any long term 
economic opportunities for the people in our counties who are 
surrounded by government owned land and whom we were elected to 
serve and represent. The idea that SUWA, and its lackey Mr. 
Hinchey, represents the voice of rural Utah is like saying King 
George III represented the American colonies on issues of 
taxation. It just isn't so.
    Our people have asked, how is it that a wilderness bill 
offered by a New Yorker on behalf of SUWA is treated seriously 
by this Committee when a BLM RMP developed locally over the 
course of seven years through a legitimate public involvement 
process is thrown out by our own Administration, thus 
squandering employment opportunities for our people in the 
process? This is not what we elected President Obama to do. 
Things in Washington, D.C., are seriously off track.
    We support reasonable protection for all public lands, 
wilderness designation when necessary to protect truly 
outstanding national treasures in their pristine state. 
However, the proposed Red Rock Wilderness bill targeting Utah 
devastates our local economies even more so during the economic 
recession and at a time our county should be moving away from 
foreign energy.
    Moreover, the majority of the lands covered by this bill 
would actually suffer environmental degradation if subjected to 
leave-it-alone wilderness style management regimes. When lands 
are not managed, they are fire prone and lose their usefulness 
for grazing, wildlife, and watershed, and recreation. Earlier 
this year, HR-147, the Omnibus Public Lands Package which was 
signed into law by President Obama, proved to be a much better 
way to protect our public lands including wilderness values.
    That package included such measures as the Washington 
County bill in Utah, the Owyhee Initiative in Idaho, and the 
Carson City bill in Nevada. These measures are the models for 
successful resolutions of these land protection issues going 
forward, and they are far superior to the overreaching 
approaches of the past which HR-1925 represents. Particularly 
troubling is the fact that HR-1925 still includes acreage in 
Washington County which the new Washington County law 
specifically released from wilderness classification. So much 
for SUWA keeping its word. I would like to thank you for this 
opportunity to testify on behalf of the people from Utah. Thank 
you.
    [The prepared statement of Mr. Jones follows:]

   Statement of John Jones, Carbon County Commissioner, on H.R. 1925

    Mr. Chairman, Congressman Bishop and members of the Subcommittee, I 
appreciate this opportunity to testify today on behalf of the people of 
rural Utah who are the object of Representative Hinchey's affection.
    My name is John Jones and I represent Carbon County, a historic 
coal mining community with strong traditions of organized labor who 
have provided utilities across the country with some of the nation's 
finest high BTU low sulfur coal. Ours is the most Democratic County in 
Utah and like you, Mr. Chairman, we are proud Democrats who are 
concerned about providing good jobs and stable economic opportunities.
    As I look at the impacts of the Red Rock Wilderness bill, I see the 
imminent destruction statewide to thousands of miles of roads, mine 
sites, well pads, cabins, landing strips and stock ponds, many complete 
with their supporting structure. It is not uncommon as you travel these 
roads to run into people who are both working the land and out enjoying 
these historical sites. True management of multiple use lands including 
recreation is accomplished through trail and road systems that provide 
access to these areas. If this doesn't prove that an area is touched by 
man, I don't know what could. Moreover, this evidence of man throughout 
the proposed Red Rock Wilderness has been and remains the primary 
ticket to rural Utah's prosperity--it is not in the view of those who 
live there--detrimental, but the highest and wisest use of the land.
    Carbon County, like many other counties in Utah, has just 
participated in a grueling seven year public process working with the 
Bureau of Land Management to develop a balanced Resource Management 
Plan (RMP) which protects lands with truly outstanding environmental 
qualities and leaves open for development crucial oil and gas rich 
lands. This was NO last minute 11th hour backroom deal.
    Mr. Chairman, we had high expectations for this Administration and 
supported it last November. Since then, without any explanation, 
Interior Secretary Salazar, overturned our seven year effort to create 
the Price area RMP by blocking legitimate oil and gas areas upon which 
our people depend for work and economic opportunity. Not to mention 
that his devastating actions are driving away energy producing 
companies that pay about 60% of Carbon County's property taxes--of 
which over $12,000,000 went to the local School District last year. The 
same is true with other RMPs developed across Utah.
    Now, under the guise of a contrived effort by the Southern Utah 
Wilderness Alliance (SUWA), to portray the Red Rock Wilderness bill 
offered by New York's Representative Hinchey as a Utah ``citizens'' 
bill, passage of H.R. 1925 would place a nail in the coffin for rural 
Utah communities and render impossible any long-term economic 
opportunities for the people in our counties who are surrounded by 
government-owned land and whom we were elected to serve and represent. 
The idea that SUWA and its lackey, Mr. Hinchey, represents the voice of 
rural Utah is like saying King George III represented the American 
colonists on issues of taxation--it just isn't so!
    Our people have asked, how is it that a wilderness bill offered by 
a New Yorker on behalf of SUWA is treated seriously by this Committee 
when a BLM RMP developed locally over the course of seven years through 
a legitimate public involvement process is thrown out by our own 
Administration thus squandering employment opportunities for our people 
in the process? This is not what we elected President Obama to do. 
Things here in Washington, D.C. are seriously off track. This bill 
threatens the very survival of rural Utah.
    We support reasonable protections for all public lands and 
wilderness designation when necessary to protect truly outstanding 
national treasures in their pristine state. However, the proposed Red 
Rock Wilderness bill targeting Utah would devastate our local economies 
even more so during this economic recession and at a time our country 
should be moving away from foreign energy. Moreover, the vast majority 
of the lands covered by the bill would actually suffer environmental 
degradation if subjected to leave-it-alone wilderness style management 
regimes. When the lands are not managed they are fire prone and lose 
their usefulness for grazing, wildlife, watershed and recreation.
    Earlier this year, HR146, the Omnibus Public lands package which 
was signed into law by President Obama, proved to be a much better way 
to protect our public lands including wilderness values. That package 
included such measures as the Washington County bill in Utah, the 
Owyhee Initiative in Idaho, and the Carson City bill in Nevada. These 
measures are the models for successful resolution of these land 
protection issues going forward, and they are far superior to the 
overreaching approaches of the past, which H.R. 1925 represents. 
Particularly troubling is the fact that H.R. 1925 still includes 
acreage in Washington County which the new Washington County law 
specifically released from wilderness classification. So much for SUWA 
keeping its word.
    Without the buy-in of the people who are actually impacted by the 
management decision or in this case wilderness, there is little chance 
those decisions will ever be honored or respected. Locally driven 
processes like the 7-year BLM RMPs developed across Utah or like the 
Washington County, Utah Wilderness bill developed on a case-by-case, 
area-by-area basis is the only proven way to resolve the wilderness 
impasse in Utah or anywhere else. That is the model this committee 
should follow, not the overreaching, overbearing approach embodied in 
the Red Rock bill. The people of Carbon County and the rest of rural 
Utah trust our Utah Congressional delegation to represent us because 
they understand Utah and have shown us that they listen. We hope that 
this Committee will see the Red Rock bill for what it is, 
unrepresentative of our views and counterfeit in its creation. The 
future of the land we love and care for, rural Utah itself hangs on 
your decision.
    Thank you for this opportunity to speak on behalf of the people of 
rural Utah.
                                 ______
                                 
    Mr. Heinrich. Commissioner Jones, I would just remind you 
that we have a certain decorum here, and I would ask that you 
not refer to any Member of this Committee in the future as a 
lackey. I don't think those were appropriate words for this 
Committee. I do very much appreciate the rest of your 
testimony.
    We are going to go now to Mr. Metcalf. You can start 
whenever you like.

          STATEMENT OF PETER METCALF, CEO/PRESIDENT & 
         CO-FOUNDER, BLACK DIAMOND EQUIPMENT LTD., UTAH

    Mr. Metcalf. I would like to begin by thanking the sponsors 
of this legislation, especially Congressman Hinchey and 
Chairman Grijalva. The citizens who helped craft this bill and 
those who have worked to protect Utah's Red Rock Country for 
more than 25 years are deeply grateful for your vision and 
steadfast commitment to these magnificent wild lands. A 
September, 2009 Dan Jones & Associates statewide poll in Utah 
showed that over 60 percent of Utahns who had a position on the 
issue supported protecting 9 million acres or more of Utah BLM 
wilderness. So the citizens of my state thank you as well.
    My name is Peter Metcalf. I am a Utah resident and 
president and Co-Founder of Black Diamond Equipment, a Utah 
based outdoor equipment company with annual sales of 
approximately 90 million and approximately 250 Salt Lake City 
based employees, another 30 in Europe, and another 100 more in 
Asia. I am also appearing before the Committee today in my 
capacity as a member of the Board of Directors and the Vice 
Chair of the Outdoor Industry Association, which is a national 
trade association with many hundreds of members nationwide 
whose mission is to ensure the growth and success of the 
outdoor industry.
    Our members include some of the nation's preeminent and 
iconic outdoor companies, including Coleman, L.L. Bean, 
Cabelas, REI, The North Face, EMS, and Patagonia. 18 years ago, 
my company made a deliberate decision to relocate its 
headquarters to Utah from California because it was a world 
class active outdoor recreation destination. Utah pretty much 
has it all. Many of these activities take place in BLM 
administered public lands, such as Indian Creek, the San Rafael 
Swell, and Desolation Canyon, all proposed wilderness areas 
that currently lack protection.
    These iconic landscapes are directly linked to the 
strengths and resonance of our global brand. To protect these 
remarkable landscapes, the Outdoor Industry Association 
strongly supports passage of America's Red Rock Wilderness Act, 
a grassroots initiative that is homegrown, field checked, and 
time tested. In crafting the original bill, citizen volunteers 
spent thousands of hours in the field documenting wilderness 
characteristics and carefully mapping the boundaries of the 
proposed wilderness areas. These volunteers included Black 
Diamond employees.
    Their efforts resulted in one of the most comprehensive 
land inventories ever conducted by a nongovernmental 
organization. The citizens' inventory has been largely 
validated by the BLM. To date, the Agency has verified the 
wilderness character of an overwhelming majority of those 
proposed for designation in this bill. Active outdoor 
recreation is a strong and vital part of the nation's economy, 
especially in rural areas. In 2005, 159 million Americans 
participated in outdoor recreation, with the greatest numbers 
in the gateway sports of hiking, camping, and paddle sports.
    In Utah alone, the active outdoor industry contributes over 
$6 billion annually to the state's economy. Protecting the 
public lands that support outdoor recreation is critical to 
establishing and sustaining balanced local economies across the 
Nation and especially in the West. Several years ago, the 
Outdoor Industry Foundation with the support of others 
completed a study on the contributions of active outdoor 
recreation to the U.S. economy. It concluded that active 
outdoor recreation among other things touches over 8 percent of 
America's personal consumption expenditures, more than one in 
every $12 circulating in our economy.
    In times of difficult economic hardship, Americans always 
return in large numbers to the great outdoors. During the first 
11 months of the current recession, industry outdoor product 
sales grew an extraordinary 10 percent as families returned to 
affordable outdoor activities. At the same time, many state and 
Federal lands are seeing a dramatic increase in visitation. For 
this reason, outdoor gear sales and recreational outings will 
play a significant and growing role in maintaining vibrant 
outdoor businesses, strong communities, and healthy citizens.
    America's Red Rock Wilderness, with its soaring arches, 
plunging canyons, is a landscape that captures the soul and the 
imagination. No other landscape in the United States or even 
the world compares to what we have. It is one of our country's 
greatest assets, one that can't be copied in China, done more 
cheaply in Bangladesh. These lands in part are our competitive 
advantage, and as a state and as a nation.
    And as Steward Brand once said, ``National systems are 
priceless in value and nearly impossible to replace, but they 
are cheap to maintain. All you have to do is defend them.'' So 
please protect this national treasure for future generations by 
casting a vote for America's Red Rock Wilderness Act. Rest 
assured it will be good for wildlife, good for our air and 
water, good for the outdoor industry and a clean, sustainable 
outdoor economy, and good for the American public. Thank you.
    [The prepared statement of Mr. Metcalf follows:]

   Statement of Peter Metcalf, President & Co-Founder: Black Diamond 
   Equipment, Ltd., Salt Lake City, Utah; Vice Chair & Board Member: 
               Outdoor Industry Association, on H.R. 1925

Introduction
    Thank you for the opportunity to testify before this subcommittee 
regarding America's Red Rock Wilderness Act, H.R. 1925. My name is 
Peter Metcalf. I am a Utah resident and the president and founder of 
Black Diamond Equipment, a Utah-based outdoor equipment design and 
manufacturing company with annual sales of approximately $90 million 
per year with approximately 250 Salt Lake City based employees, another 
30 in Europe and a 100 more employees in Asia. I am also appearing 
before the committee today in my capacity as a member of the board of 
directors and vice-chair of the Outdoor Industry Association (OIA.) OIA 
is a national trade association whose mission is to ensure the growth 
and success of the outdoor industry.
    First, I'd like to thank the sponsors of this legislation, 
especially Congressman Hinchey and Chairman Grijalva. The citizens who 
helped craft this bill, and those who have worked to protect Utah's 
redrock country for more than 25 years, are deeply grateful for your 
uncommon vision and steadfast commitment to these magnificent wild 
lands.
    I also applaud both chambers of Congress for working to pass the 
Washington County Growth and Conservation Act earlier this year as part 
of the Omnibus Public Lands package.
    I appeared before the Senate Subcommittee on Public Lands and 
Forests back in 2006 to register our concerns about the original 
version of this bill. It has since been signed into law as a vastly 
improved and widely celebrated example of public land policy which 
grants real protection to 180,000 acres of Utah's Zion-Mojave 
wilderness. Yet, as important as this conservation victory is, it 
represents just a tiny fraction of the qualifying wilderness lands in 
America's Red Rock Wilderness Act.
Overview of America's Red Rock Wilderness Act
    Introduced in 1989 by the late Congressman Wayne Owens, America's 
Red Rock Wilderness Act seeks to protect what remains of Utah's 
unspoiled BLM wild lands--from the serpentine canyons of the Green and 
Colorado Rivers to the ancient cultural sites of Cedar Mesa; from the 
island mountain ranges of Utah's West Desert to the wildlife-rich 
forests of the Tavaputs Plateau. Proposed wilderness lands in the bill 
include such poetically named places as Arch Canyon, the Burning Hills, 
Comb Ridge, the Vermilion Cliffs, Labyrinth Canyon, Wild Horse Mesa, 
the Deep Creek Mountains, and Desolation Canyon, to name a few.
    So unique and jaw-droppingly beautiful are these public lands that 
people come from all corners of the globe to see them. They provide the 
prelude and the backdrop for Utah's five national parks, yet they are 
threatened every day by oil and gas development, mining, exploding off-
road vehicle use, and the endless proliferation of roads.
    To protect these remarkable landscapes, the Outdoor Industry 
Association strongly supports passage of America's Red Rock Wilderness 
Act--a grassroots initiative that is home-grown, field-checked and 
time-tested. In crafting the original bill, citizen volunteers spent 
thousands of hours in the field documenting wilderness characteristics 
and carefully mapping the boundaries of proposed wilderness areas. 
These volunteers included Black Diamond employees. Their efforts 
resulted in one of the most comprehensive land inventories ever 
conducted by a non-governmental organization. Now updated to include 
9.4 million acres of proposed wilderness, this citizens' inventory has 
been largely validated by the BLM. To date, the agency has verified the 
wilderness character of 74 percent of lands proposed for designation in 
the bill.
Utah Wilderness and the Outdoor Industry
    Active outdoor recreation is increasingly a strong and vital part 
of our nation's economy, especially in rural areas. In 2005, 159 
million Americans participated in outdoor recreation, with the greatest 
numbers in the gateway sports of hiking, biking, camping and paddle 
sports. In Utah alone, the outdoor industry contributes over 6 billion 
dollars annually to the state's economy. Protecting the public lands 
that support outdoor recreation is critical to establishing and 
sustaining balanced local economies across the nation, especially in 
the West.
    Several years ago, the Outdoor Industry Foundation, with the 
support of many other trade groups including the travel industry, 
completed the industry's first study quantifying the contribution of 
active outdoor recreation to the U.S. economy. We looked at eight 
activity categories: bicycling, camping, fishing, hunting, paddling, 
snow sports (including downhill skiing, snowboarding, cross-country/
nordic, snowshoeing), hiking and backpacking (including mountaineering/
canyoneering), and wildlife viewing. The study concluded that active 
outdoor recreation:
    <bullet>  contributes $730 billion to the U.S. economy;
    <bullet>  generates $289 billion annually in retail sales and 
services across the U.S.
    <bullet>  touches over 8 percent of American's personal consumption 
expenditures--more than 1 in every 12 dollars circulating in the 
economy;
    <bullet>  generates $88 billion in annual state and national tax 
revenue; and
    <bullet>  supports nearly 6.5 million jobs across the U.S.
    In times of difficult economic hardship, Americans always return in 
large numbers to the great outdoors. During the Great Depression and in 
every recession since, we have utilized the outdoors as our national 
place for renewal. In the coming years, outdoor gear sales and 
recreational outings will play a significant and growing role in 
maintaining healthy outdoor businesses and strong communities.
    During the first eleven months of the current recession, industry-
wide outdoor product sales grew an extraordinary 10% as family's 
returned to camping, cycling and other affordable outdoor activities. 
At the same time, many state and federal lands are seeing a dramatic 
increase in visitation.
    My company is headquartered in Utah because it is a world class 
recreation destination. With outstanding opportunities for camping, 
hiking, skiing, mountain biking, climbing, canyoneering and river 
running, Utah pretty much has it all. Many of these activities take 
place on BLM-administered public lands in areas like Indian Creek, the 
San Rafael Swell, and Desolation Canyon: all proposed wilderness areas 
that currently lack protection. These iconic landscapes are directly 
linked to the strength and the resonance of our global brand.
Threats to Utah Wilderness
    Threats to these landscapes come in many forms. Controversial plans 
to sell oil and gas leases near several Utah parks and in proposed 
wilderness areas have made national headlines lately, as has the recent 
federal bust of an archaeological looting ring centered in Utah's San 
Juan County. Other threats are more insidious: like the rapid spread of 
off-road vehicles into nearly every corner of Utah's backcountry. 
Illegal trails often find their way onto BLM route maps due to pressure 
from off-road vehicle groups. Just a few of these routes, once 
established, can disqualify thousands of acres from future wilderness 
consideration.
    The rallying cry of wilderness opponents is ``More access!'' and 
they accuse conservationists of ``locking up the land.'' The truth is, 
a full 70 percent of the lands within America's Red Rock Wilderness Act 
are within just one mile of a vehicle route--that's about 10 city 
blocks in Washington, DC. If the Red Rock bill were passed today, there 
would still be tens of thousands of miles of primitive dirt roads and 
trails available for motorized use on Utah's BLM lands. At the same 
time, lands protected in the bill would remain open to hiking, 
backpacking, horseback riding, camping, river running, hunting, 
fishing, guiding, scientific study, fire and insect control, and even 
existing livestock grazing.
    When it comes to energy, the vast majority of BLM land would still 
be available for oil and gas development after passage of the Red Rock 
bill. Even now, the industry cannot keep up with the leases it holds. 
At the end of Fiscal Year 2008, five million acres of BLM land were 
under lease in Utah, yet only 1.5 million acres of those lands were in 
production.
    According to the federal government's Energy Information 
Administration, the state of Utah holds approximately 2.5 percent of 
the country's proven natural gas reserves and a mere one percent of the 
country's proven oil reserves. Only a fraction of that lies beneath 
proposed wilderness. In fact, government figures show that 
``technically recoverable'' undiscovered natural gas and oil resources 
on lands within America's Red Rock Wilderness Act amount to less than 4 
weeks of natural gas and roughly 4 days of oil at current consumption 
levels. Such a trivial amount will hardly make or break our nation's 
energy independence. On the other hand, as Wallace Stegner famously 
noted, ``Wilderness, once we have given it up, is beyond our 
reconstruction.''
Protecting Wilderness and Mitigating Climate Change
    If passed, America's Redrock Wilderness Act would permanently 
preserve some of the most stunning landscapes on earth, protect 
critical water sources and native plants, safeguard archaeological 
treasures, and preserve large blocks of habitat for native animals like 
bear, cougar, bald eagle, and bighorn sheep.
    Wilderness designation is also the best strategy for making our 
public lands as resilient as possible to the effects of climate change. 
The United States Geological Survey predicts that the Colorado Plateau 
will become hotter and drier over the next century, leading to more 
wildfires, increased water demands, and dwindling water resources. The 
result will be large dust storms, which we've already begun to see in 
southern Utah. This dust is carried on the wind all the way to 
Colorado, where it's deposited on mountain snowpack high in the 
Rockies. The dark colored dust absorbs heat, causing earlier spring 
run-off, which impacts everything from wildlife to agriculture to 
Colorado's multi-billion dollar ski industry. Protecting Utah's 
roadless BLM lands from the soil disturbance that accompanies roads and 
development would help mitigate this cycle of environmental damage 
while protecting the agricultural and recreational economies that rely 
on seasonal snowpack.
Support for Utah Wilderness
    America's Red Rock Wilderness Act is supported by 139 member of the 
U.S. House and 21 members of the Senate. It is also endorsed by the 
Sierra Club, Earthjustice, the Natural Resources Defense Council, The 
Wilderness Society, and over 200 member organizations of the Utah 
Wilderness Coalition. Most importantly, Americans throughout the state 
of Utah and across the nation support this visionary bill. In a 
September 2009, a Dan Jones statewide poll showed that just over 60% of 
Utahans that had a position supported protecting 9 million acres or 
more of Utah BLM wilderness.
Conclusion
    America's Red Rock Wilderness--with its soaring arches and plunging 
canyons--is a landscape that captures the soul and the imagination. It 
is the land of Old West Outlaws and Navajo legends, a place where 
ancient cultures have left their stories etched in stone. No other 
landscape in the United States--or even the world--is quite like it. It 
is one of the country's greatest assets; a global draw that can't be 
copied in china or done more cheaply in Bangladesh. These lands are, in 
part, our competitive advantage, yet because we did not sacrifice in 
their creation there are those who are challenged to understand that 
their highest economic and societal value is to leave then as they are. 
As Steward Brand once wrote: ``Natural systems are priceless in value 
and nearly impossible to replace, but they're cheap to maintain. All 
you have to do is defend them''.
    Let us remember that these wild lands have played an integral role 
in forging the uniquely American character and defining our humanity. 
When they are gone we will have lost something uniquely American. 
Please protect this national treasure for future generations by casting 
a vote for America's Red Rock Wilderness Act. Rest assured it will be 
good for wildlife, good for our air and water, good for the outdoor 
industry & the clean, sustainable outdoor economy, and good for the 
American public.
    Thank-you.
                                 ______
                                 
    Mr. Heinrich. Thank you, Mr. Metcalf.
    We are going to hear from Bryson, is it Garbett?
    Mr. Garbett. Garbett.
    Mr. Heinrich. Welcome, Mr. Garbett.

STATEMENT OF BRYSON GARBETT, FORMER UTAH STATE LEGISLATOR, SALT 
                        LAKE CITY, UTAH

    Mr. Garbett. Thank you, it is nice to be here. Parunuweap 
Canyon is a great example of the incomparable red rock lands 
that we have in Utah. I have returned many times to show it to 
friends and family. I have even gone through with my family, we 
spent four days. My toddler Mary was carried through this 
canyon by her oldest brother. My then 5-year-old Sam carried a 
backpack with an extra change of clothes and some snacks. His 
older brothers carried his sleeping bag and food. And you can 
see here a picture of my family, uncle, and some aunts and some 
cousins.
    Parunuweap is a beautiful oasis ringed by a rugged dry 
landscape. The stream that runs through it is clear and cool. 
Everywhere there are cottonwood trees and lush vegetation. 
Above this crystal clear stream rise the cliffs of the canyon. 
I have spent many nights looking up at the river of stars 
created by these sheer cliffs. On my first visit to Parunuweap 
I did notice one faint pair of offroad vehicle, or ORV, tracks 
in the canyon bottom that would disappear and reappear as we 
hiked along. There was certainly no route or road there.
    As I have returned over the years, those ORV tracks have 
increased, creating definite impact. It was shocking to see the 
damage done in the stream bottom. Now, unfortunately I 
understand that the Bureau of Land Management has designated 
this as a permissible route for ORVs. I am a witness of 
something that has gone from nonexistent to permitted within a 
few short years. If this use is allowed to continue, the canyon 
and all those species that depend on it will be substantially 
harmed.
    My name is Bryson Garbett. I am from Utah. My wife Jan and 
I have eight children that we have raised in Utah. In 1982 at 
the age of 28, I was elected as a Republican to the Utah 
Legislature. After my time in the Legislature, I turned my 
attention to my business and service in the community. I helped 
start Foundation Escalera, I served for six years on the Board 
of Directors of Salt Lake Habitat for Humanity and served one 
year as the president. I am the president of Garbett Homes. We 
provide work for hundreds of employees and subcontractors. I 
have been active in our trade association and am now the 
president of the Salt Lake Home Builders Association.
    Utah is an amazing place, unique in all the world with its 
beautiful and wild scenery that can be enjoyed in rare 
solitude. It is accessible and healing to all walks of life. 
Now it is facing daily threats, and only Congress can stop 
them. But it must act now or we may lose this amazing resource. 
Our current Federal wilderness areas such as the High Uintas 
are highly prized by both those in the state and those that 
come to visit. No one would say that this is a mistake.
    I have heard and read comments from people to the effect 
of, no Utahn likes this bill. Do these naysayers mean that no 
Utahn likes wilderness? This is ridiculous. People in Utah are 
no different than anywhere else. Those who have had experience 
with wilderness love it. They are uplifted by it and do not 
want to see it disappear. Most people in Utah have experienced 
wilderness. As well as hiking in it, they drive by it, they see 
pictures of it, they camp in it, they hunt and fish in it. I am 
only one of a majority of Utahns that want our wild areas 
preserved.
    I have heard others argue that 9 million acres are too 
much. To simply dismiss the bill based on that reason is a 
disservice to Utahns and Americans. It does not make sense. You 
must look at each area we are trying to protect and talk about 
the specific issues. America's Red Rock Wilderness Act was not 
just put on the map arbitrarily or fashioned by people juggling 
acreage numbers. It was formed by countless volunteers and 
professionals from Utah spending thousands of hours on the 
ground identifying mapping these areas.
    As a former legislator, I have been in your position. You 
must take a complicated issue and understand it and decide what 
is best. You do this day in and day out. I have great respect 
for the issues and challenges you face continually. I hope that 
you will give this issue the time and attention that it 
deserves. I have gone into Utah's wilderness with my young 
children and my older children. They love it. It is part of 
them. I know my experience is not unique among Utahns and 
Americans.
    For the millions of young Americans that want a chance to 
experience the beauty of wilderness, I ask you to support 
America's Red Rock Wilderness Act. I ask you to give this bill 
the serious time and effort it deserves. If you do not act, 
Utahns will lose out, Americans will lose out, and worst of 
all, future generations will lose out. Thank you.
    [The prepared statement of Mr. Garbett follows:]

      Statement of Bryson Garbett, Former Utah State Legislator, 
                   Salt Lake City, Utah, on H.R. 1925

    My name is Bryson Garbett. I am from Utah. My great grandmother and 
my great great grandfather were Utah pioneers. They made the journey 
from England across the ocean and then by covered wagons across the 
plains. I was born and raised in Utah and I was taught to appreciate 
those pioneers that made so many sacrifices to settle Utah.
    I am married to Jan VanDenBerghe Garbett. Her great great 
grandfather, Lemuel Hardison Redd, was one of the scouts for the Hole 
in the Rock expedition, which traversed much of Utah's redrock country 
and stopped in southeastern Utah. That is where he settled.
    We have eight children that we have raised in Utah. They were 
educated in our public schools.
    From the time I was a young man I have been involved in politics. 
At eighteen I voted in the first national election an eighteen-year-old 
could vote in. At twenty-two I was elected as a delegate to the 
Republican state nominating convention. It was 1976. We nominated a 
young attorney by the name of Orrin Hatch to run against the long time 
incumbent, Ted Moss. At twenty-eight, in 1982, I was elected to the 
Utah Legislature. Those were tough times for Utah's economy; I was the 
chief sponsor of the Interstate Banking Act. This bill revamped banking 
and capital in Utah and allowed banks from other states to come and do 
business in Utah. Before that it was very difficult for banks to do 
that. It brought much more capital into the state.
    After my service in the Legislature I turned my attention to my 
business and service in the community. I am one of the founders of 
Foundation Escalera, a humanitarian organization providing a step up to 
impoverished communities in Mexico. We do this through education, 
thereby giving young people the tools they need to stay in Mexico and 
provide for their families. I served for six years on the board of 
directors of Salt Lake Habitat for Humanity and served one year as the 
President in 2007-2008.
    I am the President of Garbett Homes which provides work for 
hundreds of employees and sub contractors. We have been a leader in 
building good communities with homes that Utahns can afford. Even in 
these very tough economic times we continue to sell homes. I have been 
very active in our trade association and I am now the President of the 
Salt Lake Home Builders Association.
    We are here today to talk about America's Red Rock Wilderness Act. 
I have visited many of these areas over my lifetime. My father was a 
loan guaranty officer for the Veteran's Administration. He would travel 
the state to check on homes and borrowers. He would take me with him. 
In the early 1960s we would drive throughout Utah visiting many small 
towns. I still remember being in the government car driving on the 
backroads of our state. It was summer and the windows would be down and 
the warm wind would rush in. We would pass green pastures with cows and 
horses, old barns, and miles of barbed wire fences with old pine poles. 
We would stop in little towns and eat broasted chicken in the cafe on 
Main Street. What I remember best were the large open spaces with 
redrock everywhere and hardly anyone on the road. I would stick my head 
out to get a closer look at those huge red mountains and wonder if 
anyone lived up on top of those red mesas with the shear red walls and 
the green table tops.
    This was the spark for my interest in these isolated and wild 
places. I have now been in many of those places that we drove by in the 
early 1960s.
    Wilderness in Utah is unique in all the world and it is one of our 
greatest state and national resources. It is incredibly beautiful but 
also very fragile.
    I mentioned earlier that I have eight children. Raising a family is 
the hardest thing I do. As a young father I looked for something that 
we as a family could do together. I could not afford a boat, as many 
families could. In fact there were many things I could not afford. 
However, I did think we could backpack. I was a novice, so we learned 
together. When we went into these areas proposed for wilderness we were 
isolated. It was just us and what we could carry on our backs. No 
iPods, no phones, no TVs, no newspapers. We grew closer together and we 
visited wondrous places. I have seen other families in Utah have this 
same experience. Our experience is not unique.
    The first place we went was to Grand Gulch, which is proposed for 
wilderness designation in America's Red Rock Wilderness Act. I was 
nervous and a little afraid. I hoped we would make it out alive. As we 
started on the trailhead I scanned the comments left by those on their 
way out in the trail register. ``Amazing!, Great Ruins!'' and even ``It 
changed my life.'' That trip would change our lives. We survived. There 
is something I can't describe about being on your own. Leaving all the 
modern noise behind and living in the open and surviving. However on 
that trip I had new boots and my feet were pretty beat up so I wrote in 
the register, ``changed my feet.''
    Since then we have been to many areas proposed for wilderness 
designation in America's Red Rock Wilderness act: Dark Canyon; the San 
Juan River, which includes Lime Creek and Valley of the Gods; the Dirty 
Devil River (I have included a picture of this area with my testimony); 
Upper Horseshoe Canyon; Mexican Mountain; Death Hollow; Labyrinth 
Canyon; Little Wild Horse Canyon; Muddy Creek; Devil's Canyon (picture 
included at the end of my testimony); North Escalante Canyon, Paria-
Hackberry Canyon; Parunuweap Canyon (also pictured); Orderville Canyon; 
Notch Peak; the Wah Wah Mountains; and the White River. I have also 
been to Canaan Mountain, Goose Creek, and Kolob Creek, which are places 
in America's Red Rock Wilderness Act that are now protected thanks to 
the efforts of Utah's Senator Bennett and Representative Matheson. And 
not to leave out Representative Bishop, my family has greatly 
appreciated the Cedar Mountains Wilderness Area--an area formerly 
included in America's Red Rock Wilderness Act--that he worked to 
protect.
Parunuweap Canyon
    Parunuweap Canyon is a great example of the incomparable redrock 
lands that we have in Utah. I have returned many times to show it to 
friends and family. Eventually flowing into Zion National Park, 
Parunuweap--a Piute word meaning whitewater or roaring water canyon--
was formed by the East Fork of the Virgin River. Parunuweap was visited 
by the explorer John Wesley Powell. We pass the plaque erected to him 
on the canyon wall when we leave the canyon.
    I have even explored it with my whole family. My daughter, Mary, 
was carried by her oldest brother and shared a sleeping bag with her 
older sister. My then five-year-old, Sam, carried a backpack with an 
extra change of clothes and some snacks. His older brothers carried his 
sleeping bag and food.
    Parunuweap is a beautiful oasis ringed by a rugged, dry landscape. 
The stream that runs through it is clear and cool. Everywhere there are 
cottonwood trees and other species. Above this crystal clear stream 
rise the cliffs of the canyon. As you travel farther downstream the 
walls become higher, straighter, and closer together until they are 
only a few yards apart. I have spent many nights looking up at the 
river of stars created by these sheer cliffs. The canyon is full of 
freshwater springs where we loved to refill our water bottles and eat 
watercress growing nearby.
    As a side note, a former Representative from Utah once proposed a 
wilderness bill that would have designated Parunuweap Canyon as 
wilderness but would have allowed for the construction of a reservoir, 
transmission lines, and a road in this area. (See Utah Public Lands 
Management Act of 1995, H.R. 1745, 104th Cong. Sec. 9(1)(C) (1995)).
    On my first visit to Parunuweap I did notice one faint pair of off-
road vehicle, or ORV, tracks in the middle of the canyon in the stream 
bed that would disappear and reappear as we hiked along. There was 
certainly no route or road in the canyon bottom. As I have returned 
over the years those ORV tracks have increased, creating definite 
impacts. It was shocking to see the damage done in the riparian stream 
bottom, a rare gem in the middle of the desert. Now, I understand, the 
Bureau of Land Management (BLM) has designated this as a permissible 
route for ORVs. I am a witness of something that has gone from non-
existent to permitted within a few short years. If this use is allowed 
to continue there is a real danger the canyon, and all of those species 
that depend on it, will be substantially harmed.
White River
    The White River is located in northeastern Utah. It is a remarkable 
deep canyon that sits as an island in a sea of oil and gas development. 
It is an easy place to visit and an easy river to run. We canoed it. If 
we could do it, anybody can do it. I did it with my young boys and 
another family and we knew nothing about how to paddle a canoe but we 
wanted to see that part of the country. I only learned about this area 
because it was part of America's Red Rock Wilderness Act and my son had 
read about it in Wilderness at the Edge (the Utah Wilderness 
Coalition's detailed description of its earlier wilderness proposal).
    In the canyon and on the river we enjoyed the scenery and the 
solitude. I remember the sweeping bends and the beautiful placid water 
that reflected the rugged cliffs looming above us. As we approached the 
river and as we left we saw one gas well after another. We understand 
that those wells are important to Utah's economy. However, the White 
River's deep canyon is so spectacular that surely a small inconvenience 
to unfettered development is worth the price. It will offer a welcome 
relief, a refuge, to all who paddle down its placid waters from the 
development around it. With thought and clear boundaries this area can 
easily be preserved. To that end, I understand that supporters of 
America's Red Rock Wilderness Act were able to reach an agreement with 
Anadarko Petroleum Corporation (the federal lessee in parts of this 
area) which clearly defined acceptable areas for natural gas 
development while protecting much of the northern half of the proposed 
White River wilderness.
    Unfortunately, the remainder of the White River is still 
threatened. With no planning it will clearly be lost.
Labyrinth Canyon
    The Green River is a singular river that flows through a good part 
of the state. It has many varied phases in the miles it covers. As is 
approaches Canyonlands National Park from the north it becomes calm and 
tranquil. It is the perfect place to take families for a great time on 
a remarkable river in the middle of redrock country. It would also be a 
perfect place to take the infirm or those with disabilities who might 
not be able to access the rugged heart of wilderness on foot. There are 
no rapids in Labyrinth Canyon, any novice could float it.
    I spent three days on this trip. It was in March. The air was crisp 
and the sun bright. We traveled through the wide canyon with beautiful 
redrock walls. As we lazily paddled, the most amazing scenery floated 
by us. It is not just the scenery that makes Labyrinth Canyon special 
but as each mile goes by the hustle and stress of another world seems 
to fade. Nothing was threatening; the water was easy, we saw huge 
herons and cranes, we basked in the silence and stillness of this 
gentle place. The river reflected the canyon walls. When we were hungry 
we snacked as we paddled or found a sunny spot and pulled our canoes 
over, maybe napping for a moment or two after lunch.
    Labyrinth Canyon is part of America's Red Rock Wilderness Act. 
Unfortunately, the BLM has not recognized, nor afforded this entire 
spectacular, tranquil canyon the wilderness-like management and respect 
it deserves.
    On the second day of my trip through Labyrinth Canyon the 
remarkable silence of the area was shattered by the noise and dust of 
two very loud motorcycles. I was shocked to learn that the BLM was 
allowing motorcycles to travel down Labyrinth Canyon and along the 
Green River. This seemed ill advised; no place in Utah was better 
suited for making a true wilderness experience accessible to all walks 
of life. That day, when the stillness of the canyon was shattered by 
the roaring of the bikes, was a stark reminder of the fleeting and 
sensitive nature of wilderness. It was as if the city had been plopped 
into the middle of wilderness. It was out of place and made no sense in 
that setting.
Devil's Canyon
    Devil's Canyon was a hard hike through a fantastic part of 
America's Red Rock Wilderness Act. Not only was it a spectacular, 
narrow redrock canyon but it was easy to access. It runs right next to 
I-70. When we first started the hike we could even hear the cars 
traveling on the freeway but that soon faded. It was challenging but 
unlike other places I have been. There was no running water. We had to 
drink from an alkali spring full of hair from cows. I did not know you 
could drink such bad tasting water and live. We did just fine.
    The day we climbed out of the canyon to start the long hike back to 
our car I was amazed. As we made our way from the bottom of the canyon 
to the desert above the route we took seemed like a spiral staircase 
circling round and round with fantastical rock formations on the canyon 
wall. I have never forgotten it.
    On all our trips we are very careful where we walk. The floor of 
the desert is so fragile. It is often kept from eroding by small 
organisms living on top of the soil. One step in the wrong place can 
destroy these sensitive organisms and may mean erosion and lost soil.
    On our Devil's Canyon trip we spent three days carefully watching 
where we stepped and walked. However, not everyone shared our caution. 
On exiting the canyon we heard the high-pitched whine of motorcycles. 
We shortly came upon their tracks and were angered to see all of the 
damage that they had wrecked from a few moments of joy riding in an 
area miles away from any roads. In the sensitive desert, where even an 
errant footstep can have noticeable impacts you can understand what 
kind of unnecessary havoc the churning, spinning, careening tire of a 
motorcycle will cause. We were all very sad to see such destruction.
Wilderness Is Important
    I have been a few places throughout the world. Utah is an amazing 
place; unique in all the world with its beautiful and wild scenery that 
can be enjoyed in rare solitude. It is accessible and healing to all 
walks of life. Now, it is facing daily threats and only Congress can 
stop them. But it must act now or we may lose this amazing resource. We 
are just beginning to see the economic value of all this to our state 
and country. Our current federal wilderness areas such as the High 
Uintas are highly prized by both those in the state and those that come 
to visit. No one would want to turn back the clock on the High Uintas 
and prevent it from being designated wilderness.
    I have heard and read comments from people to the effect of ``no 
Utahn likes this bill.'' Do these people mean that no Utahn likes 
wilderness? That is ridiculous. People in Utah are no different than 
anywhere else. Those who have had experience with wilderness love it. 
They are uplifted by it and do not want to see it disappear. Most 
people in Utah have had experience wilderness. As well as hiking in it, 
they drive by it, they see pictures of it, they camp in it, and they 
hunt and fish in it. Every person in the Salt Lake, Utah, and Cache 
valleys can see federally-protected wilderness areas as they face east 
and look at the Wasatch Mountains. Likewise, those people living in 
Tooele, Nephi, Brigham City, and Washington County can easily glimpse 
protected wilderness from their homes. It seems that two-thirds of our 
entire state may have a view of a federal wilderness area from some 
window in their house.
    Elected officials and promoters for the state realize what we have. 
When they market their counties to others the first thing they pitch is 
usually the beautiful natural areas of Utah, including wilderness 
areas.
    I have heard others argue that ``9 million acres are too much.'' To 
simply dismiss the bill based on that reason is a disservice to Utahns 
and Americans. It does not make sense. You must look at each area we 
are trying to protect and talk about the specific issues. America's Red 
Rock Wilderness Act was not just put on the map arbitrarily or 
fashioned by people juggling acreage numbers to see what sounded good. 
It was formed by countless volunteers and professionals spending 
thousands of hours on the ground identifying and mapping these areas.
    How much land should be protected is a valid point of discussion. 
There are many questions that could and should be asked. ``What is it 
you would like to take out of this proposal? What is it that you think 
should not be protected? What do you think should be protected?'' These 
are good questions that deserve responses from both sides of the issue. 
I do not think there is anyone that has been to Utah, that has seen 
these lands, and that is interested in future generations that would 
say that nothing should be preserved. So for an elected official to 
dismiss the bill just because it sounds like too much to some vocal 
minority does his constituents, future generations, and all Americans a 
disservice.
Conclusion
    As a former legislator I have been in your position. You must take 
a complicated issue and understand it and decide what is best. You do 
this day in and day out. I have great respect for the issues and 
challenges you face continually. I hope that you will give this issue 
the time and attention that it deserves.
    I have gone into Utah's wilderness with my young children. They 
love it. It is a part of them. For the millions of young Americans that 
want a chance to experience the beauty of wilderness I ask you to 
support America's Red Rock Wilderness Act. If you do not act Utahns 
will lose out, Americans will lose out, and, worst of all, future 
generations will lose out.
                                 ______
                                 
    Mr. Heinrich. Thank you, Mr. Garbett. We have just had our 
last vote of the week called, so we are going to take a quick 
recess here, it shouldn't take us long to come back, and then 
we will resume with Mr. Anderson's testimony.
    [Recess.]
    Mr. Heinrich. Welcome back. We are going to get started 
here again and finish up the panel with Rocky Anderson, former 
mayor of Salt Lake City, Utah. Mr. Anderson, you can get 
started whenever you are ready.

           STATEMENT OF ROSS C. ``ROCKY'' ANDERSON, 
              FORMER MAYOR OF SALT LAKE CITY, UTAH

    Mr. Anderson. Thank you very much. My name is Ross C. 
``Rocky'' Anderson. I have lived all but three years of my life 
in Utah and was privileged to serve as mayor of Salt Lake City 
from 2000 to 2008. Thank you, Congressman Hinchey, for your 
long time commitment to America's Red Rock Wilderness Act, 
particularly after you took the torch from the initial sponsor, 
former Utah Congressman Wayne Owens, a remarkable man who 
understood the tremendous responsibility we have to preserve in 
their untrammeled state majestic places that make the State of 
Utah so magnificently unique.
    This bill was initially developed in 1989, but there is a 
real urgency now because of the imminent, constant threat to 
the wilderness character of these lands posed by the explosion 
of offroad vehicle use and the consequences of climate change. 
If nothing is done now, these last remaining wild places will 
succumb to desecration by offroad vehicle abuse and other forms 
of development. My support for Utah wilderness is informed by 
the experiences I have had hiking and camping in Utah's wild 
lands as well as experiencing the direct benefits of leading 
Utah's capital city adjacent to thousands of acres of 
designated wilderness.
    For me as well as for millions of others, the experience of 
getting away to hike, explore, and camp in wilderness areas 
away from the noise, pollution, and land corrupting 
mechanization of our times is soul inspiring beyond measure. 
Just a few weeks ago my son and I backpacked in the proposed 
Death Hollow Wilderness, near Escalante, Utah, and will never 
forget the beauty, the solitude, and the utter wildness of the 
spectacular landscape.
    Wilderness designation is often controversial. The Wasatch 
Wilderness area is adjacent to Salt Lake City for a case and 
point. Here you can see Salt Lake City and thousands of acres 
of designated wilderness, the Mt. Olympus Wilderness, Twin 
Peaks Wilderness, Lone Peak Wilderness, Mt. Timpanogos 
Wilderness, Deseret Peak Wilderness, and the Cedar Mountain 
Wilderness. Thanks very much.
    When wilderness designation of those areas was under 
consideration, some of those areas, especially the Lone Peak 
Wilderness area, Salt Lake City and the Salt Lake Health 
Department actually argued against designating Lone Peak as 
wilderness. They made many of the same arguments that we hear 
today in opposition to Wilderness designation. They said they 
feared that wilderness designation would make it difficult to 
protect the water quality of this area. In fact the experience 
has been just the opposite.
    Both of Utah's House Members at that time opposed 
wilderness designation for Lone Peak. Now we know that they 
were all wrong on every count. I doubt that any member of 
Utah's Congressional Delegation or any elected official or just 
about anybody throughout the State of Utah would support the 
repeal of that wilderness designation today. Wilderness 
adjacent to Salt Lake City has been of tremendous benefit to 
our community because it creates needed open space for the 
increasingly dense urban population of Salt Lake Valley and 
surrounding areas, world renowned recreational opportunities, 
and vital protection for our watershed.
    The dynamic occurring now is typical. Almost every time 
lands are proposed to be protected as national parks, national 
monuments, or wilderness, there are naysayers who raise many of 
the same complaints we hear today about America's Red Rock 
Wilderness Act. Yet after the protections are in place, people 
look back with gratitude for the farsightedness and leadership 
of those who made certain the exquisite nature of these 
magnificent places will be preserved for our children and for 
later generations.
    A recent Dan Jones poll, as indicated earlier, we hear a 
lot about this top down approach, actually of those who have 
decided on the matter, 60 percent of Utahns who have developed 
an opinion want to see 9 million acres or more of Federal lands 
in Utah protected as wilderness. Millions of Americans 
understand that Federal stewardship and protection of these 
amazing places are not a burden but are of tremendous benefit 
and are a great treasure to our state and our nation.
    When considering this vital measure, please harken to the 
words of Utah native Terry Tempes Williams, ``If you know 
wilderness in the way that you know love, you would be 
unwilling to let it go.'' Utah's Red Rock wilderness is a gift 
we should not squander. Please embrace this farsighted 
opportunity without any further delay in service to the world 
and to later generations.
    [The prepared statement of Mr. Anderson follows:]

        Statement of Ross C. ``Rocky'' Anderson, Former Mayor, 
                   Salt Lake City, Utah, on H.R. 1925

    Thank you for the opportunity to testify before this subcommittee 
regarding America's Red Rock Wilderness Act, H.R. 1925. My name is Ross 
C. ``Rocky'' Anderson. Except for three years of law school in 
Washington, D.C., I have lived my entire life in Utah and was 
privileged to serve as Mayor of Salt Lake City from 2000-2008.
    Thank you Congressman Hinchey, for your commitment to this 
legislation, particularly after you took the torch from former 
Congressman Wayne Owens, a remarkable man who understood the tremendous 
responsibility we have to preserve, in their untrammeled state, the 
majestic places that make the State of Utah so magnificently unique. 
Thank you, Chairman Grijalva, for co-sponsoring America's Red Rock 
Wilderness Act and for giving us this opportunity to discuss the 
critical and timely issue of protection for Utah's--and and America's--
wild lands.
    This far-sighted bill was initially sponsored by Congressman Owens 
in 1989, but there is a real urgency now because of the imminent, 
constant threat to the wilderness character of these lands posed by the 
explosion of off-road vehicle use and the consequences of climate 
change. If nothing is done to assume the responsibility we have as 
stewards of these lands, the matter of Utah wilderness will be decided 
by default when these last remaining wild places succumb to desecration 
by off-road vehicle abuse and other forms of development.
    In 1960, Wallace Stegner, a westerner and former Utahn, articulated 
the imperative for wilderness with these words:
        ``Something will have gone out of us as a people if we ever let 
        the remaining wilderness be destroyed; if we permit the last 
        virgin forests to be turned into comic books and plastic 
        cigarette cases; if we drive the few remaining members of the 
        wild species into zoos or to extinction; if we pollute the last 
        clear air and dirty the last clean streams and push our paved 
        roads through the last of the silence, so that never again will 
        Americans be free in their own country from the noise, the 
        exhausts, the stinks of human and automotive waste.''
Wallace Stegner, The Wilderness Letter, 1960.
    The warning in these words is unmistakable, but I have confidence 
in our ability, as Americans who value the preservation of these wild 
places and who recognize our responsibilities toward future 
generations, to exercise the wisdom to prevent Wallace Stegner's grim 
depiction of a landscape without wilderness from ever happening.
    America's Red Rock Wilderness Act is a bold vision for Utah 
wilderness born out of the work of thousands of Utahns who care deeply 
for our wild lands. It lays the framework for what is possible to 
protect the ``wild west'' landscapes of Utah's Colorado Plateau, and 
the starkly beautiful Basin and Range landscapes of our West Desert.
    My support for Utah wilderness is informed by the experiences I've 
had hiking and camping in Utah's wild lands, as well as experiencing 
the direct benefits of leading a major urban area adjacent to thousands 
of acres of designated wilderness.
    My experiences of Utah's wild landscapes are part of the reason I 
chose to move back to Utah after law school. For me, as well as for 
millions of others, the experience of getting away to hike, explore, 
and camp in wilderness areas--away from the noise, pollution, and land-
corrupting mechanization of our day--is soul-inspiring beyond measure. 
Just a few weeks ago, my son and I backpacked in the proposed Death 
Hollow wilderness, adjacent to the Box Death Hollow Wilderness Area 
near Escalante, Utah, and will never forget the beauty, the solitude, 
and the utter wildness of the spectacular landscape.
    As Mayor of Salt Lake City, I was so pleased to introduce visitors 
to our nearby wilderness areas, assets to our city whose tremendous 
uniqueness and value is no longer questioned--although, before the 
wilderness designations of those areas, many of the same arguments were 
made by opponents that we hear now in opposition to the Red Rock 
Wilderness Act.
    In fact, before the wilderness designation of Lone Peak wilderness, 
both Salt Lake City and the Salt Lake City-County Health Department 
argued against the designation. They expressed fears that wilderness 
designation would make it difficult to protect the water quality of 
this area. Both of Utah's House members at that time opposed wilderness 
designation for Lone Peak. (U.S. Forest Service, Uinta National Forest-
Wasatch National Forest, Intermountain Region, Region 4, ``Lone Peak 
Wilderness Study, Study Report, Final Environmental Statement,'' 1976, 
1, Appendix B; ``Lawmakers Ask to Keep Lone Peak as 'Scenic,''' Deseret 
News, 3 March 1977).
    Today, everyone would agree that those concerns and fears were 
entirely misplaced. The naysayers were wrong on every count. Wilderness 
adjacent to Salt Lake City has been of tremendous benefit to our 
community. It creates needed open space for the increasingly dense 
urban population of Salt Lake Valley and surrounding areas, world-
renowned recreational opportunities, and vital protection for our 
watershed.
    The dynamic of opposition and fear is typical. Almost every time 
lands are proposed to be protected as National Parks, National 
Monuments, and wilderness, vocal opponents raise many of the same 
complaints we hear today about America's Red Rock Wilderness Act Yet 
after the protections are in place, people generally look back with 
gratitude for the foresightedness of those who made certain the 
exquisite nature of these magnificent places will be preserved for our 
children and for later generations.
    Our realization as a community about the importance of undeveloped 
wild lands to our water supply and quality of life was demonstrated 
during my tenure as Mayor when Salt Lake City purchased 155 acres in 
Big Cottonwood Canyon to create the Willow Heights Conservation Area 
and another 149 acres to preserve Donut Falls, both of which will now 
be protected in perpetuity from development. We knew that, once 
developed, these pristine areas would be destroyed forever.
    Most Utahns support Utah wilderness. Over the years Salt Lake City 
residents have frequently told me how important this issue is to them. 
This support shows up in the bright yellow ``Protect Wild Utah'' bumper 
stickers that are on so many vehicles in the Salt Lake City area, 
including my own. This support was demonstrated recently by a statewide 
survey of Utahns conducted by Dan Jones and Associates, which reflects 
that 60% of people who have developed an opinion on the matter want to 
see nine million acres or more of the federal lands managed by the 
Bureau of Land Management protected as wilderness. (Dan Jones & 
Associates, A Study Conducted for Southern Utah Wilderness Alliance, 
General Public Study, Longitudinal Data, September 2009).
    Those in Utah who resist protection of these places should take a 
clue from the visitors to our state who come to Utah, and keep coming 
back, because they are in awe of the geography they find there. Where 
else in the world can you go from the inspiring granite peaks of 
mountains like the Wasatch to the red rock splendor of the San Rafael 
Swell in a four hour drive?
    The beauty of the landscape is an astounding resource for Utah that 
sets it apart from most other places in the world, providing Utahns 
remarkable opportunities for outdoor recreation and serving as a magnet 
for tourists from other parts of the country and world. In a study of 
the economic impact of National Parks in Southeast Utah by the National 
Parks and Conservation Association, released in 2009, the authors 
report that: ``In 2006, over 1.2 million visitors came to Arches and 
Canyonlands National Parks, spending some $99 million during their 
visits.'' Economists estimate that this spending supported 2,315 jobs. 
(National Parks and Conservation Association, Landscapes of 
Opportunity: The Economic Influence of National Parks in Southeast 
Utah, April 2009, p. 7).
    Long-term, sustainable economic development is best promoted by 
providing for low-impact recreational use. It will help generate the 
greatest monetary benefit from federal lands for the longest period of 
time.
    Adaptation to the impacts of climate change is another significant 
benefit of protecting large swaths of wild lands on the Colorado 
Plateau and in the west desert. The U.S. Geological Survey predicts 
that by 2050 soil conditions on the Colorado Plateau will be worse than 
those typical of the Dust Bowl. And, as we know from the Dust Bowl 
years, dry soil, especially if it is disrupted by human activity, 
easily becomes airborne, forming dust storms. Studies by the U.S. 
Geological Survey also show that undisturbed dry soil develops a 
fragile, but important crust, and the accompanying ecosystem of 
symbiotic life forms growing in that crust helps to keep it in place 
during high winds. Disruption of the soil by off-road vehicles results 
in crushing of plants, soil crust, and anything else in the way, 
loosening the soil to be carried away. (U.S. Geological Survey, Impacts 
of Climate Change on Water and Ecosystems in the Upper Colorado River 
Basin, August 2007).
    Dust from Utah's Colorado Plateau is already a problem in Colorado, 
landing in the Colorado Rocky Mountains. Scientists have been tracking 
these dust storms for six years. In 2009, a record number occurred. As 
the red dust from the Colorado Plateau lands on snow, it increases the 
heat absorption of the snow, causing it to melt much faster. (Thomas 
Painter, Presentation, ``Dust on Snow Panel: What's the Dirty Secret of 
Dirty Snow?,'' Colorado River District Annual Water Seminar, September 
18, 2009; Thomas H. Painter et al., ``Impact of Disturbed Desert Soils 
on Duration of Mountain Snow Cover,'' Geophysical Research Letters, 
Vol. 34, L12502, 2007).
    A contributing factor to soil disruption is the dramatic increase 
of off-road vehicle use. The pressing need for thoughtful management of 
these vehicles grows stronger with each new one that enters Utah's wild 
lands. Unless protections are enacted soon, there will be very few 
places for humans to go without the noise, pollution, and destruction 
of the land caused by ORVs.
    Even with enactment of America's Red Rock Wilderness Act, there 
will still be 17,000 miles of dirt roads, jeep trails, and old mining 
tracks for off-road vehicle enthusiasts to enjoy on BLM lands on the 
Colorado Plateau. That figure does not include all trails in the Grand 
Staircase-Escalante National Monument. Those who say we are ``locking 
up the land'' and no one will have access to it except for backpackers 
and horse-packers should understand that they will have access too 
because 70% of the land proposed for wilderness designation within 
America's Red Rock Wilderness Act is within eight city blocks of a 
motorized route.
    Another argument we hear against America's Red Rock Wilderness Act 
is that it will inhibit energy development in Utah. But the facts don't 
bear this out. Utah holds approximately 2.5% of the country's proven 
oil reserves. The technically recoverable, undiscovered natural gas and 
oil resources on land within America's Red Rock Wilderness Act amount 
to less than twenty-three days of natural gas and approximately 6.5 
days worth of oil at current rates of consumption. (U.S. Department of 
Energy, Energy Information Administration, visited September 2009).
    Some are worried about the impact of Utah wilderness designation on 
school trust lands. Wilderness designation is actually a good thing for 
Utah's schools and students. Trust lands within wilderness can be 
traded for federal land with greater revenue-generating potential. 
America's Red Rock Wilderness Act can serve as a catalyst for 
exchanging the scattered, difficult-to-develop school trust lands for 
amalgamated blocks of land in areas more appropriate and more promising 
for development. For example, when the Grand Staircase-Escalante 
National Monument was designated it created impetus for a large land 
exchange to remove all trust lands within the monument's boundaries. 
The United States gave Utah's school kids $50 million in cash and large 
acreages of land productive for energy development. Trust lands within 
the Monument were traded for federal land at Drunkards Wash, near 
Price, Utah, among other places. Drunkards Wash is an extremely 
profitable natural gas field. In 2006, this field alone provided 60% of 
all state trust land oil and gas revenue. (State of Utah, School and 
Institutional Trust Lands Administration, Tenth Anniversary Report 
(July 1, 1994 to June 30, 2004); Report to the Utah Legislature, A 
Performance Audit of the School & Institutional Trust Land 
Administration (SITLA), Number 2006-01, January 2006, pp. 8-9).
    Finally, there are those, including Representatives from Utah, who 
argue that the federal government was required, constitutionally or 
otherwise, to give up its lands in Utah at the time of statehood. The 
Congressman from Utah's First Congressional District has maintained in 
a recent op-ed piece in Utah's major daily newspaper that the U.S. 
Constitution contains a provision giving rise to the Equal Footing 
Doctrine and that somehow that doctrine forbids federal ownership of 
lands in states at the time of statehood. Actually, Article IV of the 
Constitution, cited by the Congressman, says no such thing. Further, 
the 1894 Enabling Act for Utah to be admitted to the Union makes 
several references to continued federal ownership of lands, including, 
under Section 3, (1) a requirement that Utahns disclaim all right and 
title to the unappropriated public lands lying with the boundaries of 
the State; (2) a requirement that until the United States extinguishes 
its title to lands, they shall remain subject to the disposition of the 
United States; and (3) a prohibition that ``no taxes shall be imposed 
by the State on lands or property therein belonging to or which may 
hereafter be purchased by the United States.'' (Emphasis added.)
    Were the county supremacists correct about the Equal Footing 
Doctrine, one wonders why they have not pursued their claims in the 
courts. The United States Court of Appeals rejected that very claim 
(United States v. Gardner, 107 F.3d 1314 (9th Cir. 1997))--and the U.S. 
Congress obviously gives it no credence because of the many bills it 
has passed relating to the management and control over federal lands, 
which the Property Clause of the Constitution clearly contemplates.
    While it is true the federal government does not pay property taxes 
on the land it owns in Utah, it does provide the state with ``payment 
in lieu of taxes,'' under which Utah receives the third highest amount 
in the nation. Also, Utah ranks 18th in the nation, on a per capita 
basis, of land within the state that is not owned by the federal 
government.
    Many good reasons support enactment of America's Red Rock 
Wilderness Act. When considering this vital measure, please hearken to 
the words of Utah native Terry Tempest Williams:
        ``If you know wilderness in the way that you know love, you 
        would be unwilling to let it go.''
(Terry Tempest Williams, Testimony, Milkweed Editions, 1996)
    Utah Congressman Wayne Owens understood this, Utahns understand 
this in greater numbers than ever before, and people outside of Utah 
understand this. Utah's red rock wilderness is a gift we should not 
squander. Please embrace this far-sighted opportunity, in service to 
the world and to later generations, without any further delay.
                                 ______
                                 
    Mr. Heinrich. Thank you. I have a couple of questions, and 
then we will move on to the rest of the panel. I wanted to ask 
Commissioner Jones, I believe you mentioned in your testimony 
that you thought that many stock ponds would be obliterated as 
a result of wilderness designation, and I am curious what you 
meant by that because I have worked very closely with 
Congressman Tom Udall for example on the Ojita Wilderness Act 
in New Mexico, there are a number of stock ponds in that 
designated wilderness now and they continue to be maintained. 
How would stock ponds be obliterated by wilderness designation?
    Mr. Jones. I have been led to believe that in wilderness 
areas that you are not allowed to take equipment in. So stock 
ponds and so forth that has been built out in that rugged 
terrain where they have used backhoes and so forth to maintain 
them would no longer be available, not only for the cattle but 
for big game and so forth that is living in those areas.
    Mr. Heinrich. You might want to take a look at that, 
because I believe the Agency is actually allowed to maintain 
those facilities with the least intrusive tool, and that has 
resulted in many stock ponds in wilderness areas throughout New 
Mexico, Arizona, and other places being maintained for many 
years. So I would just encourage you to look closely at that.
    Mr. Metcalf, you mentioned in your testimony that in times 
of economic hardship people turn to the great outdoors. And you 
stated that the outdoor industry is seeing extraordinary growth 
in sales. Why should wilderness matter to folks who are in the 
midst of a difficult economic downturn?
    Mr. Metcalf. That is a good question, thank you. It appears 
through our history that in difficult economic times people do 
turn to the wilderness for their recreation, rejuvenation, I 
think in part because it is inexpensive to do, you can get some 
gear and it is not expensive, I think in part because they look 
for physical challenge, and I think they look for the spiritual 
inspiration that places like wilderness give them, getting away 
from the city, the urban setting, and a lot of other people. So 
it is just what human beings seem to do in periods of economic 
downturns.
    Mr. Heinrich. Thank you. Mr. Garbett, I know you mentioned 
that in your time looking at these places that you have seen an 
increase in ORV use. And as a former outfitter guide myself who 
spent a number of years taking kids on educational trips into 
the midst of the proposed wilderness in southeastern Utah, 
particularly in places like Cedar Mesa, I have seen more and 
more offroad vehicle use and more offroad vehicle use in places 
that it clearly didn't have routes before, oftentimes in 
blatant disregard for signage. What are your real concerns with 
this issue, and can you describe the trend that you have seen 
over the years?
    Mr. Garbett. Yes, I think I can do that with a couple of 
examples. When we go into the wilderness with a group like you 
saw in the picture here, we go in and we are very careful about 
where we go. We take out everything that we pack in, we don't 
even have fires, so that you wouldn't even know that we had 
been there if you came the day after we had been there.
    And one time, let me give you an example of, we were in 
Devil's Canyon, and we were very careful for three days of 
where we were walking, and on the way out we heard, you know, 
that whiny noise of motorcycles. And as we came over the rise 
we could see where they had been, and the landscape was just 
devastated, it was sad to see how much had been torn off, they 
were off the road. And you probably have all seen vacant lots 
in your neighborhood where motorcycles have been. Nothing grows 
there.
    And when you see motorcycles, when they go through there, 
it is decades before that damage is repaired. The same thing 
happened when we were going down the Green River, and we were 
two days of floating down that river, which is very calm. 
Anybody can go on that river and the scenery is beautiful. But 
on the second day, again, we heard the motorcycles and it was 
just like the city all of a sudden came crashing back. And two 
motorcycles were going up and down the Green River, and I 
understand that by Labyrinth Canyon, the BLM is now allowing 
motorcycles to do that, but the same damage was done there. And 
it takes a long time to repair that kind of damage.
    Mr. Heinrich. Thank you. I assumed when you said the Green 
River and calm, you must be describing Labyrinth Canyon.
    Mr. Garbett. Labyrinth Canyon, exactly.
    Mr. Heinrich. And not Desolation and Gray Canyon and a 
number of other stretches.
    Mr. Garbett. Not Desolation, no. You must know them well.
    Mr. Heinrich. I have spent a lot of time in that country. I 
am going to waive the balance of my time and turn things over 
to the Ranking Member Bishop.
    Mr. Bishop. Thank you. I appreciate once again all of you 
coming out from Utah and the tremendous patience that it takes 
to be here as a panelist for these meetings, especially 
Lieutenant Governor Bell. By the way, Gary used to say if you 
covered his left eye it looked like Governor Herbert, so is it 
now still Governor Bell when you do that?
    Mr. Bell. I make no pretense on that.
    Mr. Bishop. OK, fine. But having served in the Legislature, 
and with Bryson, I hope you get the frustration that many of us 
who have served in legislative bodies have with this area. This 
is a place of horrendous time management, which means, as you 
know in Utah, when there is a committee hearing it is 
anticipated everyone will be in the committee. Committee 
actions are there, and there is no overlap between Floor time 
and committee time. Someday, if I live long enough, that is 
going to be one of the reforms we actually make around this 
place so we don't have these kind of 30-minute vacations for 
you in the middle of it all.
    Lieutenant Governor, I do want to talk to you for just a 
minute about some of the experiences you have had prior to 
becoming the Lieutenant Governor of Utah working with Envision 
Utah and some of the efforts you had in transportation issues. 
Could you just explain how the collaborative effort was done 
and what result took place because of that?
    Mr. Bell. I guess it is called the third way, or whatever 
you want to refer to it as, but I think almost every speaker 
has alluded to it, and that is that because there now are 
stakeholders recognized almost on a 360 degree basis around so 
many contentious issues that the process really becomes more 
important at the first than the substance in that it brings 
people together of good faith, and people come in, check their 
bombs at the door, and try to cooperate and get to yes.
    And we have seen that progress in a multitude of contexts. 
Envision Utah is internationally acclaimed for having done that 
around urban, then transportation, regional planning, and has 
now moved into suburban and even some wilderness issues. 
Envision Utah just has the concept that this is a bottom up, 
not a bottoms up, that is a drinking term, so it is a bottom up 
process by which people come together, sit around a big table, 
it may take time, may take energy, may take a little money, but 
they are the honest broker.
    And Envision Utah has been very successful along the 
Wasatch front, but now has gone into the Wasatch back, into 
Washington County, throughout our state. And now you have 
Envision Montana, Envision whatever, Envision Central Texas. We 
have been copied and gladly share our secrets around the 
nation. And some kind of effort in this context along those 
lines seems to me to have tremendous fruit to bear where we 
could have a collaborative process.
    We just have to take account of Representative Hinchey's 
more national public investment point of view, public 
ownership, versus the local interests, the recreationalists, 
both at Mr. Garbett's end of the spectrum and also those 
offroad enthusiasts with motors. And there are a hundred other 
points of view on that, but that to me promises real success.
    Mr. Bishop. OK, thank you, I appreciate that. Commissioner 
Jones, I appreciate you coming out here. You are a County 
Commissioner and an elected Democrat, an endangered species in 
Utah I recognize. But could you just simply explain, I know the 
passion that you have already felt in here, the sentiments of 
your constituents, you have to listen to them to be elected, 
toward this particular bill. And I do want to talk about the 
land management plan with both of you in just a minute.
    Mr. Jones. They are utterly against it. The majority of the 
people that I talk to, rarely occasionally you will find 
somebody that is for locking up wilderness land in Carbon 
County, but the majority of the people that are there are 
against it because they depend on it for their livelihood. We 
depend on Federal land to build an economy.
    Mr. Bishop. The land management plan that was referred to 
earlier, in terms of how it was rushed through or in terms even 
that it was, ``illegal'' is one of the words that was thrown 
about about this, how long did that land management take to try 
and develop?
    Mr. Jones. It took us in Carbon County about seven years.
    Mr. Bishop. Was Carbon County part of the process in 
discussion with BLM that particular land plan?
    Mr. Jones. Sure, there was Carbon County, I believe SUWA 
was involved in those talks and several other groups.
    Mr. Bishop. Lieutenant Governor Bell, I understand that 
before the land plan was actually finalized by BLM, the State 
of Utah and their experts also had to sign off on every part 
that was part of that plan?
    Mr. Bell. Absolutely. We have been big players.
    Mr. Bishop. So one of the processes, I don't know how seven 
years can be a rush to judgment on anything, it is a long time 
in coming, but part of it is also that when you unilaterally 
decide to throw that out and start over again, it has 
ramifications on the expert testimony of those who are on the 
ground who are working within the Federal agencies as well as 
the counties as well as the states, all of whom came up to a 
common consensus before the bell went further with that. I 
realize I am over by 30 seconds, so let me wait until my next 
round and let others ask questions if they would.
    Mr. Heinrich. We will go on to Mr. Hinchey then.
    Mr. Hinchey. I want to thank you gentlemen very, very much 
for being here, and I very much appreciated everything that you 
said in the context of your testimony. And I agreed with a lot 
of it, more than 60 percent easily. But I appreciate everything 
that you said, and it was in some ways very informative. I 
think that fundamentally there is not a clear understanding of 
what the wilderness designation would be, what would be the 
effects of that. It wouldn't be locking the place up, it would 
have it open so that people could go in and enjoy it, and if 
there are things that need to be done in there you could bring 
the vehicles in to do them, there is no problem with that.
    But this is something that is very important, and I just 
wanted to ask a few questions in the short time that we have. 
Mr. Metcalf, if I may, in your testimony you spoke about the 
importance of the outdoor industry in the United States and the 
strong economic impact that that industry has in Utah. And I 
know that you are a businessman, you are directly connected 
with this, and I know that the things that you do are very 
important and they provide a lot of benefits for the people who 
are your customers.
    And I wonder if you could tell us more about what the 
designation of this land is likely to do with regard to 
improving the economic circumstances in Utah. That is one of 
the things that strike me so clearly. This is one of the most 
important aspects of economic development in Utah. And why you 
believe preserving these lands in Utah will create economic 
opportunities and jobs in the State of Utah?
    Mr. Metcalf. Yes, thank you. Let me begin by saying that 
outdoor recreation, active outdoor recreation, are activities 
such as hiking, camping, canyoneering, climbing, backpacking, 
canoeing, kayaking, fly fishing, hunting. All these activities 
require wild lands to do the activities, or at the very least 
some of these are close to home activities but everybody 
aspires to go to the wilder places.
    I was just down near Hanksville this fall canyoneering, and 
I was really pleased to see the number of young people out 
there in groups engaged in canyoneering, wanting to hike in and 
be in some wild place and engage in technical slot 
canyoneering. These activities really do require wild places to 
do them, and without preservation of these environments to do 
these activities, we no longer have a viable industry. It is 
kind of like saying we want to have factories but we zone 
everything for residential.
    The activities that the outdoor industry rely on, these 
active outdoor pursuits, not only are they healthy for our 
children and us as citizens, but they require places to go that 
aren't zoned for things like motorized recreation or mining or 
oil and gas extraction, those are two mutually incompatible 
uses. But I think the point that the outdoor industry is trying 
to make is that this isn't about locking lands up for 
preservation purposes versus jobs, it is jobs versus jobs.
    It is what kind of jobs do you want to have? Do you want to 
have a sustainable economy that is entrepreneurial in nature 
made up of a lot of small businesses that make their money off 
of outdoor recreation, or do you want to have a boom and bust 
cycle? I spent two years as a roughneck drilling for oil in 
Utah and in Wyoming during the first oil boom, and I witnessed 
firsthand what it was like when the oil boom crashed.
    I think that our approaches to how you balance your own 
savings, balance portfolio, is how we should approach also jobs 
in the West. Outdoor recreation requires us to save and 
preserve some of the lands for this very viable industry that 
contributes $750 billion a year to our GNP, but not to the 
exclusion of some of these other industries, but it is taking a 
balanced approach. And what we have right now in Utah with 
these new management plans that the BLM has put forth is a 
total weighting toward extractive industries and motorized.
    And in the plan of America's Red Rock Wilderness Act, we 
are only asking that 3,500 miles of designated roads out of 
20,000 in those management plans get pulled. That is a fraction 
when our own statistics, the BLM's own statistics show that in 
a place like Moab, only 8 percent of the visitors are engaged 
in motorized recreation. The rest are engaged in human powered 
active recreation. So clearly those two are incompatible, and 
those are the drivers of the recreation economy in America. 
Thank you.
    Mr. Hinchey. Thank you very much. If I may, Mr. Garbett, I 
know that your family, you and your family, are one of the 
oldest families in the State of Utah. And I appreciated hearing 
about the experiences that you had, the kinds of things that 
you have done. And I know that you have insight with regard to 
the economic circumstances and Utah and how positive it is to 
open up these wilderness lands and present them to the people 
in Utah and everyone else around the country so that they could 
come there and enjoy it, and what an impact that does make on 
the economy.
    And also if you would say something else about the offroad 
vehicles and the poorly managed circumstances there and the way 
in which that damages the land there. And to some extent I have 
heard speculations about how that damaging of land is 
contributing to the global warming problem that we are having 
as well. So if you could touch on that, I would appreciate it.
    Mr. Garbett. My family has been in Utah for a long time, 
and my interest was sparked when I used to go throughout the 
state with my father, he was a loan guarantee officer for the 
Veterans Administration and would travel through all the small 
towns in Utah. I hope that those that are on the other side of 
the issue of wilderness don't feel that we are not interested 
in what happens in Utah and what happens in their towns.
    I agree with Peter, I think that this would be a very 
viable way of creating jobs in Utah so that the children of the 
residents in southern Utah can stay there and don't have to 
move out. I have started many companies, and I think we are 
just seeing the beginning of the potential. Offroad vehicles, 
and I am glad that you asked that question, the dust that is 
created from offroad vehicles, the removal of vegetation which 
holds the dust in place, there is evidence now that that is 
actually affecting the ski industry in Colorado, and what it 
does is it covers the snow so it melts faster. Some estimates 
think that that is maybe as much as a month and a half faster, 
which also hurts agriculture if that runoff comes that much 
earlier.
    Mr. Heinrich. Mr. Bishop stuck to his five minutes, so I am 
going to try and keep things moving along here. Mrs. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman. Mr. Bell, I 
understand that the multiple uses currently allowed on the land 
in question are economic drivers in the State of Utah, whether 
through energy development, ranching, or recreation. Do you see 
the sweeping wilderness designations included in this bill 
raising or depressing revenue for the State of Utah and its 
local communities?
    Mr. Bell. I think the chart we saw this morning about the 
impact Federal lands have on our education for our children is 
really quite foundational. When you try to run an economy with 
public lands approaching 80 percent, when you take into account 
the Indian reservations, the Federal lands, the state 
ownership, it is really quite a burden, and of course we 
recognize the great advantage that these lands have as well, 
but still we are working with essentially 20 percent of our 
land to make a tax base for our state, so it is very difficult.
    And let me just continue by saying, I was in the Uinta 
Basin, which is the Vernal area which has enjoyed somewhat of 
an oil boom and a gas boom in the last two or three years, that 
economy now is reeling from the pullback of those energy 
facilities. And while it is encouraging over the long long term 
to say, well there might be entrepreneurial opportunities, it 
is really difficult to walk the streets of Vernal today and say 
for the next year or two or three or five, the RMPs have been 
rejected, the permits have been slowed down, the rigs have cut 
down to about a third, we have an energy problem in our 
country, it is almost impossible to deal with the current 
situation.
    Mrs. Lummis. Thank you. We have similar situations in 
Wyoming, it sounds like a very parallel story. Commissioner 
Jones, why do you think the Washington County and Cedar 
Mountain wilderness designations recently done in Utah were 
successful, and what do you think the sponsors of this bill can 
learn from those pieces of legislation?
    Mr. Jones. Well, community input. People had the 
opportunity to have input on those. I am opposed to large land 
grabs, as I call this because it is huge. And they are not 
really taking a look on the economic gestures or, you know, 
people who live that country, they ranch that country, they use 
the country for petroleum and energy influences. None of that 
was taken into consideration on this bill. And I believe that 
whenever Washington County's bill was looked at, they looked at 
those issues. And that is important to our economy in rural 
Utah whenever we build an economy on Federal lands.
    Mrs. Lummis. Both Mr. Anderson and Mr. Garbett, I would 
like you to consider this question. You are former public 
servants in Utah, and so I think you understand what kind of 
pressures we are facing here. One of my concerns with this bill 
is, the language is pretty broad and vague describing the 
number of acres and the lack of a map defining the areas to be 
designated. Whether it is wilderness or wind energy sites, do 
you think it is good policy for Congress to sign off on bills 
without knowing all those specifics? What kind of issues does 
that create for the implementers?
    Mr. Anderson. I read the Cedar Mountain Wilderness Act last 
night, and I saw that the map was to be presented by the 
Interior Secretary to define those areas. I think certainly the 
marking up of this bill presents a great opportunity for 
everybody to get together and determine the specifics. But we 
saw a map today, there is as great a clarity with respect to 
what this wilderness would be as with other wilderness acts, 
and I think that that all is going to be resolved as this bill 
is marked up and the details attended to. And that would 
include of course the wilderness area in Washington County that 
needs to be removed from the bill.
    Mr. Garbett. I have seen maps. It looks clear to me. I have 
also read the bill, and it is fairly detailed in the amount of 
acreage that it calls for in each area.
    Mrs. Lummis. OK, Mr. Garbett, excuse me, I had 
mispronounced your name earlier. It is Garbett, right?
    Mr. Garbett. Yes. Yes, it is. That is no problem.
    Mrs. Lummis. OK. Thank you. I apologize.
    Mr. Heinrich. Mrs. Lummis.
    Mrs. Lummis. What I saw, Mr. Chairman, was references to 
things like 10,000 acres more or less. And, you know, I have a 
ranch that is 10,000 acres more or less. I know that that is--
--
    Mr. Heinrich. And you would prefer a ranch that was 10,000 
acres more as opposed to less.
    Mrs. Lummis. You have it, exactly. And one more question, 
or is my time up?
    Mr. Heinrich. It is. We will do another round if that is 
OK.
    Mrs. Lummis. Thank you.
    Mr. Heinrich. Mr. Bishop?
    Mr. Bishop. Let me just do a couple, and I appreciate the 
gentlelady from Wyoming bringing that up because I was the one 
that did the Cedar Mountain bill and the map had to be there 
and it had to be specific before we had the hearing. Otherwise, 
Chairman Pombo would not let us go forward with that, and we 
had done it on the ground and had made specific changes to the 
map. So it was there, it was specific, it was not labeled as 
XX. There is a difference in the process in which we are going 
with this.
    There is just one other question I have of Mr. Bell 
perhaps, Lieutenant Governor Bell. And maybe Mr. Hinchey would 
help me with this because there was one element of revisionist 
history that became just abundantly unusual to me when you said 
that the reason the Federal Government has all this land is 
because the states abandoned this land. That is a unique 
concept there. Do you want to clarify what you mean by ``states 
abandoning this land''? And, Lieutenant Governor Bell, did 
anyone in Utah ever use that as the philosophy of what we have 
when we try to talk about these territories as these parcels, 
which was supposed to supply a state fund for education by the 
way, of being abandoned? That is just such a bizarre verb ever 
to be used.
    Mr. Hinchey. Obviously, Mr. Bishop, there is a clear 
misunderstanding of the situation here. The circumstances of 
the lands that are overseen by the Federal Government in this 
country comes about as a result of the fact that the states 
were not interested in them and did not organize them in any 
way, none of the property was being sold to individual citizens 
back at that time. And that is basically, Mr. Bishop----
    Mr. Bishop. If I could reclaim my time, can I ask you where 
you actually got that concept?
    Mr. Hinchey. If I were you, Mr. Bishop, I would let 
somebody that you ask a question finish it before you try to 
interrupt them.
    Mr. Bishop. Just if you can tell me where you got that 
concept though.
    Mr. Hinchey. Mr. Bishop, that is the fact. All you need to 
do is go back and look at the history, the early history of the 
country, and you see that that is how basically the open lands 
in a great many states were organized in that way, and how they 
came about and how the Federal Government's oversight of that 
land eventually came about.
    Mr. Bishop. Mr. Bell, have you ever heard that one before?
    Mr. Bell. Well, it is my understanding these public lands 
from statehood have never been owned by the State of Utah, and 
our authority over those has been nonexistent. So I don't know, 
perhaps we are missing a defined term here. We do have of 
course school lands in every section, and it is somewhat 
difficult to manage those scattered lands because you can't 
sell them if they are surrounded by Federal lands, and perhaps 
that is what the good Representative is talking about. But in 
the last 30 years Utah has aggressively organized itself to 
manage state trust lands for the benefit of the students of 
Utah, and that has yielded tremendous returns.
    Mr. Bishop. Let me, I don't mean to cut you off here, but I 
am going to run out of time here very quickly. And I appreciate 
the concept you went in there because once again, when we had 
to present the map, we had to go in there and find out not only 
what were the private holdings but we also had to go upon the 
state trust lands and make sure that we were not imposing upon 
them something that still has to be done. That is a very time 
consuming concept that is there.
    And it is also unique because simply, these lands that were 
taken at statehood were supposed to provide a state trust fund 
for the education in the State of Utah, hardly the concept of 
abandonment. I think what we probably have to do here is get 
some lexicon discussions going as to what the word 
``abandonment'' means, but for those of us in the West that is 
a unique concept that is not historically part of the history 
we are looking at. And I appreciate that, and perhaps we are 
just dealing with semantics at this stage of the game, but it 
is an unusual and unique semantics game in which we are 
engaged. I will yield back.
    Mr. Heinrich. Mr. Hinchey.
    Mr. Hinchey. Thank you very much, Mr. Chairman. Again, I 
think that this is a very interesting discussion, and again I 
want to express my appreciation to all of you for being here. 
These things are very important. One of the things that we are 
interested in, those of us who are sponsoring this bill, is to 
try to do everything that we can for this particular state in 
the context of this extraordinary land that it has, and how 
that land can be used in that state effectively for the people 
in that state, and how it can be enjoyed more by people in 
other places that are neighbors to that state and other places 
around the country. That is basically what we are trying to do 
here.
    You are dealing with something that is absolutely the most 
startlingly beautiful lands almost anywhere on the planet. So 
that is one of the main focuses of our attention. And I wanted 
to ask Mayor Anderson if he would respond to a question or so, 
there are so many things that have been done in the context of 
your experience as mayor, and I very much appreciate the 
testimony that you gave. That city is a wonderful place and it 
is the largest and most important city in Utah.
    And one of the things that you mentioned in the context of 
your discussion with the display, that picture that you showed, 
how the public lands around the City of Salt Lake have had a 
positive impact, and maybe you could talk a little bit more 
about that. But also, I know you are a former trial attorney 
and you have an extensive background in issues of 
Constitutional law, and I know that some of the people opposed 
to this bill have argued that the Federal Government was 
required by the Constitution to relinquish its Federal lands in 
Utah upon the state's admission to the union. Perhaps you could 
talk to us a little bit about that as well.
    Mr. Anderson. I am going to take the latter one first if I 
may. There has been, to use the politest term I can think of, a 
very strange legal argument used by those who call themselves 
``sage brush rebels'' or ``the county supremacists,'' who say 
that there is an equal footing doctrine. Congressman Bishop 
wrote about this in an op-ed piece saying that it is in Article 
4 of the United States Constitution, which coming from a strict 
constructionist I would think that you would want to look at 
the language of Article 4, you see that there is nothing of the 
sort in Article 4 or anywhere else in the Constitution.
    Their concept is that all of the states after the original 
13 states were to be admitted to the union on an equal footing, 
and so they say that means since there was no Federal land in 
the first 13 states, therefore there couldn't be any land at 
the time of statehood in any of the new states. Absolutely no 
basis for it. There was one old Supreme Court decision where 
they said that the beds and banks of navigable streams are part 
and parcel of a state's sovereignty, so that when a state 
becomes a state if the Federal Government owned the banks and 
the beds of navigable streams then that goes to the state. That 
is as far as it goes.
    And in fact this theory has been expressly rejected by the 
United States Court of Appeals. So there really is nothing to 
that. The inconsistent argument that I have also read from 
Congressman Bishop is that somehow the enabling act for Utah 
becoming a state requires that the Federal Government sell all 
of its lands and give 5 percent of the proceeds to the state. 
It doesn't say that at all. It uses the word ``shall'' the 
first time in the section that he refers to in the context of, 
if the government shall sell the lands then it gives 5 percent 
of the proceeds.
    And that has to be the meaning because in Section 3 of the 
enabling act it provides all sorts of explicit requirements and 
prohibitions that clearly contemplate that those Federal lands 
will be retained by the Federal Government, which of course is 
what the property clause under Article 4 of the United States 
Constitution contemplates as well. And that means that Congress 
shall determine the use and the management for those lands.
    Regarding the value of the these wilderness areas around 
the Salt Lake City area, it is really interesting when you go 
back and look in the archives, Deseret News, March 3rd, 1977, 
everybody, Salt Lake City, Utah's two House Members were 
recommending that wilderness designation for Lone Peak be 
rejected. Same thing in 1984 regarding Deseret Peak, Stansbury 
wilderness area. These articles read exactly like what we are 
hearing from the opponents of the Red Rock Wilderness Act in 
terms of the objections.
    It is something that we have seen in the Ken Burns 
documentary now in terms of preserving our Federal lands either 
as national parks, national monuments. We know that in every 
one of these instances, and certainly it is the case with 
regard to all these wilderness areas around Salt Lake City.
    Mr. Heinrich. Mr. Anderson, because your time is expires, I 
am just going to ask you to wrap it up.
    Mr. Anderson. OK. We know that everyone now looks back with 
gratitude for those who stood up against the opposition and 
made certain that these lands were preserved for later 
generations.
    Mr. Hinchey. Thank you very much for that. And I think that 
what we are trying to focus on here is some of the 
misunderstanding that is generating opposition to the kinds of 
things that are trying to be done on behalf of the people of 
the State of Utah. And I thank you very much for your answer.
    Mr. Heinrich. Thank you, Congressman. Mrs. Lummis, do you 
want to go to your next question?
    Mrs. Lummis. Thank you so much, Mr. Chairman. Mr. Metcalf, 
one of the areas recommended in this bill is only 390 acres in 
size, far below what the Wilderness Act requires. This is less 
than one square mile, it is only about a half a square mile. 
How do you think that particular area known as Sooner Bench 
meets the requirements of the Wilderness Act?
    Mr. Metcalf. I have to be honest with you, I don't know the 
specifics of that piece of property, but I will tell you this, 
that as somebody who has moved a business to Salt Lake that is 
located only about two miles from a wilderness boundary and I 
go there at lunch, I can cross into the wilderness and look 
over my shoulder and see tractor trailer rigs rumbling along 
and hear the noise, but it doesn't remove for a moment the 
sense of wonderment I get from being in that wilderness, seeing 
Rocky Mountain Bighorn Sheep, elk, deer, et cetera. So I don't 
see necessarily a contradiction that you may be referring to, 
but I don't know the specifics of that parcel.
    Mrs. Lummis. Mr. Chairman, anyone, know that parcel?
    [No response.]
    Mrs. Lummis. OK. Thank you, Mr. Chairman.
    Mr. Heinrich. Mr. Bishop.
    Mr. Bishop. If no one else has other questions, I realize 
our guests have been here forever and are trying to go on. I 
have other questions, obviously I can go on all night, but if 
no one else has other questions I will refrain and we will just 
go on with this. Let me just thank our good friends for coming 
up here, coming back here, I appreciate your participation, I 
appreciate your willingness to be here. Thank you so much for 
your time and dedication. And look to 1848 for some Supreme 
Court cases.
    Mr. Heinrich. Thank you. And I too want to express our 
thanks to all of our panelists today in all four panels. Go 
ahead, Mr. Hinchey.
    Mr. Hinchey. If you don't mind, one of the issues that was 
brought up was the issue of education and how potentially the 
expansion of wilderness land is going to have a negative impact 
on education. But we know from our experience that it is quite 
the opposite. And so I would ask you, if we could start with 
the mayor first and come back, talk to us a little bit about 
education and the way in which education needs to be funded and 
how this would be beneficial to that process.
    Mr. Anderson. Well, we have the small parcels of STLE 
lands, the State Trust Lands for Education, and you will see 
those at little blue dots, little squares on the maps. This Act 
actually requires the Secretary of the Interior to trade out 
those lands that would be within the wilderness area for other 
lands of at least equal value.
    The fact is that the designation, for instance of the Grand 
Staircase Escalante Monument, has been a boon for Utah's 
schools because they took all of those isolated tracks that 
were very unproductive and that were separated from each other, 
and up in I believe it is called Drunkard's Wash up in the 
Price area, the BLM has traded those properties in the Grand 
Staircase Escalante Monument for contiguous properties up near 
Price, Utah, and 60 percent of all the gas and oil revenues 
that have gone to the state school trust has come from those 
lands.
    So this would be of great benefit to our schools. But in 
arguing about these STLE lands, one must recognize that only 
about six tenths of 1 percent of our entire education budget 
comes from these lands. So anything we can do to increase the 
productivity, as has been accomplished, through designation, 
protection of these Federal lands I think is of great benefit 
to the state, to our students, to our teachers.
    Mr. Hinchey. Thank you, Mr. Mayor. Mr. Garbett?
    Mr. Garbett. As a former legislator, education is the 
number one concern of the State of Utah, and trying to find the 
money to educate our kids. It is hard, we have a lot of 
children, not a lot of money. And my support for this bill is, 
based on from what I have seen, that it will not have effect on 
ways of earning money, oil, gas, and the effect there will be 
very minimal. And so that we can continue to receive those 
revenues as well as save our valuable resource for those 
children that go to school and for future generations in our 
state and across America.
    Mr. Hinchey. Thank you. Mr. Metcalf?
    Mr. Metcalf. I think the only thing I can add to those 
excellent answers is simply that I think we want to be sure we 
don't lose sight of the fact that Utah is not just a one-
industry state. We keep talking about oil and gas, oil and gas. 
We have seen the boom and bust cycles over the last three 
decades since I have lived in the West. And what this bill 
helps do is to preserve the lands that allow for another 
industry to remain relevant for many, many generations to come, 
that of active outdoor recreation.
    And that is without even going into the aspects of global 
warming, obesity, making sure that we get our children 
outdoors. And as somebody who is an active outdoor participant, 
it is wonderful to see the number of Utah schoolchildren who 
get out to use these wild lands that we have. So that is an 
important issue too. But a balanced business portfolio is 
essential to the livelihood and vibrancy of this state's 
economy in the decades to come.
    Mr. Hinchey. I thank you very, very much. Thank you, Mr. 
Chairman.
    Mr. Heinrich. Thank you. Mr. Bishop.
    Mr. Bishop. When we come back for a markup on this bill, we 
will have a nice discussion on Utah's equalization formula for 
education and the recapture program and how that actually has 
happened historically in the State of Utah. But I realize we 
are trying to get out of here so I am not trying to prolong 
this with more questions.
    Mr. Heinrich. Thank you, Mr. Bishop. I want to thank once 
again all of our panelists today for coming all the way to 
Washington to make your testimony, and I want to thank all of 
you for your patience with us as we moved back and forth 
between here and the House Chamber. And we will wrap this up. 
Thank you so much.
    [Whereupon, at 3:15 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
